No. 20-___
IN THE

Supreme Court of the United States
States of NEW YORK, CONNECTICUT,
NEW JERSEY, RHODE ISLAND, and WASHINGTON,
and Commonwealths of MASSACHUSETTS
and VIRGINIA,
Petitioners,
v.
UNITED STATES DEPARTMENT OF JUSTICE,
WILLIAM P. BARR, as Attorney General
of the United States,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
ANISHA S. DASGUPTA
Deputy Solicitor General
LINDA FANG
ARI SAVITZKY
Assistant Solicitors General
28 Liberty Street
New York, New York 10005
(212) 416-8020
barbara.underwood@ag.ny.gov
*Counsel of Record
(Additional counsel listed on signature pages.)

i
QUESTION PRESENTED
Congress enacted the Edward Byrne Memorial
Justice Assistance Grant (Byrne JAG) program,
codified at 34 U.S.C. §§ 10151-10158, to provide
funding for state and local criminal justice priorities.
The Byrne JAG statute sets aside funds for every
State and major city through a statutory formula
based on population and crime rates, and directs that
the U.S. Department of Justice (DOJ) “shall . . .
allocate” funds according to that formula. Id.
§ 10156(a), (b)(2), (d).
In 2017, DOJ declared that it would withhold
Byrne JAG funding from any jurisdiction that did not
accept three new conditions of DOJ’s own design. The
conditions require state and local government grant
recipients to (1) respond to ad hoc requests from
federal officials for the release dates of non-citizens in
grantees’ custody; (2) provide federal agents with
access to grantees’ jails and police stations in order to
question suspected non-citizens; and (3) certify
compliance with 8 U.S.C. § 1373, which purports to
prohibit state and local governments from regulating
when their employees may share information with
federal officials regarding a person’s citizenship or
immigration status.
The First, Third, Seventh, and Ninth Circuits
have held that Congress did not authorize DOJ to
impose the new conditions. The Second Circuit
reached the opposite conclusion.
The question presented is:
Did Congress authorize DOJ to condition Byrne
JAG funding on acceptance of DOJ’s three new
requirements?

ii
PARTIES TO THE PROCEEDING
Petitioners, who were plaintiffs in the district
court and appellees in the court of appeals, are the
States of New York, Connecticut, New Jersey, Rhode
Island, and Washington, and the Commonwealths of
Massachusetts and Virginia.
Respondents, who were defendants in the district
court and appellants in the court of appeals, are the
U.S. Department of Justice and William P. Barr, in his
official capacity as the U.S. Attorney General.
The City of New York was also a plaintiff in the
district court proceeding and an appellee in the court
of appeals. The City is separately represented and has
filed its own petition for certiorari.

iii
RELATED PROCEEDINGS
There are two directly related proceedings here
within the meaning of this Court’s Rule 14.1(b)(iii):
State of New York v. Department of Justice, S.D.N.Y.
No. 18-cv-6471 and City of New York v. Whitaker,
S.D.N.Y. No. 18-cv-1674. The proceedings were
marked as related and heard and decided in tandem.
On November 30, 2018, the district court entered a
permanent injunction against imposing or enforcing
the grant conditions, which was vacated by the Second
Circuit on February 26, 2020. The Second Circuit
denied rehearing en banc on July 13, 2020.
The U.S. Department of Justice has filed a petition
for a writ of certiorari from a Ninth Circuit judgment,
issued on July 13, 2020, that invalidated two of the
grant conditions upheld by the Second Circuit. See
Barr v. City & County of San Francisco, No. 20-666.

iv
TABLE OF CONTENTS
Page
Table of Authorities ....................................................vi
Opinions Below ............................................................ 1
Jurisdiction .................................................................. 1
Statutory and Regulatory Provisions Involved ......... 1
Introduction ................................................................. 2
Statement .................................................................... 4
A.

Statutory and Regulatory Background ............ 4

B.

Procedural Background .................................... 7

Reasons For Granting The Petition .......................... 12
A.

The Circuits Are Split on the Important
Question Presented Here................................ 13
1. One circuit has sustained DOJ’s new
conditions and four circuits have held
they are ultra vires. ................................... 13
2. The circuit split destabilizes a large
nationwide grant program. ....................... 16

B.

The Decision Below Misconstrues the
Byrne JAG Statute in a Manner That Has
Broad Legal and Practical Implications. ....... 19
1. The decision below improperly
converted a mandatory formula grant
into a discretionary grant. ........................ 19
2. The decision conflicts with this Court’s
Spending Clause, Tenth Amendment,
and severability precedents. ..................... 29

v
Page
3. The decision has the potential to
destabilize other non-discretionary
federal grant programs. ............................ 33
C.

This Case Is an Ideal Vehicle for Resolving
the Circuit Split Over DOJ’s New Byrne
JAG Funding Conditions. ............................... 34

Conclusion.................................................................. 35
Appendix A – Court of appeals opinion
(Feb. 26, 2020) ................................... 1a
Appendix B – Court of appeals order denying
rehearing with opinions
(July 13, 2020) ................................. 74a
Appendix C – District court opinion and order
granting injunctive relief
(Nov. 30, 2018) ............................... 117a
Appendix D – District court order modifying
injunctive relief (Jan. 4, 2019) ...... 171a
Appendix E – Statutory provisions ...................... 174a

vi
TABLE OF AUTHORITIES
Cases

Page(s)

Arizona v. United States, 567 U.S. 387 (2012) ......... 33
Azar v. Allina Health Servs., 139 S. Ct. 1804
(2019) .................................................................... 24
Bostock v. Clayton County, 140 S. Ct. 1731
(2020) .................................................................... 26
Circuit City Stores, Inc. v. Adams, 532 U.S. 105
(2001) .................................................................... 26
City & County of San Francisco v. Barr, 965
F.3d 753 (9th Cir. 2020) ............................... passim
City & County of San Francisco v. Sessions, 349
F. Supp. 3d 924 (N.D. Cal. 2018) ......................... 31
City of Chicago v. Barr, 961 F.3d 882 (7th Cir.
2020) ............................................................. passim
City of Chicago v. Sessions, 321 F. Supp. 3d 855
(N.D. Ill. 2018) ...................................................... 31
City of Chicago v. Sessions, 888 F.3d 272 (7th
Cir. 2018) .............................................................. 15
City of Evanston v. Barr, 412 F. Supp. 3d 873
(N.D. Ill. 2019) ...................................................... 18
City of Los Angeles v. Barr, 941 F.3d 931 (9th
Cir. 2019) ...................................................... passim
City of Los Angeles v. McLaughlin, 865 F.2d
1084 (9th Cir. 1989) ............................................. 19
City of Philadelphia v. Attorney General, 916
F.3d 276 (3d Cir. 2019) ................................ passim
City of Philadelphia v. Sessions, 309 F. Supp.
3d 289 (E.D. Pa. 2018) ......................................... 31
City of Providence v. Barr, 954 F.3d 23 (1st Cir.
2020) ............................................................. passim

vii
Cases

Page(s)

Clark v. Martinez, 543 U.S. 371 (2005) .................... 29
DeCanas v. Bica, 424 U.S. 351 (1976) ...................... 33
Duncan v. Walker, 533 U.S. 167 (2001) .................... 28
McDermott Int’l, Inc. v. Wilander, 498 U.S. 337
(1991) .................................................................... 27
Murphy v. National Collegiate Athletic
Association, 138 S. Ct. 1461 (2018) ............. passim
Pennhurst State School & Hospital v.
Halderman, 451 U.S. 1 (1981) ............................. 29
Printz v. United States, 521 U.S. 898 (1997) ....... 31,33
Randall v. Sorrell, 548 U.S. 230 (2006) .................... 32
Tennessee Valley Auth. v. Hill, 437 U.S. 153
(1978) .................................................................... 22
United Sav. Ass’n of Tex. v. Timbers of Inwood
Forest Assocs., 484 U.S. 365 (1988) ..................... 21
Whitman v. American Trucking Ass’ns, 531
U.S. 457 (2001) ..................................................... 22
Constitutional Provisions
Tenth Amendment............................................. passim
Laws
Anti-Drug Abuse Act of 1988, Pub. L. No. 100690, 102 Stat. 4181................................................. 4
Justice Assistance Act of 1984, Pub. L. No. 98473, 98 Stat. 1837................................................... 4
Justice System Improvement Act of 1979, Pub.
L. No. 96-157, 93 Stat. 1167 .................................. 4

viii
Cases

Law(s)

Omnibus Crime Control and Safe Streets Act of
1968, Pub. L. No. 90-351, 82 Stat. 197 (1968).. 4,20
Violence Against Women and Department of
Justice Reauthorization Act of 2005, Pub. L.
No. 109-162, 119 Stat. 2960 (2006) ....................... 4
8 U.S.C. § 1373 .................................................. passim
28 U.S.C. § 1254 .......................................................... 1
34 U.S.C.
§ 10102 ............................................................... 7,14
§§ 10151-10158 .................................................... 1,5
§ 10152 ............................................................... 5,17
§ 10153 .......................................................... passim
§ 10156 .......................................................... passim
§ 10157 ............................................................. 14,21
§§ 10171-10191 ..................................................... 22
§ 10201 .................................................................. 19
§ 10228 .................................................................... 5
§ 10228 .................................................................. 20
§ 11322 .................................................................. 24
§ 20927 ............................................................. 14,21
§ 30307 ............................................................. 15,21
42 U.S.C.
§ 1396a ............................................................. 13,33
§ 5304 .................................................................... 33
Miscellaneous Authorities
Controlling Crime Through More Effective Law
Enforcement: Hearings Before the Subcomm.
on Criminal Laws and Procedure of the S.
Comm. on the Judiciary, 90th Cong. (1967)........ 20

ix
Miscellaneous Authorities

Page(s)

Department of Justice, Bureau of Justice
Assistance, Reporting Requirements for JAG,
https://bja.ojp.gov/sites/g/files/xyckuh186/
files/media/document/jag_reporting.pdf .............. 24
Department of Justice, Law Enforcement
Assistance Admin., Guideline Manual: Guide
for Discretionary Grant Programs (1978)............ 27
Department of Justice, Restructuring the Justice
Department’s Program of Assistance to State
and Local Governments for Crime Control
and Criminal Justice System Improvement
(June 23, 1977) ..................................................... 27
H.R. Rep. No. 109-233 (2005) ................................. 5,19
Ilya Somin, Making Federalism Great Again:
How the Trump Administration’s Attack of
Sanctuary Cities Unintentionally
Strengthened Judicial Protection for State
Autonomy, 97 Tex. L. Rev. 1247 (2019) ............... 30
John K. Hudzik, Federal Aid to Criminal
Justice: Rhetoric, Results, Lessons (1984),
http://www.ncjrs.gov/pdffiles1/Digitization/95
436NCJRS.pdf ...................................................... 20
Merriam-Webster’s Dictionary (online ed.) ............... 23
Restructuring the Law Enforcement Assistance
Administration: Hearings Before the
Subcomm. on Crime of the H. Comm. on the
Judiciary, 95th Cong. (1977) ............................... 27
S. Rep. No. 90-1097 (1968) ........................................ 20

OPINIONS BELOW
The Second Circuit panel’s opinion (Pet. App. 1a73a) is reported at 951 F.3d 84. The district court’s
opinion (Pet. App. 117a-170a) is reported at 343 F.
Supp. 3d 213. The opinions concurring in and
dissenting from denial of rehearing en banc in the
Second Circuit (Pet. App. 77a-116a) are reported at
964 F.3d 150.
JURISDICTION
The court of appeals entered judgment on
February 26, 2020. A timely petition for rehearing was
denied on July 13, 2020. On March 19, 2020, this
Court extended the deadline for filing a petition for a
writ of certiorari to 150 days from, as relevant here,
an order denying a timely petition for rehearing. The
effect of that order was to extend the deadline for filing
a petition for a writ of certiorari to December 10, 2020.
This Court’s jurisdiction rests on 28 U.S.C. § 1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
The statutory provisions are 34 U.S.C. §§ 1015110158, and 8 U.S.C. § 1373. They are reproduced at
Pet. App. 176a-192a and 174a-175a, respectively.

2
INTRODUCTION
Since 1968, Congress has provided annual block
grants totaling hundreds of millions of dollars to all
States, in order to ensure a reliable stream of funding
to support local law-enforcement and criminal justice
needs. The Edward Byrne Memorial Justice Assistance
Grant (Byrne JAG) program, which is named for a
New York City police officer who was killed in the line
of duty, is the current version of this important, nationwide grant program. It is the single largest source of
federal financial assistance for state and local criminal
justice and law-enforcement efforts.
Congress designed Byrne JAG as a formula grant.
The program statute designates money for every State
and certain large municipalities according to population and crime rate, and directs the Attorney General
to allocate funds according to that statutory formula.
See 34 U.S.C. § 10156. In 2017, the U.S. Department
of Justice (DOJ) announced that States and localities
would not be eligible to receive Byrne JAG formula
grants unless they agreed to three conditions of DOJ’s
own devising. Those conditions require States and
localities to (1) respond to ad hoc requests from the
U.S. Department of Homeland Security (DHS) for the
release dates of non-citizens in grantees’ custody;
(2) give federal officials access to state and local detention facilities in order to question persons suspected of
being non-citizens; and (3) certify the grantee’s and any
subgrantees’ compliance with 8 U.S.C. § 1373, which
purports to prohibit state and local governments from
regulating when their employees may share information with federal officials regarding a person’s citizenship or immigration status.

3
States and localities throughout the country
(including the seven States petitioning here) challenged DOJ’s new eligibility criteria for Byrne JAG
funding, and the federal courts of appeals split on
whether DOJ had authority to impose them. The First,
Third, Seventh, and Ninth Circuits all held that DOJ
lacked authority to impose its own conditions for Byrne
JAG grants. See City & County of San Francisco v.
Barr, 965 F.3d 753 (9th Cir. 2020); City of Chicago v.
Barr, 961 F.3d 882 (7th Cir. 2020); City of Providence
v. Barr, 954 F.3d 23 (1st Cir. 2020); City of Philadelphia
v. Attorney General, 916 F.3d 276 (3d Cir. 2019); see
also City of Los Angeles v. Barr, 941 F.3d 931 (9th Cir.
2019). The Second Circuit, in the decision below,
concluded that the conditions were authorized. Pet.
App. 4a-6a. A divided Second Circuit then denied
petitioners’ request for en banc rehearing. Pet. App.
74a-76a.
It may be unnecessary for this Court to resolve the
circuit split, if the incoming administration decides to
withdraw the challenged conditions and to end the
dispute in this and other parallel litigation. But to the
extent that DOJ remains committed to imposing the
challenged conditions, the existing circuit split over the
conditions’ lawfulness directly threatens the stability
of an important national grant program. This case
presents an ideal vehicle for resolving that split
because it is the only live suit offering a complete
presentation of all of the issues on which the circuits
are divided.

4
STATEMENT
A. Statutory and Regulatory Background
1. The Byrne JAG program’s origins date back to
the first criminal justice block grants for States and
localities that Congress enacted as part of the
Omnibus Crime Control and Safe Streets Act of 1968,
Pub. L. No. 90-351, tit. I, 82 Stat. 197, 197 (1968). 1
Recognizing that “crime is essentially a local problem
that must be dealt with by State and local governments,” id., Congress sought to provide a reliable
funding stream for States and localities to use in accordance with their own law-enforcement priorities, id.
§§ 201-202, 82 Stat. at 198.
The 1968 Act included a statutory provision
explicitly confirming that the criminal justice block
grants Congress was creating could not be used by the
federal government to exert “direction, supervision, or
control” over state and local police forces or lawenforcement agencies. See id., § 518(a), 82 Stat. at 208.
That statute, which is now codified in the same
chapter as the current Byrne JAG program, provides
that “[n]othing in this chapter or any other Act shall
be construed to authorize any department, agency,
1 See Justice System Improvement Act of 1979, Pub. L. No.
96-157, § 2, 93 Stat. 1167, 1179 (amending Title I of the 1968 Act
and reauthorizing law-enforcement block grants to States and
localities); Justice Assistance Act of 1984, Pub. L. No. 98-473, 98
Stat. 1837, 2077-85 (same); Anti-Drug Abuse Act of 1988, Pub. L.
No. 100-690, § 6091, 102 Stat. 4181, 4329 (amending Title I of the
1968 Act and creating formula law-enforcement grant); Violence
Against Women and Department of Justice Reauthorization Act
of 2005, Pub. L. No. 109-162, § 1111, 119 Stat. 2960, 3094 (2006)
(amending Title I of the 1968 Act and creating the modern Byrne
JAG program).

5
officer, or employee of the United States to exercise
any direction, supervision, or control over any police
force or any other criminal justice agency of any State
or any political subdivision thereof,” 34 U.S.C.
§ 10228(a).
Congress codified the modern Byrne JAG program
in 2006. See id. §§ 10151-10158. DOJ administers the
Byrne JAG program through its Office of Justice
Programs (OJP). CA2.J.A. 185.
The Byrne JAG program is structured as a nondiscretionary formula grant. Congress directed funds
to be allocated to every State according to a formula
based on two factors: population and crime rate.
34 U.S.C. § 10156(a), (d)(2)(A). Congress provided that
of the funding allocated to each State, sixty percent of
funding “shall be for direct grants to States,” and forty
percent “shall be for grants” made directly to localities.
Id. § 10156(b), (d). Each State is required to make
pass-through awards to localities within the State. Id.
§ 10156(c)(2). Under this system, some localities
receive Byrne JAG funds as both direct grantees of
DOJ and subgrantees of their States.
As with Byrne JAG’s predecessor program,
Congress aimed to “give State and local governments
more flexibility to spend money for programs that
work for them rather than to impose a ‘one size fits all’
solution.” H.R. Rep. No. 109-233, at 89 (2005). To that
end, Congress allowed grantees substantial discretion
to use funds for any of eight “broad purposes,” id.,
including law enforcement, prevention and education
programs, technological improvements, and drug
treatment, 34 U.S.C. § 10152(a)(1). To “request” their
allotment of the grant funds appropriated by Congress
in a given year, state and local governments submit an

6
application “in such form as the Attorney General may
require.” Id. § 10153(A).
Congress provided that this application “shall
include” a plan detailing the applicant’s proposed use
of grant funds, id. § 10153(A)(6), as well as assurances
related to recordkeeping, data-sharing, public notice
and other process-related issues, id. § 10153(A)(1), (4).
The application must also contain “[a] certification,
made in a form acceptable to the Attorney General,”
attesting that, among other things, “the applicant will
comply with all provisions of [the Byrne JAG statute]
and all other applicable Federal laws.” Id.
§ 10153(A)(5)(D).
2. Petitioners here—the States of New York,
Connecticut, New Jersey, Rhode Island, and Washington, and the Commonwealths of Massachusetts and
Virginia (“the States”)—have received Byrne JAG
funds since the program’s inception in 2006. Pet. App.
10a. They use Byrne JAG funds for purposes such as
paying 911 operators, supporting opioid intervention
efforts, identifying and mentoring at-risk youth, and
funding local jurisdictions’ purchases and installations of upgraded technology, such as fingerprinting
equipment. Pet. App. 10a; SDNY Dkt. 89-1, at 26-41.
For the fiscal year (FY) 2017 grant, petitioners were
collectively awarded more than $25 million in direct
Byrne JAG funds. Pet. App. 24a.
In July 2017, DOJ announced that it was imposing
new eligibility criteria for FY 2017 Byrne JAG funds.
To receive their formula grants, States and localities
would be required to accept three conditions of DOJ’s
own choosing. Pet. App. 13a-15a. The first condition
requires state and local governments to maintain “a
law, rule, or policy for informing federal authorities,

7
upon request, of the scheduled release date of an alien
in the recipient’s custody” (the “notice condition”). Pet.
App. 14a-15a. The second requires state and local
governments to “have a law, rule, or policy in place
allowing federal authorities to meet with incarcerated
aliens in order to inquire about their rights to remain
in the United States” (the “access condition”). Pet.
App. 15a. The third requires state and local governments to certify their compliance (and their subgrantees’ compliance) with 8 U.S.C. § 1373, which purports
to prohibit States and localities from restricting
communications between their own employees and
federal immigration authorities “regarding the
citizenship or immigration status, lawful or unlawful,
of any individual” (the “§ 1373 compliance condition”).
Pet. App. 13a-14a.
B. Procedural Background
1. Petitioners brought this lawsuit challenging
DOJ’s new conditions as contrary to law, ultra vires,
arbitrary and capricious, and contrary to the Constitution’s Separation of Powers. New York City filed its
own action challenging the same conditions, which was
heard together with petitioners’ suit. Pet. App. 127a128a.
DOJ argued that the notice and access conditions
were authorized by 34 U.S.C. § 10102, a general
statutory provision that sets forth the duties of the
Assistant Attorney General for OJP, the office which
administers the Byrne JAG program along with many
other grant programs. Pet. App. 132a-134a; see also
SDNY Dkt. 89, at 14-18. DOJ also argued that the
§ 1373 compliance condition was authorized by 34
U.S.C. § 10153(A)(5)(D), a provision within the Byrne
JAG statute that provides for Byrne JAG applications

8
to include a certification of compliance “with all provisions of this part and all other applicable Federal laws.”
Pet. App. 135a-136a; see also SDNY Dkt. 89, at 18-20.
The U.S. District Court for the Southern District
of New York entered summary judgment for petitioners
on their challenges to DOJ’s new FY 2017 conditions,
holding that the conditions were ultra vires and arbitrary and capricious. Pet. App. 131a-140a, 155a-160a.
The district court concluded that § 10102 does not
authorize DOJ to create new eligibility criteria for
Byrne JAG awards (Pet. App. 132a-135a), and that
§ 1373 was not an “applicable Federal law[]” for
purposes of § 10153(A)(5) because it violates the Tenth
Amendment’s anti-commandeering prohibition and is
therefore invalid (Pet. App. 135a-154a). The court
further concluded that in light of the Byrne JAG
statute’s subgrant provisions, and of DOJ’s requirement that grantees monitor their subgrantees’ compliance with the new conditions, “to accord complete
relief to the States, an injunction must protect both
the States and their political subdivisions.” Pet. App.
168a n.28. The Court accordingly enjoined DOJ from
enforcing the new conditions against petitioners and
their political subdivisions, and ordered that DOJ
disburse petitioners’ statutory allotment of Byrne JAG
funds. Pet. App. 169a-170a.
2. On appeal, a panel of the Second Circuit
reversed the district court and vacated the injunction
against the challenged grant conditions. Consistent
with every other circuit to have passed on the question,
the panel rejected DOJ’s argument that § 10102
authorized DOJ to impose the notice and access conditions. Pet. App. 27a-29a. But the panel concluded that
§ 10153(A)—which tasks DOJ with determining the
“form” of Byrne JAG applications and certifications—

9
authorized DOJ to make grant-eligibility determinations, including to the extent of withholding grants
based on conditions of DOJ’s own choosing. Pet. App.
31a-33a.
The panel also construed § 10153(A)(4)—which
requires an “assurance that, for each fiscal year
covered by an application, the applicant shall . . .
report such data, records, and information (programmatic and financial) as the Attorney General may
reasonably require”—as authorizing the notice condition’s demand that States and localities respond to ad
hoc requests from DHS for detainee release dates. Pet.
App. 58a-61a. And it construed § 10153(A)(5)(C), which
requires Byrne JAG applicants to certify in their applications that “there has been appropriate coordination
with affected agencies,” as authorizing both the notice
and access conditions; the court posited that such
coordination could include providing federal immigration agents with detainee release dates and access to
state and local detention facilities, on an ongoing
basis. Pet. App. 61a-68a.
The panel found authorization for the § 1373
compliance condition in § 10153(A)(5)(D)’s requirement
that applicants certify they “will comply with all
provisions of [the Byrne JAG statute] and all other
applicable Federal laws.” Pet. App. 33a-34a. The panel
read “all other applicable Federal laws” to encompass
any federal statute covering States and localities—
even those unrelated to grant-making and law enforcement—and then took the breadth of what would be
covered under that interpretation as an indication
that Congress authorized DOJ to choose which of
those statutes to make into Byrne JAG funding conditions. Pet. App. 33a-42a.

10
In response to the district court’s conclusion that
§ 1373 violated the Tenth Amendment and thus could
not be an “applicable Federal law,” the panel stated
that § 1373 was valid under a “principle of severability” as long as it could be lawfully imposed as a
funding condition pursuant to the Spending Clause
(Pet. App. 48a-49a, 54a-57a)—even though § 1373 is
written not as a funding condition but as a direct
command to state and local governments. And
although the panel purported not to pass on the
constitutionality of § 1373 as a standalone statute, it
nevertheless went on to suggest that, notwithstanding
this Court’s decision in Murphy v. National Collegiate
Athletic Association, 138 S. Ct. 1461 (2018), the Tenth
Amendment would not bar the federal government
from directly regulating state legislative and rulemaking activities, so long as the regulated activities
related in some way to federal immigration policy
goals. Pet. App. 49a-53a.
3. A divided Second Circuit denied petitioners’
request for en banc review. Judges Cabranes,
Livingston, Sullivan, Bianco, Nardini, and Menashi
concurred in the denial of en banc review but observed
that “reasonable judicial minds” could disagree with
the panel’s reasoning. Pet. App. 77a-78a. They further
noted that the question presented here was of national
importance and worthy of resolution by this Court.
Pet. App. 77a, 81a.
Judges Lohier and Hall concurred in the denial of
rehearing based on the view that this Court could
resolve the circuit split and the “very serious errors”
perpetuated by the panel’s opinion more quickly than
the en banc review process. Pet. App. 82a. They
observed that “twelve judges—including one former
Supreme Court Justice—appointed by six different

11
presidents, sitting in four separate circuits, representing a remarkable array of views and backgrounds,
responsible for roughly forty percent of the United
States population,” had all concluded that the Byrne
JAG conditions at issue were unlawful. 2 Pet. App. 82a.
Characterizing the panel’s decision as “novel” and
“misguided,” they urged that “if there is a single panel
decision that the Supreme Court ought to review from
this Circuit next Term, it is this one.” Pet. App. 82a.
Judges Pooler, Chin, and Carney dissented from
the denial of rehearing, criticizing the panel’s decision
as “ignor[ing] the words of the statute, the relevant
legislative history, and the conclusions of our sister
circuits.” Pet. App. 91a, 94a.
Then–Chief Judge Katzmann also dissented,
criticizing the panel for reversing the district court
“based on legal arguments that [DOJ] either had not
made, had abandoned, or had even expressly
disavowed.” Pet. App. 109a.

2 After the Second Circuit’s denial of en banc review, the
Ninth Circuit issued another unanimous panel decision holding
that the challenged conditions were unlawful, increasing to
fifteen the number of appellate judges outside the Second Circuit
who have reached that conclusion. See San Francisco, 965 F.3d
753 (9th Cir.) (Clifton, Fletcher, Miller, JJ.), pet. for cert filed Nov.
13, 2020, No. 20-666; see also Chicago, 961 F.3d 882 (7th Cir.)
(Rovner, Bauer, Manion, JJ.); Providence, 954 F.3d 23 (1st Cir.)
(Selya, Barron, JJ., Souter, AJ.); Los Angeles, 941 F.3d 931 (9th
Cir.) (Ikuta, Wardlaw, Bybee, JJ.) (considering and enjoining
notice and access conditions only); Philadelphia, 916 F.3d 276 (3d
Cir.) (Rendell, Ambro, Scirica, JJ.).

12
REASONS FOR GRANTING THE PETITION
By constituting Byrne JAG as a mandatory
formula grant to all States and sufficiently sized
localities, Congress determined which jurisdictions
would be eligible for Byrne JAG funding and in what
amounts. The decision below impermissibly disregards
Congress’s carefully chosen design for this national
grant program—the single largest source of federal
financial assistance for state and local criminal justice
and law-enforcement efforts—by allowing DOJ to
alter the eligibility criteria for Byrne JAG funding,
thus turning a mandatory formula grant program into
a discretionary one.
Every other court to consider the question
presented—including unanimous panels of the First,
Third, Seventh, and Ninth Circuits—has held that
DOJ is not authorized to impose its own eligibility
conditions for Byrne JAG funding. In contrast, the
Second Circuit upheld the new conditions based on
strained interpretations of technical and administrative subprovisions of the Byrne JAG statute that
describe the applications and certifications through
which States and localities request their share of
Byrne JAG funds, see 34 U.S.C. § 10153(A)(5)(C) and
(5)(D), and provide for such applications to be submitted in “a form acceptable to the Attorney General,” id
§ 10153(A)(4).
This circuit split threatens the stability of the
Byrne JAG program by placing petitioner States
under eligibility rules for Byrne JAG funding that are
different from the rules applying to a number of their
municipalities, some of which receive Byrne JAG
subgrants from the States. The question presented is

13
thus pressing and of nationwide importance, as recognized by DOJ in its petition for certiorari from a Ninth
Circuit decision that prohibited DOJ from relying on
the new conditions to withhold Byrne JAG awards
from California and San Francisco. See Pet., Barr v.
City & County of San Francisco, No. 20-666, at 32-35.
Certiorari is also warranted because the Second
Circuit’s decision is wrong and harmful. The decision
impermissibly converts a mandatory formula grant
into a discretionary grant. Its analysis of DOJ’s new
requirement to certify compliance with 8 U.S.C. § 1373
is inconsistent with this Court’s decision in Murphy.
See 138 S. Ct. at 1467. And its reasoning threatens to
destabilize other important federal block grant
programs that contain similar technical provisions
governing applications, certifications, and the agency
grantmaker’s administrative duties. See, e.g., 42
U.S.C. § 1396a(a)(6) (Medicaid); id. § 5304(b)(6)
(Community Development Block Grant).
A. The Circuits Are Split on the Important
Question Presented Here.
1. One circuit has sustained DOJ’s
new conditions and four circuits
have held they are ultra vires.
Five courts of appeals have considered the question
presented here: whether DOJ possesses authority to
withhold Byrne JAG funds from jurisdictions that do
not agree to DOJ’s notice, access, and § 1373 compliance conditions. The First, Third, Seventh, and Ninth
Circuits have held that Congress did not authorize DOJ
to alter the eligibility criteria for Byrne JAG grants,
and have affirmed permanent injunctions barring DOJ
from withholding grant funds based on the new

14
conditions. See Chicago, 961 F.3d at 887; Providence,
954 F.3d at 31; Philadelphia, 916 F.3d at 279; see also
San Francisco, 965 F.3d at 761; Los Angeles, 941 F.3d
at 945. 3 The Second Circuit reached the opposite
conclusion, holding that “[t]he Attorney General was
statutorily authorized to impose all three challenged
conditions on Byrne grant applications.” 4 Pet. App. 72a.
The four courts that invalidated the conditions
relied on Byrne JAG’s structure as a formula grant and
on the various provisions of the statute that embody
that design, such as the mandatory nature of the statutory formula, and the small number of carefully chosen
exceptions to that formula that Congress specified. 5 As
The Ninth Circuit’s decisions did not reach the lawfulness
of the § 1373 compliance condition. The San Francisco decision
enjoined DOJ from withholding Byrne JAG awards from
California and San Francisco based on the § 1373 compliance
condition, following a prior circuit ruling that those plaintiffs
comply with § 1373. See 965 F.3d at 764. The Los Angeles ruling
affirmed a preliminary injunction against imposition of the notice
and access conditions only. See 941 F.3d at 936.
4 All five circuits, however, rejected DOJ’s argument that the
notice and access conditions are authorized by 34 U.S.C. § 10102,
a provision outside of the Byrne JAG statute pertaining to the
duties of the Assistant Attorney General for OJP. Pet. App. 27a29a; San Francisco, 965 F.3d at 760-61; Chicago, 961 F.3d at 89394; Providence, 954 F.3d at 41-45; Los Angeles, 941 F.3d at 94244; Philadelphia, 916 F.3d at 287-88.
5 See 34 U.S.C. § 10156(a)(1) (providing the Attorney General
“shall” allocate Byrne JAG awards based on population and crime
rates); see also id. § 10157(b) (permitting up to a five percent
reallocation to States or localities to address “precipitous or
extraordinary increases in crime”); id. § 20927(a), (c) (authorizing
ten percent withholding of Byrne JAG award for noncompliance
3

15
they observed, DOJ’s attempt to impose new eligibility
criteria for Byrne JAG funds is “antithetical to the
concept of a formula grant,” Los Angeles, 941 F.3d at
942. See City of Chicago v. Sessions, 888 F.3d 272, 285
(7th Cir. 2018) (“[T]he notion of the broad grant of
authority to impose any conditions on grant recipients
is at odds with the nature of the Byrne JAG grant,
which is a formula grant rather than a discretionary
grant.”); accord Providence, 953 F.3d at 34. “[T]he
statute delegates some authority to the Attorney
General, but it is exceptionally limited in nature.”
Philadelphia, 916 F.3d at 284-85.
The Second Circuit acknowledged that the Byrne
JAG statute authorizes grants based on a formula
rather than on the exercise of discretion, but it
concluded that DOJ nonetheless possessed significant
discretion even over this formula grant funding. It
opined that certain provisions in § 10153 of the Byrne
JAG statute—such as a subsection giving DOJ the
responsibility to set forth the “form” of the application
for funding—endowed DOJ with “considerable authority” to determine which applicants are “qualified” to
receive their allocated funding, including by setting
new eligibility criteria for Byrne JAG grants. Pet. App.
32a-33a. The other courts of appeals disagreed,
concluding that construing § 10153 to authorize the
challenged conditions would “stretch the statutory
language beyond hope of recognition” and cannot be
squared with “both the statutory context and the
with Sex Offender Registration and Notification Act, but
permitting such withholdings to be returned to fund compliance
efforts); id. § 30307(e)(2) (authorizing five percent withholding of
grant funds for failure to comply with the Prison Rape Elimination Act, unless jurisdiction commits to using portion of that five
percent towards achieving future compliance).

16
formulaic nature of the Byrne JAG program.”
Providence, 954 F.3d at 32, 34; accord San Francisco,
965 F.3d at 761; Chicago, 961 F.3d at 908.
The courts of appeals have thus reached fundamentally divergent interpretations of the Byrne JAG
statute—a split that multiple courts have expressly
acknowledged. The Second Circuit panel noted it was
“mindful of the respect owed to our sister circuits,” but
concluded that it “cannot agree that the federal government must be enjoined from imposing the challenged
conditions on the federal grants here at issue.” Pet.
App. 5a. The First Circuit, in a decision issued after the
Second Circuit’s ruling, acknowledged “tak[ing] sides”
with the Third, Seventh, and Ninth Circuits in what
was now a “circuit split.” Providence, 954 F.3d at 26; see
also Chicago, 961 F.3d at 887; San Francisco, 965 F.3d
at 761.
2. The circuit split destabilizes a large
nationwide grant program.
The Byrne JAG program provides annual criminal
justice grants totaling hundreds of millions of dollars
to every State and numerous localities for the support
of local initiatives addressing gun violence, advocacy
for crime victims, the opioid epidemic, and more.
Petitioners are seven States, spread across four circuits,
that have received tens of millions of dollars annually
in Byrne JAG funds since the program’s inception.
The Second Circuit’s decision permits DOJ to
impose an “unbounded” array of new eligibility criteria
on Byrne JAG awards, including conditions unrelated
to criminal justice. See Chicago, 961 F.3d at 908. The
result is unprecedented. As DOJ recently acknow-

17
ledged, in the entire history of the program, no jurisdiction has ever been denied or forgone its entire
Byrne JAG award. City of Chicago v. Barr, No. 18-cv6859 (N.D. Ill.), Dkt. 122, at 2-3.
Moreover, by subjecting Byrne JAG grantees to
conflicting legal rules, the circuit split over whether
DOJ’s new eligibility conditions may lawfully be
imposed destabilizes an important federal spending
program.
The Byrne JAG formula creates a direct link
between the funding allocations to state grantees and
funding amounts for local grantees within the State’s
jurisdiction. The statute provides for all Byrne JAG
funding to be allocated by State based on population
and crime rates. The total portion allocated to each
State is then further divided, with sixty percent as a
direct grant to the State, and forty percent for direct
grants to cities and other localities. 34 U.S.C.
§ 10156(a)-(b). A portion of the sixty percent directly
awarded to the State must be subgranted to local units
of government within the State, id. § 10156(c)(2); see
also id. § 10152(b), meaning that local governments
can simultaneously be both subgrantees of their
States and direct grantees in their own right.
As DOJ has acknowledged, if any State does not
accept its share of Byrne JAG funds (something that
DOJ concedes has never happened in the program’s
history), the funds may be redistributed to other grantees in the State, altering the amounts that different
jurisdictions would receive. See id. § 10156(f); Chicago,
961 F.3d at 924-25; City of Chicago v. Barr, No. 18-cv6859 (N.D. Ill.), Dkts. 122, at 2-3, 7, 122-1, at 3 ¶ 5.
These features of the Byrne JAG formula show why it

18
is necessary to have a single applicable rule governing
the distribution of the interconnected funds.
The circuit split here creates divergent eligibility
regimes for petitioner States and many of their localities. Under the Second Circuit’s decision, DOJ may
impose the disputed conditions on petitioner States.
But many local governments within petitioners’
boundaries have received circuit decisions holding
that the conditions are unlawful. For example, the
Cities of Providence and Central Falls lie within the
State of Rhode Island (a petitioner here) but are the
beneficiaries of a First Circuit ruling barring imposition
of the conditions on them. Another sixty-seven cities
within petitioner States are covered by the Seventh
Circuit’s decision that the conditions are invalid, 6
because they are members of the U.S. Conference of
Mayors, an associational plaintiff in one of the Byrne
JAG lawsuits within that circuit. See City of Evanston
v. Barr, 412 F. Supp. 3d 873, 888 (N.D. Ill. 2019).
This situation is untenable. Petitioner States
cannot receive Byrne JAG funds or direct funds to
subgrantees without agreeing to accept and enforce
conditions that four courts of appeals have found
unlawful. And localities within petitioner States that
are the beneficiaries of favorable judgments from the
First or Seventh Circuits cannot receive the full relief
to which they are entitled if they are still forced to
accept the conditions in order to obtain a pass-through
award from the State’s sixty percent share of Byrne
JAG funds.

See City of Evanston v. Barr, No. 18-cv-4853 (N.D. Ill.), Dkt.
No. 10-2, pgs. 10, 12-16 (Decl. of Tom Cochran, Ex. 3).
6

19
Unless the incoming administration decides to
withdraw DOJ’s new eligibility criteria, the deleterious effects of the current split will continue. Thus, at
present, there is a pressing need for this Court’s
review.
B. The Decision Below Misconstrues the
Byrne JAG Statute in a Manner That Has
Broad Legal and Practical Implications.
1. The decision below improperly
converted a mandatory formula
grant into a discretionary grant.
a. Byrne JAG is a formula grant. See 34 U.S.C.
§ 10201(b)(2) (referring to Byrne JAG grants as
“formula grants”). The term “formula grant” describes
grant awards that are determined “pursuant to a
statutory formula,” unlike discretionary grants that
are awarded at executive discretion. E.g., City of Los
Angeles v. McLaughlin, 865 F.2d 1084, 1088 (9th Cir.
1989) (citing 1 R. Cappalli, Federal Grants and
Cooperative Agreements—Law, Policy, and Practice
§ 4.01 (1987)).
In the Byrne JAG statute, Congress provided that
DOJ “shall” allocate grant money to every State, as
well as large cities and counties, using a formula based
on their population and crime rates. 34 U.S.C.
§ 10156(a)(1). Congress chose that structure to “give
State and local governments more flexibility to spend
money for programs that work for them rather than to
impose a ‘one size fits all’ solution.” H.R. Rep. No. 109233, at 89. Congress also wanted to guard against
executive branch attempts to use these criminal
justice block grants as a tool for exercising “direction,
supervision, or control” over state and local police and

20
other agencies, 34 U.S.C. § 10228(a); see also Pub. L.
No. 90-351, § 518(a), 82 Stat. at 208.
Opponents of the 1968 legislation that created the
predecessor program to Byrne JAG expressed concerns
that DOJ might use law-enforcement grants to coerce
States and localities into adopting federal lawenforcement priorities.7 Supporters responded that the
1968 Act contained a statutory provision that would
prevent such control. Indeed, the then–Attorney
General testified to Congress that this provision,
which is now codified in the same chapter as Byrne
JAG, would prohibit DOJ from withholding grant
funds on its own initiative, and would bar DOJ from
imposing extra-statutory conditions on law-enforcement grants.8 See 34 U.S.C. § 10228(a).
In sum, Congress intentionally did not vest in DOJ
the decision-making authority over which States and
localities to fund, or on what terms; instead, Congress
decided the matter for itself. See Chicago, 961 F.3d at
903; Providence, 954 F.3d at 34, 38-39; Philadelphia,
916 F.3d at 290.
Underscoring the point, Congress provided only a
few narrow instances where DOJ may deviate from

See, e.g., S. Rep. No. 90-1097, at 230 (1968) (expressing
concern that the Act would enable the U.S. Attorney General to
“become the director of state and local law enforcement”). See
generally John K. Hudzik, Federal Aid to Criminal Justice:
Rhetoric, Results, Lessons 15, 23-26 (1984) (internet). (For
authorities available on the internet, URLs appear in the table of
authorities.)
8 Controlling Crime Through More Effective Law Enforcement: Hearings Before the Subcomm. on Criminal Laws and
Procedure of the S. Comm. on the Judiciary, 90th Cong. 100, 384,
497 (1967).
7

21
the statutory formula, such as by reallocating up to
five percent of funds to account for “extraordinary
increases in crime.” E.g., 34 U.S.C. § 10157(b)(1). And
where Congress wanted to condition Byrne JAG funds
on compliance with other statutes, it did so explicitly,
specifying penalties for noncompliance far less severe
than the withholding of a State’s entire grant. For
example, a State that does not implement the Sex
Offender Registration and Notification Act is subject
to a ten percent withholding, id. § 20927(a), and a
State that fails to implement the Prison Rape
Elimination Act is subject to a five percent
withholding, id. § 30307(e)(2). See Chicago, 961 F.3d
at 906; Providence, 954 F.3d at 34; Los Angeles, 941
F.3d at 943.
The panel recognized that DOJ’s “authority to
depart from [the statutory] formula when awarding
grants to qualified applicants is extremely limited,”
but it posited that Congress nevertheless authorized
DOJ to decide whether States and localities qualified
for funds in the first place. Pet. App. 31a-32a. That
position cannot be reconciled with the structure
Congress chose for the Byrne JAG program.
b. DOJ’s imposition of its own eligibility criteria
for Byrne JAG funding is “antithetical to the concept
of a formula grant.” Los Angeles, 941 F.3d at 942;
accord Chicago, 961 F.3d at 903; Providence, 954 F.3d
at 34, 38-39; Philadelphia, 916 F.3d at 290; see also,
e.g., United Sav. Ass’n of Tex. v. Timbers of Inwood
Forest Assocs., 484 U.S. 365, 371 (1988) (Scalia, J.)
(“context” and “the statutory scheme” as a whole help
establish the meaning of statutory text).
Congress knew how to structure a discretionary
criminal justice grant that allows DOJ to choose

22
awardees, and Congress did so in the neighboring part
of the same subchapter of the United States Code
where Byrne JAG is codified—in a part titled
“Discretionary Grants.” See 34 U.S.C. §§ 10171-10191;
Chicago, 961 F.3d at 903 n.5; Philadelphia, 916 F.3d
at 290. Congress did something very different with
Byrne JAG.
By constituting Byrne JAG as a formula grant to
all States and sufficiently sized localities, Congress
itself determined which jurisdictions would be eligible
for Byrne JAG funding and in what amounts. Congress
specified only a few “carefully prescribed” circumstances under which DOJ may deviate from Congress’s
statutorily prescribed formula for distributing Byrne
JAG funds. See Los Angeles, 941 F.3d at 942; Chicago,
961 F.3d at 906; Providence, 954 F.3d at 34. See
generally Tennessee Valley Auth. v. Hill, 437 U.S. 153
(1978) (discussing impact of congressional decision to
specify statutory exemptions). The Second Circuit’s
conclusion that DOJ may condition Byrne JAG
funding on eligibility criteria of DOJ’s own devising
countermands the structure that Congress chose for
Byrne JAG and renders “superfluous” the limited
deviations that Congress expressly authorized. See
Philadelphia, 916 F.3d at 286.
c. In upholding the challenged conditions, the
panel relied on various subprovisions of 34 U.S.C.
§ 10153(A) that describe the form and contents of Byrne
JAG applications and the accompanying certifications
through which States and localities request their
share of Byrne JAG funds. But Congress “does not
alter the fundamental details of a regulatory scheme
in vague terms or ancillary provisions—it does not,
one might say, hide elephants in mouseholes.”
Whitman v. American Trucking Ass’ns, 531 U.S. 457,

23
468 (2001) (Scalia, J.). It “strains credulity to think
that Congress would bury among [§ 10153’s] certifications and assurances” the power for DOJ to alter
Congress’s chosen eligibility criteria for Byrne JAG
grants. Providence, 954 F.3d at 37.
First, the panel found authority for both the notice
and access conditions in § 10153(A), which gives DOJ
statutory responsibility for determining the “form” of
Byrne JAG applications and certifications. The panel
read that responsibility over the application’s “form”
as entailing the power to set eligibility criteria for
receiving grants. Pet. App. 31a, 66a. But the administrative task of creating a grant application “form” is
distinct from the power to alter the substantive
criteria for participating in a grant program. See, e.g.,
Chicago, 961 F.3d at 906 & n.6; Providence, 954 F.3d
at 39.
Second, the panel found authority for the notice
condition in § 10153(A)(4), which requires that
applicants “report such data, records, and information
(programmatic and financial) as the Attorney General
may reasonably require.” As the panel acknowledged,
however, “programmatic” information means information “pertaining to the particular program” funded by
Byrne JAG. Pet. App. 59a; see Merriam-Webster’s
Dictionary (online ed.) (“relating to . . . a program”). It
does not mean any information that the Attorney
General might wish to have.
Elsewhere in the Byrne JAG statute, Congress
used the term “program” to “refer to the specific
criminal-justice-related activity that a Byrne JAG
grant supports.” E.g.¸ Providence, 954 F.3d at 32-33.
And in other statutes, Congress used the phrase
“programmatic and financial” to refer to reporting that

24
promotes transparency with respect to the federally
funded program. E.g., 34 U.S.C. § 11322(b)(1)(A)(i)-(iii).
Courts should “not lightly assume that Congress
silently attaches different meanings to the same term
in the same or related statutes.” Azar v. Allina Health
Servs., 139 S. Ct. 1804, 1812 (2019). Indeed, consistent
with the limited and longstanding meaning of
“programmatic and financial,” DOJ’s guidance to
grantees regarding their reporting requirements
mentions only periodic reporting of statistical and
other information about funded programs. See DOJ,
Bureau of Justice Assistance, Reporting Requirements for JAG (internet).
The individual release dates of detained persons
are not information “pertaining to the particular program” funded by Byrne JAG (Pet. App. 59a), especially
where, as here, petitioners are using Byrne JAG funds
for activities like “paying 911 operators” and “identifying and mentoring criminally at-risk youth” (Pet. App.
10a).
Third, the panel found additional authority for both
the notice and access conditions in § 10153(A)(5)(C),
which requires Byrne JAG applicants to certify “there
has been appropriate coordination with affected agencies,” concluding that this language authorized the
imposition of an ongoing obligation to coordinate with
DHS throughout the life of the grant. Pet. App. 59a68a. But courts “must give effect to the verb tense that
Congress has chosen to employ.” Providence, 954 F.3d
at 33 (citing Carr v. United States, 560 U.S. 438, 448
(2010)).
Section 10153(A)(5)(C), which is contained in a
statutory provision titled “Applications,” is most
naturally read as requiring a certification “that there

25
was appropriate coordination in connection with the
grantee’s application.” Philadelphia, 916 F.3d at 285
(second emphasis added); see Providence, 954 F.3d at
33-34; Los Angeles, 941 F.3d at 945. Such a certification
helps to ensure that an applicant’s plan for using grant
funds was “designed in consultation with local governments, and representatives of all segments of the
criminal justice system,” § 10153(A)(6)(A), including a
State’s subgrantees and the representatives of the
programs funded by Byrne JAG.
There is no textual or other basis for transforming
a requirement to certify that there “has been . . .
coordination” into a requirement that grantees
coordinate prospectively with DHS—a federal agency
that is not referenced in the Byrne JAG statute and
has no connection to petitioners’ use of Byrne JAG
funds—by providing DHS agents with information
and physical access to grantee facilities on demand, for
the duration of the grant. See, e.g., Providence, 954
F.3d at 33-34; Los Angeles, 941 F.3d at 945.
Finally, the panel found authority for the § 1373
compliance condition in § 10153(A)(5)(D), which
requires applicants to certify compliance with “all
provisions of this Part [i.e., the Byrne JAG statute]
and all other applicable Federal laws.” The panel
concluded that § 10153(A)(5)(D)’s reference to “all
other applicable Federal laws” empowers DOJ to yoke
Byrne JAG funding to any federal law covering States
and localities, even to laws having nothing to do with
criminal justice or federal grantmaking. Pet. App. 36a46a.
But reading “applicable Federal laws” so broadly
is inconsistent with the text and structure of
§ 10153(A)(5)(D) itself. See Chicago, 961 F.3d at 899;

26
Providence, 954 F.3d at 39; Philadelphia, 916 F.3d at
291.
Section 10153(A)(5)(D) begins with a main clause
identifying the grant requirements that Congress
imposed on Byrne JAG grantees through the Byrne
JAG statute before referring more generally to “all
other applicable Federal laws.” The meaning of “all
other applicable Federal laws” is thus bounded and
informed by Congress’s preceding reference to the
Byrne JAG statute. Construing “other applicable
Federal laws” to mean any law capable of being
applied “fails to give independent effect to the statute’s
enumeration of the specific [requirements] . . . which
precede[] it,” Circuit City Stores, Inc. v. Adams, 532
U.S. 105, 114 (2001)—i.e., Congress’s references to the
requirements that Congress imposed on States and
localities in their capacity as Byrne JAG grantees.
The legislative history behind the addition of the
phrase “all other applicable Federal laws” confirms
the textual and structural indications that Congress
was using this phrase to reference federal laws applying to federal grantees. As this Court has observed,
legislative history can “‘clear up ambiguity,’” to the
extent ambiguity exists. See, e.g., Bostock v. Clayton
County, 140 S. Ct. 1731, 1749 (2020) (quoting Milner
v. Department of Navy, 562 U.S. 562, 574 (2011)).
In 1979, when the phrase “all applicable laws” was
added to Byrne JAG’s predecessor statute, DOJ grantadministration guidance used the phrase to refer to
the particular body of federal statutes that govern
grants and grantmaking. DOJ’s 1978 grant administration manual, which identified all of the laws DOJ
understood to be applicable to federal law-enforcement grants, listed only statutes governing federal

27
grantmaking. See DOJ, Law Enforcement Assistance
Admin., Guideline Manual: Guide for Discretionary
Grant Programs app. 1 (1978), SDNY Dkts. 58-29 to
58-31. DOJ took a similar approach in a 1977 report,
where it referenced “over twenty Federal statutes”
that it deemed applicable to law-enforcement block
grants: statutes that, by their terms, governed the use
of federal grant funds. See DOJ, Restructuring the
Justice Department’s Program of Assistance to State
and Local Governments for Crime Control and
Criminal Justice System Improvement 8-9 (June 23,
1977), SDNY Dkt. 58-25. That report was sent to every
Member of Congress, and was considered at the
congressional hearings conducted while Congress was
debating whether to enact Byrne JAG’s predecessor
statute—which first introduced the “applicable laws”
language. See Restructuring the Law Enforcement
Assistance Administration: Hearings Before the
Subcomm. on Crime of the H. Comm. on the Judiciary,
95th Cong. 3, 9 (1977), SDNY Dkt. 58-26.
Absent some contrary indication, when Congress
incorporates a term of art into a statute, courts
“assume” that “Congress intended” the language “to
have its established meaning.” See McDermott Int’l,
Inc. v. Wilander, 498 U.S. 337, 342 (1991).
The panel departed from the established meaning
of “all applicable laws” when it read that phrase to
mean any statutes in the United States Code “capable
of being applied” to States and localities, including
environmental laws having nothing to do with criminal
justice or the use of federal funds. Pet. App. 37a-41a.
And it further compounded its error when it reasoned
that because this reading included far too many laws,
the phrase must authorize DOJ to pick and choose

28
which federal laws to make into conditions for Byrne
JAG funding. Pet. App. 35a-36a.
The panel’s expansive reading of § 10153(A)(5)(D)
renders the word “applicable” superfluous: Congress
could have achieved the same result simply by
requiring certification with “all other federal laws.”
See Chicago, 961 F.3d at 898-99; Providence, 954 F.3d
at 37; Philadelphia, 916 F.3d at 289; see also, e.g.,
Duncan v. Walker, 533 U.S. 167, 174 (2001) (“It is our
duty ‘to give effect, if possible, to every clause and
word of a statute.’”).
The panel’s proffered narrowing construction—
that “applicable laws” are the laws that DOJ chooses
from across the United States Code to make into Byrne
JAG funding conditions in any given grant year—fares
no better. As a textual matter, that reading does not
account for § 10153(A)(5)(D)’s directive that applicants certify compliance with “all other applicable
Federal laws,” not just some laws selected by DOJ. See
Providence, 954 F.3d at 38 n.6. And the breadth of the
authority that reading gives to DOJ empowers DOJ to
transform Byrne JAG from a mandatory block grant
into a discretionary stream of funding, contrary to
Congress’s design.
The panel’s approach also ignores the structure of
the Byrne JAG statute. Elsewhere in the statute,
Congress expressly identified a handful of federal laws
that it viewed as most closely related to Byrne JAG’s
core criminal justice purposes, and provided that a
grantee’s failure to comply with those would result in
modest reductions of a grantee’s award. See supra at
14 & n.5, 20-21. It makes no sense to read the Byrne
JAG statute as expressly imposing modest penalties
for violating statutes identified by Congress, yet

29
implicitly authorizing DOJ to withhold all Byrne JAG
funding from grantees who violate any other federal
law that DOJ may unilaterally select, including laws
unrelated to Byrne JAG or grantmaking.
2. The decision conflicts with this Court’s
Spending Clause, Tenth Amendment,
and severability precedents.
The panel’s construction of the Byrne JAG statute
and the § 1373 compliance condition conflicts with this
Court’s Spending Clause, Tenth Amendment, and
severability precedents. And in any event the significant constitutional concerns it presents are a reason
to reject that construction. See, e.g., Clark v. Martinez,
543 U.S. 371, 381 (2005).
a. The panel held that the Byrne JAG statute’s
requirement to certify compliance with “all other
applicable Federal laws,” 34 U.S.C. § 10153(A)(5)(D),
encompasses any law in the entire United States Code
that DOJ selects for a given program year, even a law
unrelated to criminal justice or grantmaking. Pet.
App. 40a-41a. That expansive reading is inconsistent
with this Court’s Spending Clause precedents. As this
Court made clear in Pennhurst State School &
Hospital v. Halderman, notice of any funding condition must be made “unambiguously” to the States by
Congress, in a statute—and not by the Executive
Branch in a grant administration document. 451 U.S.
1, 17 (1981). The Pennhurst problem with the panel’s
analysis is apparent in the panel’s own description of
the “applicable Federal laws” from which DOJ may
purportedly pluck Byrne JAG grant conditions: the
panel characterized that universe as “large, variable,

30
and not easily identified in a single statutory provision,” Pet. App. 35a. 9
b. Even if “all other applicable Federal laws” could
be read to include every law in the United States
Code—and even if that reading did not violate the
Constitution’s Spending Clause—the panel was still
incorrect in treating 8 U.S.C. § 1373 as an “applicable”
law, because § 1373 is facially unconstitutional under
the Tenth Amendment.
Section 1373 purports to prohibit “State[] or local
government entit[ies] or official[s]” from “in any way
restrict[ing]” their own employees’ communications
with federal immigration agents “regarding the citizenship or immigration status, lawful or unlawful, of
any individual.” 8 U.S.C. § 1373(a). The statute thus
operates as a direct prohibition against state policymaking: States cannot prioritize any employee duties
over communicating with and assisting federal
immigration agents.
As this Court reiterated in Murphy, “Congress
may not simply commandeer the legislative processes
of the States by directly compelling them to enact and
enforce a federal regulatory program.” 138 S. Ct. at
1477 (quotation & alteration marks omitted) (quoting
See also Ilya Somin, Making Federalism Great Again:
How the Trump Administration’s Attack of Sanctuary Cities
Unintentionally Strengthened Judicial Protection for State
Autonomy, 97 Tex. L. Rev. 1247, 1264 (2019) (explaining that a
condition imposed through DOJ’s broad construction of “applicable Federal laws” would not be “unambiguously stated in the text
of the law” as Pennhurst requires).
9

31
New York v. United States, 505 U.S. 144, 161 (1992));
see also Printz v. United States, 521 U.S. 898, 931
(1997). 10 In Murphy, this Court squarely held that
negative prohibitions directed at state policy-making
were just as unconstitutional as affirmative directives
under the Tenth Amendment: “[t]he basic principle—
that Congress cannot issue direct orders to state
legislatures—applies in either event.” 138 S. Ct. at
1478. Section 1373, as a direct prohibition on state
policy-making, does not survive Murphy. 11
c. The panel suggested that, under “the principle
of severability,” it did not need to consider § 1373’s
facial constitutionality at all; instead, it could consider
§ 1373 as an “applicable Federal law,” so long as the
statute was constitutional “in the funding context”—

The panel lauded § 1373 as facilitating federal-state
cooperation on immigration enforcement. Of course, voluntary
cooperation between sovereigns is a hallmark of our federalist
system. But requiring state participation in a federal enforcement scheme is commandeering, not cooperation. “[W]here, as
here, it is the whole object of the law to direct the functioning of
the state executive, and hence to compromise the structural
framework of dual sovereignty,” it does not matter at all whether
the challenged federal law happens to serve “important purposes”
or whether the scheme is more “efficiently administered” by
dragooning state officials to serve federal policy goals. Printz, 521
U.S. at 931-32.
10

11 Multiple district courts have reached this conclusion in the
Byrne JAG context, including the district court below. See City &
County of San Francisco v. Sessions, 349 F. Supp. 3d 924, 951
(N.D. Cal. 2018); City of Chicago v. Sessions, 321 F. Supp. 3d 855,
873 (N.D. Ill. 2018); City of Philadelphia v. Sessions, 309 F. Supp.
3d 289, 329-30 (E.D. Pa. 2018); Pet. App. 146a-147a. The circuits
reviewing these decision found the § 1373 compliance condition
improper for statutory construction reasons that made it
unnecessary to reach the constitutionality of § 1373 itself.

32
i.e., could “constitutionally be applied to States and
localities . . . when they are seeking federal funding.” Pet. App. 48a-49a. But that is not how
severability analysis works.
In conducting a severability analysis, courts must
examine statutes as they were written, excising any
unconstitutional parts and then evaluating whatever
remains. Courts applying the severability doctrine
“‘cannot rewrite a statute and give it an effect
altogether different from that sought by the measure
viewed as a whole.’” Murphy, 138 S. Ct. at 1482
(quoting Railroad Retirement Bd. v. Alton R. Co., 295
U.S. 330, 362 (1935)); see also Randall v. Sorrell, 548
U.S. 230, 262 (2006) (plurality op.) (rejecting severability where, “[t]o sever provisions to avoid constitutional objection here would require us to write words
into the statute”).
Here, the panel engaged in just such rewriting. It
posited a version of § 1373 that applies “only when
[grantees] are seeking federal funding,” and then
proceeded to “sever” all other applications from the
statute. Pet. App. 48a. But Congress did not enact
§ 1373 as a funding statute, and § 1373 contains no
mention of federal funds. Section 1373 instead constitutes an impermissible direct order to state and local
governments—exactly what that this Court held was
unconstitutional in Murphy. See 8 U.S.C. § 1373(a)(b). 12
12 The panel also suggested that § 1373 could survive a facial
challenge notwithstanding Murphy, on the theory that
commandeering “in the immigration context” is not covered by

33
3. The decision has the potential to
destabilize other non-discretionary
federal grant programs.
Beyond Byrne JAG, Congress appropriates tens of
billions of dollars of federal funding annually to States
and localities through various block grants, in order to
support local needs and priorities. The same types of
administrative provisions from the Byrne JAG statute
that the panel interpreted as a delegation of sweeping
power to DOJ—for example, § 10153(A)’s requirement
that applications be submitted “in such form as the
Attorney General may require”—are routinely used by
Congress in other non-discretionary grant programs.
E.g., 42 U.S.C. § 1396a(a)(6) (state plan for Medicaid
must provide that State “will make such reports, in
such form and containing such information, as the
Secretary [of Health and Human Services] may from
time to time require”). Numerous federal block grants
also require grantees to certify compliance with “other
applicable laws,” another term that the panel
interpreted expansively in this case. E.g., 42 U.S.C.
§ 5304(b)(6) (Community Development Block Grant);

the Tenth Amendment. Pet. App. 51a. But the Tenth Amendment
contains no exceptions based on the subject matter of the
commandeering at issue; it represents a “fundamental structural
decision incorporated into the Constitution, i.e., the decision to
withhold from Congress the power to issue orders directly to the
States,” Murphy, 138 S. Ct. at 1475. Accord Printz, 521 U.S. 91920. Nor did the panel explain the bounds of “the immigration
context,” or how its analysis squares with the States’ wellestablished sovereign powers to regulate all persons within their
borders, including non-citizens, see Arizona v. United States, 567
U.S. 387, 411 (2012); DeCanas v. Bica, 424 U.S. 351, 357 (1976),
and to control the conduct and activities of their own employees,
see Printz, 521 U.S. at 919-20.

34
see Chicago, 961 F.3d at 905 (listing other grant
statutes containing that language).
If left uncorrected, the Second Circuit’s erroneous
reasoning has the potential to destabilize these other
longstanding, non-discretionary federal grants. As the
Seventh Circuit warned, the type of unfettered grantconditioning authority that the Second Circuit read
into commonplace grant administration terms like
“form” and “applicable laws” is rife with the “potential
for abuse.” Chicago, 961 F.3d at 905.
C. This Case Is an Ideal Vehicle for
Resolving the Circuit Split Over DOJ’s
New Byrne JAG Funding Conditions.
The time to seek certiorari has passed in the cases
originating from the First, Third, and Seventh Circuits.
Thus, only this case and the case from the Ninth
Circuit (where DOJ has recently filed a petition for
certiorari, No. 20-666) are potential vehicles for the
Court to resolve the important question presented
here. And this case represents an ideal vehicle for the
Court to take up the question of DOJ’s authority to
impose the new eligibility conditions, should DOJ
continue to maintain the challenged conditions after
the transition to the next administration.
This case is the only live vehicle that cleanly
presents all of the issues on which the circuits are split.
The Second Circuit squarely held that DOJ possesses
authority to impose the § 1373 compliance condition,
directly splitting on that issue from the First, Third,
and Seventh Circuits. In contrast, the Ninth Circuit
did not reach that issue, because it concluded that the
plaintiffs in that case complied with § 1373. See San
Francisco, 965 F.3d at 761-64. Granting review in this

35
case will ensure that the Court is in a position to
completely resolve all of the issues regarding these
grant conditions that have divided the circuits and
destabilized an important nationwide grant program.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
ANISHA S. DASGUPTA
Deputy Solicitor General
LINDA FANG
ARI SAVITZKY
Assistant Solicitors General
barbara.underwood@ag.ny.gov
December 2020

* Counsel of Record

(Counsel listing continues on next page.)

36
WILLIAM TONG
Attorney General
State of Connecticut
55 Elm Street
Hartford, CT 06106

PETER F. NERONHA
Attorney General
State of Rhode Island
150 South Main Street
Providence, RI 02903

MAURA HEALEY
Attorney General
Commonwealth of
Massachusetts
One Ashburton Place
Boston, MA 02108

MARK R. HERRING
Attorney General
Commonwealth of
Virginia
202 North Ninth Street
Richmond, VA23219

ROBERT W. FERGUSON
GURBIR S. GREWAL
Attorney General
Attorney General
State of New Jersey
State of Washington
Hughes Justice Complex P.O. Box 40100
25 Market Street
Olympia, WA 98504
Trenton, NJ 08625

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
Nos. 19-267(L); 19-275(con)
————
STATE OF NEW YORK, STATE OF CONNECTICUT,
STATE OF NEW JERSEY, STATE OF WASHINGTON,
COMMONWEALTH OF MASSACHUSETTS,
COMMONWEALTH OF VIRGINIA,
STATE OF RHODE ISLAND, CITY OF NEW YORK,
Plaintiffs-Appellees,
v.
UNITED STATES DEPARTMENT OF JUSTICE,
WILLIAM P. BARR, in his official capacity as
Attorney General of the United States,
Defendants-Appellants.
————
On Appeal from the United States District Court
for the Southern District of New York
————
AUGUST TERM 2018
ARGUED: JUNE 18, 2019
DECIDED: FEBRUARY 26, 2020
————
Before: WINTER, CABRANES, and RAGGI, Circuit Judges.
On appeal from a judgment entered in the United
States District Court for the Southern District of New
York (Edgardo Ramos, Judge), which (1) mandates

2a
that defendants release withheld 2017 Byrne Program
Criminal Justice Assistance funds to plaintiffs, and
(2) enjoins defendants from imposing certain
immigration-related conditions on such grants, defendants argue that the district court erred in holding that
the challenged conditions violate the Administrative
Procedure Act and the United States Constitution.
REVERSED AND REMANDED.
————
BRAD HINSHELWOOD (Mark B. Stern, Daniel Tenny,
on the brief) for JOSEPH H. HUNT, ASSISTANT ATTORNEY
GENERAL, Appellate Staff, Civil Division, United
States Department of Justice, Washington, D.C., for
Defendants-Appellants.
ANISHA S. DASGUPTA, for LETITIA JAMES, ATTORNEY
GENERAL OF THE STATE OF NEW YORK, New York, New
York (Barbara D. Underwood, Eric R. Haren, Linda
Fang, New York State Office of the Attorney General,
New York, New York; Mark Francis Kohler, Michael
Skold, for William Tong, Attorney General of the
State of Connecticut, Hartford, Connecticut; Jeremy
Feigenbaum, for Gurbir S. Grewal, Attorney General
of the State of New Jersey, Trenton, New Jersey; Luke
Alexander Eaton, for Robert W. Ferguson, Attorney
General of the State of Washington, Olympia,
Washington; David Urena for Maura Healey, Attorney
General of the Commonwealth of Massachusetts,
Boston, Massachusetts; Victoria Pearson, for Mark R.
Herring, Attorney General of the Commonwealth of
Virginia, Richmond, Virginia; Michael W. Field, for
Peter F. Neronha, Attorney General of the State of
Rhode Island, Providence, Rhode Island, on the brief)
for Plaintiffs-Appellees the States of New York,

3a
Connecticut, New Jersey, Washington, Rhode Island,
and the Commonwealths of Massachusetts and Virginia.
Jamison Davies, Richard Dearing, Devin Slack, for
Zachary W. Carter, Corporation Counsel of the City of
New York, New York, New York for Plaintiff-Appellee
the City of New York.
Adam Lurie, Caitlin Potratz Metcalf, Linklaters
LLP, Washington, D.C., Counsel for Amicus Curiae
American Jewish Committee.
SPENCER E. AMDUR, Lee Gelernt, Omar C. Jadwat,
American Civil Liberties Union Foundation, New York,
New York; Christopher Dunn, New York Civil Liberties
Union, New York, New York; Mark Fleming, Heartland
Alliance, Chicago, Illinois; Cody H. Wofsy, American
Civil Liberties Union of California Immigrants’ Rights
Project, San Francisco, California; Counsel for Amici
Curiae American Civil Liberties Union, New York Civil
Liberties Union, National Immigrant Justice Center,
National Immigration Law Center, Immigrant Legal
Resource Center, Asian Americans Advancing Justice
— Asian Law Caucus, Washington Defender Association,
and the New Orleans Workers’ Center for Racial Justice.
————
REENA RAGGI, Circuit Judge:
INTRODUCTION
The principal legal question presented in this
appeal is whether the federal government may deny
grants of money to State and local governments that
would be eligible for such awards but for their refusal
to comply with three immigration-related conditions
imposed by the Attorney General of the United States.
Those conditions require grant applicants to certify
that they will (1) comply with federal law prohibiting

4a
any restrictions on the communication of citizenship
and alien status information with federal immigration
authorities, see 8 U.S.C. § 1373; (2) provide federal
authorities, upon request, with the release dates of
incarcerated illegal aliens; and (3) afford federal immigration officers access to incarcerated illegal aliens.
The case implicates several of the most divisive
issues confronting our country and, consequently, filling daily news headlines: national immigration policy,
the enforcement of immigration laws, the status of
illegal aliens in this country, and the ability of States
and localities to adopt policies on such matters contrary to, or at odds with, those of the federal government.
Intertwined with these issues is a foundational legal
question: how, if at all, should federal, State, and local
governments coordinate in carrying out the nation’s
immigration policy? There is also a corollary question:
to what extent may States and localities seeking
federal grant money to facilitate the enforcement of
their own laws adopt policies to extricate themselves
from, hinder, or even frustrate the enforcement of
federal immigration laws?
At its core, this appeal presents questions of statutory construction. In proceedings below, the United
States District Court for the Southern District of New
York (Edgardo Ramos, Judge) determined that the
Attorney General was not statutorily authorized to
impose the challenged conditions and, therefore, enjoined
their application. See New York v. Dep’t of Justice, 343
F. Supp. 3d 213 (S.D.N.Y. 2018). The thoughtful
opinion of the district court requires us to examine the
authorization question in detail. For reasons explained
in this opinion, we conclude that the plain language of
the relevant statutes authorizes the Attorney General
to impose the challenged conditions.

5a
In concluding otherwise, the district court relied on,
among other things, an opinion of the Seventh Circuit
in City of Chicago v. Sessions, 888 F.3d 272 (7th Cir.
2018). While mindful of the respect owed to our sister
circuits, we cannot agree that the federal government
must be enjoined from imposing the challenged conditions on the federal grants here at issue. These
conditions help the federal government enforce national
immigration laws and policies supported by successive
Democratic and Republican administrations. But more
to the authorization point, they ensure that applicants
satisfy particular statutory grant requirements imposed
by Congress and subject to Attorney General oversight.
Nor can we agree with the district court that the
challenged conditions impermissibly intrude on powers
reserved to the States. See U.S. CONST. Amend. X. As
the Supreme Court has repeatedly observed, in the
realm of immigration policy, it is the federal government that maintains “broad,” Arizona v. United
States, 567 U.S. 387, 394 (2012), and “preeminent,”
power, Toll v. Moreno, 458 U.S. 1, 10 (1982), which
is codified in an “extensive and complex” statutory
scheme, Arizona v. United States, 567 U.S. at 395.
Thus, at the same time that the Supreme Court has
acknowledged States’ “understandable frustrations
with the problems caused by illegal immigration,” it
has made clear that a “State may not pursue policies
that undermine federal law.” Id. at 416. As Chief
Justice John Marshall wrote over 200 years ago, “the
states have no power, by taxation or otherwise, to
retard, impede, burden, or in any manner control, the
operations of the constitutional laws enacted by
congress to carry into execution the powers vested in
the general government.” McCulloch v. Maryland, 17
U.S. 316, 436 (1819). This fundamental principle, a
bedrock of our federalism, is no less applicable today.

6a
Indeed, it pertains with particular force when, as here,
Congress acts pursuant to its power under the
Spending Clause. See U.S. CONST. art. I, § 8.
BACKGROUND
Invoking this court’s interlocutory jurisdiction pursuant to 28 U.S.C. § 1292(a)(1), defendants the United
States Department of Justice and the Attorney General
of the United States (hereinafter, collectively, “DOJ”)
appeal from an award of partial summary judgment
entered on November 30, 2018. See New York v. Dep’t
of Justice, 343 F. Supp. 3d 213 (S.D.N.Y. 2018). That
judgment grants plaintiffs, the States of New York,
Connecticut, New Jersey, Rhode Island, and Washington,
the Commonwealths of Massachusetts and Virginia
(hereinafter, collectively, the “States”), and the City of
New York (the “City”), injunctive relief from three
immigration-related conditions imposed by DOJ on
the receipt of 2017 Byrne Program Criminal Justice
Assistance grants (“Byrne grants”). Those conditions
required 2017 Byrne grant applicants (1) to certify
their willingness to comply with 8 U.S.C. § 1373, which
law precludes government entities and officials from
prohibiting or restricting the sharing of citizenship
or alien-status information with federal immigration
authorities (the “Certification Condition”); (2) to provide assurance that, upon written request of federal
immigration authorities, grant recipients would provide notice of an incarcerated alien’s scheduled release
date (the “Notice Condition”); and (3) to certify that
grant recipients would afford federal authorities access
to State-incarcerated suspected aliens in order for
those authorities to determine the aliens’ right to remain

7a
in the United States (the “Access Condition”).1 The
district court’s judgment not only enjoins DOJ from
enforcing these three requirements as to any of plaintiffs’
2017 Byrne grants (which DOJ has otherwise awarded),
but also mandates that DOJ release the withheld 2017
funds to plaintiffs without regard to the challenged
conditions. See id. at 245–46; App. at 45 (modifying
mandate).
Three of our sister circuits have now upheld injunctions precluding enforcement of some or all of the
challenged conditions as to other jurisdictions applying
for Byrne grants. See City of Los Angeles v. Barr, 941
F.3d 931 (9th Cir. 2019) (ruling as to Notice and
Access Conditions); City of Philadelphia v. Attorney
Gen., 916 F.3d 276 (3d Cir. 2019) (ruling as to all
three conditions); City of Chicago v. Sessions, 888 F.3d
272 (7th Cir. 2018) (ruling as to Notice and Access
Conditions), reh’g en banc granted in part, opinion
vacated in part, No. 17-2991, 2018 WL 4268817 (7th
Cir. June 4, 2018) (vacating nation-wide injunction),
reh’g grant vacated, No. 17-2991, 2018 WL 4268814
(7th Cir. Aug. 10, 2018). The district court relied on
the Seventh Circuit decision in entering the challenged judgment, see New York v. Dep’t of Justice, 343
F. Supp. 3d at 226–45; the later Third and Ninth
Circuit decisions were not then available to it.
In urging reversal, DOJ argues that the district
court erred in holding that the challenged conditions
violate the Administrative Procedure Act (“APA”),
5 U.S.C. § 551 et seq., and the Constitution. As to the
1

Defendants have imposed still further conditions on 2018
Byrne grants, which plaintiffs also challenge before the district
court. Because no judgment has yet been entered on that part of
plaintiffs’ case, we do not address plaintiffs’ challenge to those
conditions on this appeal.

8a
APA, DOJ faults the district court for holding that
(1) the Attorney General (and his designee, the Assistant
Attorney General (“AAG”)) lacked the requisite statutory authority to impose the challenged conditions;
and (2) the conditions are, in any event, arbitrary and
capricious because DOJ failed to consider their negative ramifications for applicants. As to the Constitution,
DOJ argues that (1) the district court having found the
conditions invalid under the APA, there was no need
for it to consider their constitutionality; and (2) the
challenged conditions do not raise either the separationof-powers or Tenth Amendment concerns identified by
the district court.
For reasons explained herein, we conclude that the
challenged conditions do not violate either the APA or
the Constitution. We therefore reverse the challenged
judgment in favor of plaintiffs and remand the case to
the district court for further proceedings consistent
with this opinion.
I. The Byrne Justice Assistance Grant Program
The Edward Byrne Memorial Justice Assistance Grant
Program (“Byrne Program”), codified at 34 U.S.C.
§§ 10151–10158, is the vehicle through which Congress
annually provides more than $250 million in federal
funding for State and local criminal justice efforts.2
2

The Byrne Program is named for New York City Police
Officer Edward Byrne who, at age 22, was shot to death while
guarding the home of a Guyanese immigrant cooperating with
authorities investigating drug trafficking. The case is well known
in this circuit, where five persons were convicted in the Eastern
District of New York for their roles in Byrne’s murder. Among
these was Howard “Pappy” Mason, a drug dealer who, from his
New York State prison cell, ordered subordinates to kill a police
officer in retaliation for Mason’s own incarceration. See Joseph P.
Fried, Officer Guarding Drug Witness Is Slain, N.Y. Times, Feb.

9a
The Byrne Program was created in 2006 as part of the
Violence Against Women and Department of Justice
Reauthorization Act of 2005, Pub. L. No. 109-162,
§ 1111, 119 Stat. 2960, 3094 (2006). That Act amended
provisions of the Omnibus Crime Control and Safe
Streets Act of 1968, Pub. L. No. 90-351, tit. I, 82 Stat.
197, which itself had provided federal funding for
State and local law enforcement initiatives.
The Byrne Program is a formula grant program,
i.e., Congress appropriates a fixed amount of funding
for the program and specifies “how the funds will be
allocated among the eligible recipients, as well as the
method by which an applicant must demonstrate its
eligibility for that funding.” Office of Justice Programs,
Grant Process Overview.3 The Byrne Program’s statutory
formula awards the States 50% of allocated funds
based on their relative populations, see 34 U.S.C.
§ 10156(a)(1)(A), and the other 50% based on their
relative rates of violent crime, see id. § 10156(a)(1)(B).
The formula further provides that, of total Byrne
funds awarded to a State, the State itself keeps 60%,
with the remaining 40% percent allocated to local
governments within the State. See id. § 10156(b).
Congress affords States and localities wide discretion in using Byrne grants. While awarded funds
cannot substitute for a state’s own expenditures, see
id. § 10153(a)(1), Byrne grants may be used to support
such diverse needs as “additional personnel, equipment, supplies, contractual support, training, technical
assistance, and information systems,” pertaining to a
broad range of criminal justice initiatives:
27, 1988, at Al, 34; Leonard Buder, Trial Is By a Defendant In
Police Slaying, N.Y. Times, Nov. 29, 1989, at B5.
3

Available at http://go.usa.gov/xPmkA (last visited Feb. 24, 2020).

10a
(A) Law enforcement programs. (B) Prosecution
and court programs. (C) Prevention and education programs. (D) Corrections and community
corrections programs. (E) Drug treatment
and enforcement programs. (F) Planning,
evaluation, and technology improvement programs. (G) Crime victim and witness programs
(other than compensation). (H) Mental health
programs and related law enforcement and
corrections programs, including behavioral
programs and crisis intervention teams,
id. § 10152(a). As Congress has explained, its intent
was thus to afford States and localities the “flexibility
to spend money for programs that work for them
rather than to impose a ‘one-size fits all’ solution.”
H.R. REP. No. 109-233, at 89 (2005), as reprinted in
2005 U.S.C.C.A.N. 1636, 1640.
Plaintiffs have received Byrne grants each year
since that program’s inception. They have used these
grants for a variety of purposes, including, but not
limited to, supporting various investigative task forces,
funding both prosecutors’ and public defenders’ offices,
paying 911 operators, improving their criminal records
systems and forensic laboratories, identifying and
mentoring criminally at-risk youth and young adults,
operating drug courts and diversion programs for
nonviolent felony offenders, mitigating gang violence
in prison, and funding prisoner re-entry services.
While the Byrne fund-distribution formula is statutorily mandated, and while Byrne applicants can use
such funds for almost any law-enforcement-related
purpose, no State or locality is automatically entitled
to receive a Byrne grant. Rather, a jurisdiction seeking
Byrne funding must submit an application satisfying
a host of statutory requirements. For example, a

11a
jurisdiction is statutorily required to make its Byrne
Program application public and to afford an opportunity for public comment before submitting its final
application to the Attorney General. See 34 U.S.C.
§ 10153(a)(3)(A)–(B). Also, a Byrne grant application
must include a “comprehensive Statewide plan” detailing, as specified in § 10153(a)(6)(A)–(E), how awarded
grants will be used to improve the jurisdiction’s
criminal justice system. A Byrne grant applicant must
satisfy these, and all other statutory requirements, “in
such form as the Attorney General may require,” id.
§ 10153(a), and subject to such “rules” as the Attorney
General “shall issue” to carry out the program, id.
§ 10155.4
Three statutory requirements for Byrne grants
are particularly relevant to this appeal. First, an
applicant must certify that it “will comply with all
provisions of this part [i.e., part of chapter pertaining
to Byrne Program] and all other applicable Federal
laws.” Id. § 10153(a)(5)(D). Second, an applicant must
provide assurance that it “shall maintain and report
such data, records, and information (programmatic
4

The APA defines the term “rule” broadly to mean “the whole
or a part of an agency statement of general or particular applicability and future effect designed to implement, interpret, or
prescribe law or policy or describing organization, procedure, or
practice requirements of an agency . . . .” 5 U.S.C. § 551(4); see
Safari Club Int’l v. Zinke, 878 F.3d 316, 332 (D.C. Cir. 2017)
(recognizing that APA defines “rule” “very broadly” (internal quotation marks omitted)). At the same time, the APA exempts rules
pertaining to grants from the notice-and-comment procedures
generally attending federal rule-making. See 5 U.S.C. § 553(a)(2);
City of Los Angeles v. McLaughlin, 865 F.2d 1084, 1087 (9th Cir.
1989); cf. Richard B. Cappalli, Rights and Remedies Under Federal
Grants 247 (1979) (observing that “a significant number of formula
[grant] programs contain no mention of Due Process rights”).

12a
and financial) as the Attorney General may reasonably require.” Id. § 10153(a)(4). Third, an applicant
must certify that “there has been appropriate coordination with affected agencies.” Id. § 10153(a)(5)(C).
The Attorney General’s authority to disapprove Byrne
applications not satisfying the program’s statutory
requirements is implicit in the statutory provision
tempering that authority with a required opportunity
for correction: the Attorney General “shall not finally
disapprove” a deficient application “without first affording the applicant reasonable notice of any deficiencies
in the application and opportunity for correction and
reconsideration.” Id. § 10154. The authority to deny
funds is further evident in Congress’s instruction as to
how appropriated funds are to be distributed if the
Attorney General determines “that a State will be
unable to qualify or receive [Byrne Program] funds”:
that State’s allocation under the statutory formula
“shall be awarded by the Attorney General to units
of local government, or combinations thereof, within
such State,” giving priority to those with the highest
reported number of violent crimes. Id. § 10156(f). Such
denial authority is, moreover, consistent with the
discretion Congress has afforded the Attorney General
to waive certain statutory program requirements, see
id. § 10152(c)(2), and to develop “guidelines” for the
statutorily required “program assessment component”
of every Byrne grant that is awarded, id. § 10152(c)(1).
The Attorney General is statutorily authorized to
delegate the “powers and functions” thus vested in
him by Title 34 to the AAG responsible for DOJ’s
Office of Justice Programs, which office now administers the Byrne Program. Id. § 10102(a)(6). Congress
has made plain that the powers and functions that
may be so delegated “includ[e] placing special conditions

13a
on all grants, and determining priority purposes for
formula grants.” Id.
II. The Challenged Immigration-Related Conditions
In soliciting 2017 applications for Byrne Program
grants, then-Attorney General Jefferson B. Sessions III,
on July 25, 2017, announced the three immigrationrelated conditions at issue in this case.
First, the Certification Condition requires a Byrne
grant applicant to execute a “Certification of Compliance
with 8 U.S.C. § 1373.” App. at 288, ¶¶ 52–53. That
statute, which the Attorney General identified as an
“applicable Federal law” for purposes of the certification requirement of 34 U.S.C. § 10153(a)(5)(D), see
supra at 12, states, in pertinent part, as follows:
Notwithstanding any other provision of
Federal, State, or local law, a Federal, State,
or local government entity or official may not
prohibit, or in any way restrict, any government entity or official from sending to, or
receiving from, the Immigration and Naturalization Service5 information regarding the
citizenship or immigration status, lawful or
unlawful, of any individual.
18 U.S.C. § 1373(a). The Certification Condition thus
requires that,

5

The Immigration and Naturalization Service, which had been
a part of DOJ, see 8 U.S.C. § 1101(a)(34), was disbanded in 2002,
see 6 U.S.C. § 291, and its duties divided among three services
operating within the new cabinet-level Department of Homeland
Security: the United States Citizenship and Immigration Service,
the Immigration and Customs Enforcement Service, and the Customs
and Border Protection Service, see id. §§ 111, 211, 251–52, 271.

14a
with respect to the “program or activity” funded
in whole or part under this award (including
any such “program or activity” of any subrecipient at any tier), throughout the period
of performance for the award, no State or
local government entity, -agency, or -official
may prohibit or in any way restrict — (1) any
government entity or -official from sending or
receiving information regarding citizenship
or immigration status as described in 8 U.S.C.
§ 1373(a); or (2) a government entity or
-agency from sending, requesting or receiving,
maintaining, or exchanging information regarding immigration status as described in 8
U.S.C. § 1373(b).
App. at 288–89, ¶¶ 52–53.
Second, the Notice Condition requires Byrne grant
recipients to have in place throughout the grant period
a law, rule, or policy for informing federal authorities,
upon request, of the scheduled release date of an alien
in the recipient’s custody. It states that,
as of the date the recipient accepts [a Byrne]
award, and throughout the remainder of the
period of performance for the award —
...
A State statute, or a State rule, -regulation,
-policy, or -practice, must be in place that is
designed to ensure that, when a State (or
State-contracted) correctional facility receives
from DHS a formal written request authorized by the Immigration and Nationality Act
that seeks advance notice of the scheduled
release date and time for a particular alien in
such facility, then such facility will honor

15a
such request and — as early as practicable . . .
— provide the requested notice to DHS.
Id. at 291, ¶ 55(1)(B).
Finally, the Access Condition requires grant recipients to have a law, rule, or policy in place allowing
federal authorities to meet with incarcerated aliens in
order to inquire about their rights to remain in the
United States. It states that,
as of the date the recipient accepts [a Byrne]
award, and throughout the remainder of the
period of performance for the award —
...
A State statute, or a State rule, -regulation,
-policy, or -practice, must be in place that is
designed to ensure that agents of the United
States acting under color of federal law . . .
are given . . . access [to] any State (or Statecontracted) correctional facility for the purpose of permitting such agents to meet with
individuals who are (or are believed by such
agents to be) aliens and to inquire as to such
individuals’ rights to be or remain in the
United States.
Id. at 291, ¶ 55(1)(A).
In announcing these conditions, Attorney General
Sessions stated an intent to “increase information
sharing between federal, state, and local law enforcement, ensuring that federal immigration authorities
have the information they need to enforce immigration
laws and keep our communities safe.” Press Release,
Attorney General Sessions Announces Immigration
Compliance Requirements for Edward Byrne Memorial

16a
Justice Assistance Programs (July 25, 2017).6 The
Attorney General was specifically critical of “[s]ocalled ‘sanctuary’ policies [that] make all of us less
safe because they intentionally undermine our laws
and protect illegal aliens who have committed crimes.”
Id. He stated that DOJ needed to “encourage these
‘sanctuary’ jurisdictions to change their policies and
partner with federal law enforcement to remove [alien]
criminals.” Thus, “[f]rom now on,” DOJ would “only
provide Byrne JAG grants to cities and states that
comply with federal law, allow federal immigration
access to detention facilities, and provide 48 hours[’]
notice before they release an illegal alien wanted by
federal authorities.” Id.7
III. Title 8 U.S.C. § 1373
Because an understanding of how 8 U.S.C. § 1373
became the focus of the Certification Condition is
useful to a consideration of plaintiffs’ challenge to that
condition, we set forth that history here.
Section 1373 was enacted in 1996, when Congress
took notice that certain states and localities were
restricting their officials’ cooperation with federal
immigration authorities. See generally H.R. REP. No.
104-725, at 391 (1996) (Conf. Rep.), as reprinted in
1996 U.S.C.C.A.N. 2649, 2779 (noting that various

6

Available at https://www.justice.gov/opa/pr/attorney-generalsessions-announces-immigration-compliance-requirements-edwardbyrne-memorial.
7

As indicated in the text quoted supra at 15–16, the actual
Notice Condition sets no firm 48-hour deadline but, rather, requires
notification “as early as practicable.”

17a
state statutes and local laws prevent disclosure of
individuals’ immigration status to federal officials).8
Members of the Senate Judiciary Committee voiced
particular concern with granting federal funds to
“State and local governments passing ordinances and
rules which prohibit State and local agencies from
cooperating or communicating with INS.” See The
Impact of Immigration on the United States and
Proposals to Reform U.S. Immigration Laws: Hearing
Before the Subcomm. on Immigration and Refugee
Affairs of the Comm. on the Judiciary, 103d Cong.
45 (1994) [hereinafter Immigration Reform Hearings]
(statement of Sen. Simpson, R. Wyo. (“I believe cooperation has to be [a] condition[] for any Federal
reimbursement. In other words, you are not going to
get bucks from the Federal Government if the local
governments can’t communicate with the INS about
illegal immigration and those who are involved in
it.”)); see also id. at 26 (statement of Sen. Feinstein, D.
Cal. (signaling that she would not support providing
8

This conference report specifically pertains to 8 U.S.C. § 1644,
a provision of the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (Pub. L. 104-193), which states that,
“notwithstanding any other provision of Federal, State, or local
law, no State or local government entity may be prohibited, or
in any way restricted, from sending to or receiving from the
Immigration and Naturalization Service information regarding
the immigration status, lawful or unlawful, of an alien in the
United States.” As this court has recognized, § 1373, enacted a
month after § 1644 as part of the Immigration Reform Act,
“expands” on the earlier statute insofar as it provides generally
that no Federal, State, or local government entity may restrict
another government entity from sending to, or receiving from
INS, any immigration status information. See City of New York
v. United States, 179 F.3d 29, 32 (2d Cir. 1999) (rejecting
constitutional challenge to both laws). Thus, the conference report
pertaining to § 1644 is relevant to § 1373.

18a
immigration “impact aid” to “States and local governments that declined to cooperate in enforcement
of [federal immigration] laws”));9 id. (statement of
Committee Chairman Sen. Kennedy, D. Mass. (acknowledging concerns of some mayors that cooperation with
federal immigration authorities could be counterproductive to local law enforcement efforts, and observing
that federal aid had to be provided “in ways that
are going to get the[ir immigration] cooperation but
also, . . . [allow them] to deal with . . . violence and
gangs and drug problems and the rest. We are looking
for balance . . . .”)).
In its report accompanying the proposed legislation
that would become § 1373, the Senate Judiciary
Committee expressly recognized that the “acquisition,
maintenance, and exchange of immigration-related
information by State and local agencies is consistent
with, and potentially of considerable assistance to, the
Federal regulation of immigration and the achieving
9

Senator Feinstein’s comment was made in signaling agreement with a recommendation of the Commission on Immigration
Reform, a body created by Congress in 1990 to “evaluate the
impact of” changes in federal immigration law. The relevant
exchange is as follows:
Commissioner Teitelbaum: There is a further condition [on recommended immigration impact aid] that
was unanimously supported by the Commission . . .
[and] it should be highlighted, and that is a requirement for cooperation by State and local governments
with Federal authorities to enforce the immigration
laws of the United States. I don’t think the Commission
would support the notion of impact aid for States and
local governments that declined to cooperate in
enforcement of such laws.
Senator Feinstein: Nor would I, sir, so I agree with you.
Immigration Reform Hearings, 103d Cong. at 26.

19a
of the purposes and objectives of the Immigration and
Nationality Act.” S. REP. No. 104-249, at 19-20 (1996)
(quoted in City of New York v. United States, 179 F.3d
at 32–33). Thus, in enacting § 1373, as in enacting
§ 1644, Congress sought “to give State and local
officials the authority to communicate with [federal
immigration authorities] regarding the presence, whereabouts, or activities of illegal aliens,” notwithstanding
any local laws to the contrary. H.R. REP. No. 104-725,
at 383 (Conf. Rep.), as reprinted in 1996 U.S.C.C.A.N.
at 2771 (quoted in City of New York v. United States,
179 F.3d at 32).
In the twenty years that followed, political debates
over federal immigration policies grew more contentious, and the number of State and local jurisdictions
limiting official cooperation with federal immigration
authorities increased. In February 2016, Representative
John Culberson (R. Tex.), then the Chairman of the
House Appropriations Subcommittee on Commerce,
Justice, Science, and Related Agencies, forwarded to
Attorney General Loretta E. Lynch a report by the
Center for Immigration Studies, which concluded that
“over 300 ‘sanctuary’ jurisdictions [were] refus[ing] to
comply with [federal immigration] detainers or [were]
otherwise imped[ing] information sharing with federal
immigration officials.” App. at 134.10 Representative
10

An immigration detainer is the instrument by which federal
authorities formally “advise another law enforcement agency that
[they] seek[] custody of an alien presently in the custody of that
agency, for the purpose of arresting and removing the alien.”
8 C.F.R. § 287.7(a). Supported by an administrative warrant
issued on a showing of probable cause, the detainer generally
requests the agency then having custody of the alien to provide
federal authorities with advance notice of the alien’s intended
release date or to detain the alien for a brief time to allow federal
authorities to assume custody. See U.S. Immigration and Customs

20a
Culberson asked the Attorney General to investigate
whether DOJ “grant recipients were complying with
federal law, particularly . . . § 1373.” Id. (emphasis
added).
The ensuing investigation was conducted by DOJ’s
Inspector General (“IG”) who, in May 2016, reported a
significant, decade-long decline in state and local
cooperation with federal immigration authorities. He
reported that a 2007 congressionally mandated IG
audit of seven jurisdictions then receiving federal
funds pursuant to the State Criminal Alien Assistance
Program (“SCAAP”) revealed that all but one (San
Francisco) were accepting federal detainers and providing federal authorities with timely notice of aliens’
release dates. See App. at 134–35 n.1. By contrast, the
IG’s 2016 examination of ten jurisdictions receiving a
combined 63% of relevant DOJ grants,11 revealed that
“all . . . had ordinances or policies that placed limits on
cooperation” with federal immigration authorities. Id.;
see id. at 137, 145–49 (detailing limitations found).12
Enf’t, Fiscal Year 2017 ICE Enforcement and Removal Operations
Report 7–8 (2017); see also Hernandez v. United States, 939 F.3d
191, 200 (2d Cir. 2019).
11

The IG reviewed ten jurisdictions receiving federal grants
administered by the DOJ’s Office of Justice Programs (e.g., Byrne
Program grants) and/or the DOJ’s Office of Violence Against
Women: “the States of Connecticut and California; City of Chicago,
Illinois; Clark County, Nevada; Cook County, Illinois; Miami-Dade
County, Florida; Milwaukee County, Wisconsin; Orleans Parish,
Louisiana; New York, New York; and Philadelphia, Pennsylvania.”
App. at 136.
12

To illustrate with some examples, the IG reported that Cook
County, Illinois (Chicago), prohibited its on-duty employees from
communicating with federal immigration authorities “regarding
individuals’ incarceration status or release dates.” Id. at 140
(internal quotation marks omitted). Similarly, Orleans Parish,

21a
Louisiana (New Orleans) prohibited its officials from “provid[ing]
information on an inmate’s release date” to federal authorities.
Id. By executive order, Philadelphia employees were prohibited
from providing federal authorities with release date information
about the subject of an immigration detainer unless that person
was incarcerated “for a first or second degree felony involving
violence and the detainer is supported by a judicial warrant,” and
not merely an administrative one. Id. at 141 (internal quotation
marks omitted).
New York City appears to have placed restrictions on its
employees’ cooperation with federal immigration authorities as
early as 1989. See City of New York v. United States, 179 F.3d at
31 (discussing 1989 executive order prohibiting city officials or
employees from communicating individual’s immigration status
to federal authorities unless (1) required to do so by law, (2)
expressly authorized to do so by alien, or (3) alien is suspected of
criminal behavior). Then, in a 2003 Executive Order, the City
established a “General Confidentiality Policy” summarized by
the district court as follows:
City employees may not disclose an individual’s immigration status, except in limited circumstances, such
as when the disclosure is authorized by the individual,
is required by law, is to another City employee as
necessary to fulfill a governmental purpose, pertains
to an individual suspected of illegal activity (other
than mere status as an undocumented immigrant),
or is necessary to investigate or apprehend persons
suspected of terrorist or illegal activity (other than
mere documented status). Additionally, police officers
may not inquire about a person’s immigration status
unless investigating illegal activity other than mere
undocumented status, and may not inquire about the
immigration status of crime victims or witnesses at
all. Other city employees may not inquire about any
person’s immigration status unless the inquiry is
required by law or is necessary to determine eligibility
for or to provide government services.
New York v. Dep’t of Justice, 343 F. Supp. 3d at 223 (citations
omitted). The IG reported that by law enacted in November 2014,
New York City further prohibited its Corrections personnel from

22a
The IG observed that insofar as these limitations “may
be causing local officials to believe and apply the[se]
policies in a manner that prohibits or restricts cooperation with [federal immigration officials] in all
respects,” that would be “inconsistent with and prohibited by Section 1373.” Id. at 141. Thus, “to the
extent [DOJ]’s focus is on ensuring that grant
applicants comply with Section 1373,” the IG stated
that it could consider taking “several steps,” including
(1) clarifying that § 1373 “is an ‘applicable federal law’
that DOJ grant recipients “would be expected to
comply with in order to satisfy relevant grant rules
and regulations”; and (2) “[r]equir[ing] grant applicants
to provide certifications specifying the applicants’
compliance with Section 1373, along with documentation sufficient to support the certification.” Id. at 142.
Following this IG report, in July 2016, DOJ, then
still headed by Attorney General Lynch, specifically
identified § 1373 as “an applicable federal law” for
purposes of both Byrne and SCAAP grants and began
providing applicants and recipients with guidance as
to the requirements of that statute. That guidance
explained that § 1373 imposed no affirmative obligation on States and localities but, rather, prohibited
such entities from taking actions to restrict the exchange
of immigration information with federal authorities.13
communicating inmate release dates to federal immigration
authorities unless the inmate is subject to a detainer supported
by a judicial warrant. See App. at 141.
13

In that respect, DOJ stated,
Section 1373 does not impose on states and localities
the affirmative obligation to collect information from
private individuals regarding their immigration status,
nor does it require that states and localities take specific
actions upon obtaining such information. Rather, the

23a
For some jurisdictions identified by the IG, notably
plaintiff New York City, DOJ conditioned the continuance of their 2016 Byrne grants on the submission of
documentation validating their compliance with § 1373.14

statute prohibits government entities and officials
from taking action to prohibit or in any way restrict
the maintenance or intergovernmental exchange of
such information, including through written or unwritten
policies or practices.
App. at 151 (internal quotation marks omitted).
14

The validation requirement imposed by DOJ on New York
City’s 2016 Byrne grant stated as follows:
The recipient agrees to undertake a review to validate
its compliance with 8 U.S.C. § 1373. If the recipient
determines that it is in compliance with 8 U.S.C. § 1373
at the time of review, then it must submit documentation that contains a validation to that effect and includes
an official legal opinion from counsel (including related
legal analysis) adequately supporting the validation. If
the recipient determines that it is not in compliance
with 8 U.S.C. § 1373 at the time of review, then it must
take sufficient and effective steps to bring it into compliance therewith and thereafter submit documentation
that details the steps taken, contains a validation that
the recipient has come into compliance, and includes
an official legal opinion from counsel (including related
legal analysis) adequately supporting the validation.
Documentation must be submitted . . . by June 30,
2017. Failure to comply with this condition could
result in the withholding of grant funds, suspension or
termination of the grant, ineligibility for future [grants],
or other administrative, civil, or criminal penalties as
appropriate.
App. at 170, ¶ 53. By letter dated June 27, 2017, the City stated
that “[n]otwithstanding [its] position that § 1373 is not an applicable federal law . . . the City certifies that its laws and policies
comply with and operate within the constitutional bounds of

24a
In October 2016, DOJ published further guidance
stating that henceforth, “all” Byrne grant applicants
“must certify compliance with all applicable federal
laws, including Section 1373.” App. at 182. Grant
applicants were advised “to examine their policies and
procedures to ensure they will be able to submit the
required assurances” in their 2017 applications. Id. at
183.
Thus, when in July 2017, a new Attorney General,
serving a new, Republican administration, announced
that applicants for 2017 Byrne grants would have to
certify their compliance with § 1373, he was putting
into effect the same condition earlier announced by
DOJ under the preceding, Democratic administration.
IV. Plaintiffs’ 2017 Byrne Grant Awards
On June 26, 2018, DOJ applied the Byrne Program
formula to award the plaintiff States Byrne grants
totaling $25 million—subject to their acceptance of the
three immigration-related conditions at issue. As to
New York City, DOJ reiterated, in both October 2017
and January 2018, the concerns it had first expressed
in 2016, i.e., that certain of the City’s laws or policies
appeared to violate § 1373, which could render it
ineligible for Byrne grants. See supra at n.14.
In response to these DOJ actions, the plaintiff
States and City filed the instant related actions,
challenging, inter alia, the Certification, Notice, and
Access Conditions for 2017 Byrne grants as violative
of both the APA and the Constitution.

§ 1373.” 2016 Compliance Validation at 2, New York v. Dep’t of
Justice, 343 F. Supp. 3d 213 (No. 18-cv-6474), ECF No. 41-1.

25a
V. The Award of Summary Judgment to Plaintiffs
On the parties’ cross motions for summary judgment, the district court granted partial judgment to
plaintiffs, enjoining the enforcement of the challenged
conditions as to them and mandating the release of
2017 Byrne grant funds to plaintiffs.
In so ruling, the district court held that the challenged conditions violated the APA in two respects:
(1) the Attorney General lacked the statutory authority
to impose the conditions, see New York v. Dep’t of
Justice, 343 F. Supp. 3d at 227–31; and (2) defendants’
failure to consider the conditions’ potential negative
ramifications for plaintiffs’ law enforcement efforts
rendered the conditions arbitrary and capricious, see
id. at 238-41.
While the district court could have stopped there, it
proceeded also to rule on certain of plaintiffs’ constitutional challenges. As to § 1373 in particular, the
district court ruled that DOJ could not identify it as
an “applicable law” requiring compliance certification
under 34 U.S.C. § 10153(a)(5)(D) because, on its face,
§ 1373 violates the anticommandeering principle of
the Tenth Amendment to the Constitution. See id. at
231–37. Further, the district court concluded that, in
the absence of statutory authority for the Attorney
General to impose the challenged conditions, all three
violated the separation of legislative and executive
powers mandated by Articles I and II of the Constitution.
See id. at 238.
Defendants timely appealed.

26a
DISCUSSION
We review an award of summary judgment de novo,
construing the record in the light most favorable to the
non-moving party. See, e.g., Bentley v. Autozoners, 935
F.3d 76, 85 (2d Cir. 2019). We will uphold such an
award only if there is no genuine dispute as to any
material fact, and the movant is entitled to judgment
as a matter of law. See id.
I. Statutory Authorization
Challenged Conditions

To

Impose

the

Except when acting pursuant to powers expressly
conferred on the Executive Branch by the Constitution—
which are not asserted here—an executive department
or agency “literally has no power to act . . . unless and
until Congress confers power upon it.” Louisiana Pub.
Serv. Comm’n v. FCC, 476 U.S. 355, 374 (1986). Thus,
the APA requires that executive action taken in the
absence of statutory authority be declared invalid. See
5 U.S.C. § 706(2)(C).15 When the challenged action is
not only unauthorized but also intrusive on power
constitutionally committed to a coordinate branch, the
action may violate the Constitution, specifically, its

15

The relevant statutory text states as follows:
[t]o the extent necessary to decision and when presented, the reviewing court shall decide all relevant
questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability
of the terms of an agency action. The reviewing court
shall . . . hold unlawful and set aside agency action,
findings, and conclusions found to be . . . in excess of
statutory jurisdiction, authority, or limitations, or short
of statutory right . . . .

5 U.S.C. § 706(2)(C).

27a
mandate for the separation of legislative from executive
powers.16
DOJ maintains that the Attorney General was statutorily authorized to impose each of the challenged
conditions. Whether Congress conferred such authority depends on statutory text, which we construe de
novo. See Kidd v. Thomson Reuters Corp., 925 F.3d 99,
103 (2d Cir. 2019); United States v. Shyne, 617 F.3d
103, 106 (2d Cir. 2010).17
A. Title 34 U.S.C. § 10102(a)(6) Does Not Itself
Authorize the Challenged Conditions
Because DOJ devotes considerable energy on this
appeal, as it did in the district court, to arguing that
the challenged conditions are authorized by 34 U.S.C.
§ 10102(a)(6), we explain at the outset why that argu16

See generally New York v. United States, 505 U.S. 144, 182
(1992) (“[S]eparation of powers . . . is violated where one branch
invades the territory of another.”). But see Dalton v. Specter, 511
U.S. 462, 472 (1994) (explaining that not every action “in excess
of . . . statutory authority is ipso facto in violation of the
Constitution,” and distinguishing between “claims of
constitutional violations and claims that an official has acted in
excess of his statutory authority”).
17

Defendants have not claimed Chevron deference for their
own interpretation of the authority conferred by statutes pertaining to Byrne grants and, thus, on this appeal, we do not consider
whether any such deference might be warranted. See Chevron,
U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837, 845
(1984); compare Neustar, Inc. v. FCC, 857 F.3d 886, 894 (D.C. Cir.
2017) (holding Chevron deference “forfeited” where not claimed
on appeal), with Sierra Club v. United States Dep’t of the Interior,
899 F.3d 260, 286 (4th Cir. 2018) (explaining in case where parties
assumed Chevron deference that parties “cannot waive the proper
standard of review by failing to argue it” (internal quotation
marks omitted)). Rather, we conclude on de novo review that the
challenged conditions are statutorily authorized.

28a
ment does not persuade. We will then discuss sections
of Title 34 that do authorize the conditions at issue.
At the conclusion of a list of criminal-justice-related
duties assigned to the AAG, § 10102(a)(6) authorizes
the AAG,
[to] exercise such other powers and functions
as may be vested in the Assistant Attorney
General pursuant to this chapter or by delegation of the Attorney General, including
placing special conditions on all grants, and
determining priority purposes for formula
grants.
34 U.S.C. § 10102(a)(6) (emphasis added). Focusing on
the highlighted language, DOJ argues that § 10102(a)(6)
does not merely authorize the Attorney General to
delegate powers and functions to the AAG, but also
grants “addition[al]” authority, which supports the
three challenged conditions. Appellant Br. at 22; see
Reply Br. at 4–5.
In rejecting this argument, the district court held
that the highlighted text is not a “‘stand-alone grant
of authority to the Assistant Attorney General to
attach any conditions to any grants.’ New York v. Dep’t
of Justice, 343 F. Supp. 3d at 228 (quoting City of
Chicago v. Sessions, 888 F.3d at 285). Rather, the
introductory word “including” signals that the ensuing
phrase is necessarily cabined by what went before it.
Thus, the Assistant Attorney General can
only place special conditions or determine
priority purposes to the extent that power
already “may be vested in the Assistant
Attorney General pursuant to this chapter or
by delegation of the Attorney General[,]” . . .

29a
who may only delegate it to the extent that he
has such power himself.
Id. (quoting 34 U.S.C. § 10102(a)(6)).
This conclusion finds support not only in City of
Chicago v. Sessions, the Seventh Circuit decision
quoted by the district court, but also in subsequent
decisions of the Third and Ninth Circuits. See City of
Los Angeles v. Barr, 941 F.3d at 938–39; City of
Philadelphia v. Attorney Gen., 916 F.3d at 287–89. We
agree with that much of these courts’ decisions.
Depending on context, the word “including” can be
either illustrative or enlarging. Compare Federal Land
Bank of St. Paul v. Bismarck Lumber Co., 314 U.S. 95,
100 (1941) (construing word as illustrative of preceding
section), with American Sur. Co. of N.Y. v. Marotta,
287 U.S. 513, 517 (1933) (observing that, “[i]n definitive provisions of statutes,” word frequently signifies
extension rather than limitation), and Adams v. Dole,
927 F.2d 771, 776–77 (4th Cir. 1991) (noting dual
meaning of word). The context here signals illustration rather than enlargement. It is the “other powers
and functions” that may be vested in or delegated to
the AAG that can “include” the authority to impose
special conditions and to set priority purposes for
Byrne Program grants. Thus, § 10102(a)(6) does not
itself confer authority on the Attorney General (or
AAG) to impose the conditions here at issue. The
authority must originate in other provisions of law.
That is the case here.

30a
B. Statutory Provisions Authorizing the Attorney
General To Impose the Challenged Conditions
1. Other Circuits Identify No Such Authority
In looking to whether the Attorney General is otherwise authorized to impose the challenged conditions,
we are mindful that three sister circuits have considered that question before us and concluded that he is
not. Their reasons for so holding have not been uniform.
The Seventh Circuit so ruled with respect to the
Notice and Access Conditions, reasoning that no provision of law outside § 10102(a)(6) specifically mentions
“special conditions” or “priority purposes” for Byrne
grants. See City of Chicago v. Sessions, 888 F.3d at 285.
The Ninth Circuit did not think that omission determinative. Reasoning that Congress could not have
enacted § 10102(a)(6) “for the purpose of expressly
authorizing the Assistant AG to exercise powers that
do not exist,” that court construed § 10102(a)(6) as
effectively “confirming” what had been implicit in the
overall statutory scheme, i.e., that the Attorney General
has the authority to impose special conditions on, and
to identify priority purposes for, Byrne grants, which
authority he can delegate to the AAG. City of Los
Angeles v. Barr, 941 F.3d at 939. We agree with that
much of the Ninth Circuit’s reasoning. The court goes
on, however, to construe the terms “special conditions”
and “priority purposes” narrowly and, from that,
concludes that the Attorney General is not statutorily
authorized to impose the challenged Notice and Access
Conditions. See id. at 939–41 (construing “special conditions” as used in § 10102(a)(6) to reference only “tailored
requirements” necessary to particular circumstance
“such as when a grantee is [at] ‘high-risk’” of violating
a grant’s terms, not general conditions applicable to

31a
all grants); id. at 941–42 (limiting “priority purposes”
for Byrne awards to purposes set out in § 10152(a)).
We cannot adopt the Seventh or Ninth Circuit’s
conclusions because we do not think the Attorney
General’s authority to impose the three challenged
conditions here derives from the words “special conditions” or “priority purposes.” Rather, we locate that
authority in other provisions of law, specifically, those
requiring Byrne grant applicants to satisfy the program’s
statutory requirements in such “form” and according
to such “rules” as the Attorney General prescribes. See
34 U.S.C. §§ 10153(a), 10153(a)(5), 10155. Considering
that form- and rule-making authority in light of three
particular statutory requirements—(1) for certification
of willingness to comply with “applicable Federal laws,”
id. § 10153(a)(5)(D); (2) for assurance that required
information will be maintained and reported, see id.
§ 10153(a)(4); and (3) for coordination with affected
agencies, see id. § 10153(a)(5)(C)—we conclude that
the Attorney General is statutorily authorized to
impose the challenged conditions.
Before explaining that conclusion, we acknowledge
that the Third Circuit, considering these same three
statutory requirements, held that none supports the
challenged conditions. See City of Philadelphia v.
Attorney Gen., 916 F.3d at 285-91. The Third Circuit,
however, viewed the Attorney General’s statutory authority respecting Byrne Program grants as “exceptionally
limited.” Id. at 284–85. We do not.
The Third Circuit emphasized that the Byrne
Program awards formula grants. See id. at 290. We
agree that the Attorney General’s authority to depart
from that formula when awarding grants to qualified
applicants is extremely limited. But before there can
be an award, there must be a demonstrated showing

32a
of qualification. Repeatedly and throughout its pronouncement of Byrne Program statutory requirements,
Congress makes clear that a grant applicant demonstrates qualification by satisfying statutory requirements
in such form and according to such rules as the
Attorney General establishes. This confers considerable authority on the Attorney General.18

18

The following statutory sections confer on, or confirm, the
Attorney General’s authority in this respect:
•

34 U.S.C. § 10152(c)(1) –Requiring every program funded
with a Byrne grant to have a “program assessment component, developed pursuant to guidelines established by
the Attorney General” together with the National Institute
of Justice.

•

Id. § 10152(d)(2) – Authorizing Attorney General to certify
that extraordinary and exigent circumstances warrant using
Byrne grant funds for generally prohibited expenditures.

•

Id. § 10152(f) – Affording Attorney General discretion to
extend Byrne grants beyond normal four-year period.

•

Id. § 10153(a) – Requiring Byrne grant applicants to
submit application to Attorney General “in such form as
the Attorney General may require,” including statutorily
required certifications and assurances.

•

Id. § 10153(a)(5)(C) – Requiring certification “in a form
acceptable to the Attorney General” that “there has been
appropriate coordination with affected agencies.”

•

Id. § 10153(a)(5)(D) –Requiring certification “in a form
acceptable to the Attorney General” that “applicant will
comply with all provisions of this part and all other
applicable Federal laws.”

•

Id. § 10154 – Requiring Attorney General to afford applicant notice and opportunity to correct any application
deficiencies before finally disapproving application.

•

Id. § 10155 – Requiring Attorney General to “issue rules
to carry out this part.”

33a
To be sure, the Attorney General’s authority in
identifying qualified Byrne applicants is not limitless
but, rather, a function of the particular requirements
prescribed by Congress. Not surprisingly, however,
Congress has prescribed those requirements broadly,
enlisting the Attorney General to delineate the rules
and forms for them to be satisfied. See generally United
States v. Haggar Apparel Co., 526 U.S. 380, 392–93
(1999) (explaining that because “Congress need not,
and likely cannot, anticipate all circumstances in which
a general policy must be given specific effect[,]” agency
may issue rules so that statute “may be applied . . . in
a manner consistent with Congress’ general intent”).
While the Attorney General certainly cannot exercise
that authority arbitrarily or capriciously, see infra
Point II, the authority itself cannot fairly be characterized as “exceptionally limited.”
With that understanding, we proceed to consider
each challenged condition and the statutory provisions
supporting it.
2. The Certification Condition Is Statutorily
Authorized by 34 U.S.C. § 10153(a)(5)(D)
a. The Statutory Text Requires Applicants
To Certify a Willingness To Comply
With “All . . . Applicable Federal
Laws”
The Certification Condition requires a Byrne grant
applicant to certify that, throughout the grant period,
it will comply with 8 U.S.C. § 1373, the federal law
prohibiting any government entity or official from
restricting the receipt, maintenance, or exchange of
information regarding citizenship or immigration status
as specified in that statute. See supra at 15 (quoting
condition). The Attorney General’s statutory authority

34a
to impose this condition derives from 34 U.S.C.
§ 10153(a)(5)(D). Therein, Congress specifically requires
a Byrne grant applicant to include in its application
“[a] certification, made in a form acceptable to the
Attorney General” stating that “the applicant will
comply with all provisions of this part and all other
applicable Federal laws.” 34 U.S.C. § 10153(a)(5)(D)
(emphasis added).
The conjunctive structure of § 10153(a)(5)(D) makes
plain that a Byrne grant applicant must certify its
willingness to comply with more than those provisions
of law specifically pertaining to the Byrne Program
(“this part”). It must also certify its willingness to
comply with “all other applicable Federal laws.” Id. At
the same time that this phrase expands an applicant’s
certification obligation, the word “applicable,” as used
in the phrase, serves a limiting function. A Byrne
applicant is not required to certify its willingness to
comply with the United States Code in its entirety as
well as all accompanying regulations. Rather, an
applicant must certify its willingness to comply with
those laws—beyond those expressly stated in Chapter
34—that can reasonably be deemed “applicable.” This
raises two questions: What is an “applicable” law? And
who identifies it? We answer the second question first
because it is not seriously disputed and, thus, requires
only brief discussion.
1. The Attorney General Is Authorized To
Identify “Other Applicable Federal Laws”
Requiring § 10153(a)(5)(D) Compliance
Certification
The statutory text signals that the Attorney General
identifies the laws requiring § 10153(a)(5)(D) compliance certification. This is evident in the requirement
that Byrne grant applicants provide certification in

35a
a “form acceptable to the Attorney General.” Id.
§ 10153(a)(5). A “form” is commonly understood to be
a “document” for providing “required or requested
specific information.” WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY 892 (1986). By requiring that
§ 10153(a)(5)(D) certification be in a “form acceptable
to the Attorney General,” the statute makes clear that
it is the Attorney General who has authority to
“require[] or request[] specific information,” to ensure
a grant applicant’s intended compliance with all other
applicable federal laws. See id. Thus, § 10153(a)(5)(D)
authorizes the Attorney General to decide not only the
style (e.g., format and typeface) for § 10153(a)(5)(D)
certification, but also the specificity of its content,
i.e., whether certification is “acceptable” in a form
that references “all other applicable Federal laws”
generally, or whether such certification needs to be in
a form that identifies specific applicable laws.19
That Congress would vest such authority in the
Attorney General makes sense for several reasons.
First, while Congress itself requires compliance
certification as to “all other applicable Federal laws,”
the number of laws that could apply to States and
localities seeking Byrne funding is large, variable, and
not easily identified in a single statutory provision.
Second, the Attorney General, as the nation’s chief
federal law enforcement official, is particularly suited
to identify the federal laws applicable to persons and
circumstances. Third, having the Attorney General
identify specific laws requiring § 10153(a)(5)(D) certi19

While matters of “substance” are frequently distinguished
from matters of “form,” see, e.g., PPL Corp. v. Comm’r of Internal
Revenue, 569 U.S. 329, 340–41 (2013) (distinguishing between
form and substance of a tax), a form serves to ensure the communication of required substance.

36a
fication serves the salutary purpose of affording
applicants clear notice of what is expected of them as
Byrne grant recipients.20
2. “All Other Applicable Federal Laws”
Encompasses Both Laws Applying To the
Entity Seeking a Grant and Laws Applying To the Proposed Grant Program
The district court nevertheless concluded that the
Attorney General was not authorized to identify
§ 1373 as an applicable law. It held that “‘applicable
Federal laws’ for purposes of 34 U.S.C. § 10153(a)(5)(D)
means federal laws applicable to the grant,” not to the
grant applicant. New York v. Dep’t of Justice, 343 F.
Supp. 3d at 230-31. Because it thought that § 1373
applies only to applicants in their capacities as State
and local governments, not to their grants, the district
court ruled that the statute could not be an “applicable” law requiring § 10153(a)(5)(D) certification. Id.
at 231. The Third Circuit subsequently reached the
same conclusion. See City of Philadelphia v. Attorney
Gen., 916 F.3d at 288-90. In so ruling, both courts
acknowledged that it would be reasonable to construe
the statutory text to mean laws applicable to a grant
applicant as well as to a requested grant. See id. at
288; New York v. Dep’t of Justice, 343 F. Supp. 3d at
230–31. Nevertheless, the Third Circuit concluded
that a narrower construction was required by the
canon against surplusage, the structure of the statute,
the historical practice of DOJ, and the formula-grant
nature of the program. See City of Philadelphia v.
Attorney Gen., 916 F.3d at 289–91. The district court
relied on similar reasoning, as well as Congress’s
obligation “unambiguously” to impose conditions on
20

We discuss this notice point further infra at 47–49.

37a
grants of federal money, to justify its narrow reading
of § 10153(a)(5)(D). New York v. Dep’t of Justice, 343
F. Supp. 3d at 231 (internal quotation marks omitted).
We cannot agree.
First and foremost, we do not think the statutory
text admits such narrowing. See generally Connecticut
Nat’l Bank v. Germain, 503 U.S. 249, 254 (1992)
(stating that “when the words of a statute are unambiguous . . . judicial inquiry is complete” (internal
quotation marks omitted)); accord Mei Xing Yu v.
Hasaki Rest., Inc., 944 F.3d 395, 403 (2d Cir. 2019)
(citing Connecticut Nat’l Bank v. Germain). The word
“applicable,” as used in § 10153(a)(5)(D), is not statutorily defined. Thus, it is properly construed according
to its contemporary dictionary definition, see Taniguchi
v. Kan Pac. Saipan, Ltd., 566 U.S. 560, 566 (2012);
accord Munoz-Gonzalez v. D.L.C. Limousine Serv., Inc.,
904 F.3d 208, 213 (2d Cir. 2018), which is “capable of
being applied: having relevance,” WEBSTER’S THIRD
NEW INTERNATIONAL DICTIONARY 105. Statutes are
“capable of being applied,” and can be relevant both to
persons and to circumstances. A second dictionary
definition for the word “applicable”—“fit, suitable, or
right to be applied,” id.—only reinforces that conclusion, in that a statute may be fit, suitable, or right to
apply both to persons and to circumstances.21 Thus, an
“applicable Federal law” under § 10153(a)(5)(D) is one
pertaining either to the State or locality seeking a
Byrne grant or to the grant being sought.

21

See Ransom v. FIA Card Servs., N.A., 562 U.S. 61, 69–70
(2011) (using both dictionary definitions in construing phrase “debtor’s
applicable monthly expense amounts” in provision of Bankruptcy
Code (emphasis added) (quoting 11 U.S.C. § 707(b)(2)(A)(ii)(I))).

38a
To the extent the district court might be understood
to have construed “all other applicable laws” to mean
only laws applying to States and localities as recipients of federal grants, nothing in the statutory text
suggests that Congress there used the word “applicable” only in that limited sense. To the contrary,
Congress’s use of the adjective “all” to introduce the
phrase “all other applicable Federal laws” signals an
intent to give the word “applicable” its full effect, not
to narrow it. See Norfolk & W. Ry. Co. v. Am. Train
Dispatchers Ass’n, 499 U.S. 117, 128–29 (1991) (explaining that phrase “all other law” is “clear, broad, and
unqualified” and “indicates no limitation” (internal
quotation marks omitted)).
Second, we cannot agree with the Third Circuit that
a redundancy or surplusage problem arises if “all
other applicable Federal laws” is construed to mean
laws pertaining both to Byrne applicants and to the
grants they seek. See City of Philadelphia v. Attorney
Gen., 916 F.3d at 289 (concluding that such construction effectively equates phrase with “other Federal
laws,” making word “applicable” mere surplusage). As
explained supra at 36, the word “applicable” does
serve a limiting function in the statutory text—even if
not as limiting as plaintiffs might wish. Thus, to raise
a redundancy concern, the Third Circuit must imply
that if Congress had used the phrase “all other Federal
laws” in § 10153(a)(5)(D), then courts would have to
infer the word “applicable” because of the improbability of Congress requiring certification for the entirety
of federal law. But Congress did not use that broader
phrase in § 10153(a)(5)(D). And we do not think its use
of a modifying word—“applicable”—to make explicit in
actual statutory text what our sister circuit thinks
would have to be implied in a hypothetical alternative

39a
manifests surplusage. Rather, we think it demonstrates
clear drafting.
Third, the formula nature of the Byrne Program
does not warrant limiting the phrase “all other
applicable Federal laws.” While Congress’s intent in
appropriating funds for formula (as distinct from
discretionary) grants is to have all the money distributed, even a formula grant applicant must satisfy
the program’s requirements before being entitled to
receive funding. Cf. Richard B. Cappalli, Rights and
Remedies Under Federal Grants 40 (1979) (remarking
that states typically qualify for formula grants after
submitting document statutorily described as “state
plan,” which serves as “vehicle by which the state
commits itself to abide by the conditions which Congress
attaches to the funds”). As to the Byrne Program, this
is evident from the fact that Congress has expressly
provided for alternative distributions of appropriated
funds if “a State will be unable to qualify” for a Byrne
grant—a matter Congress also leaves for “the Attorney
General [to] determine[].” 34 U.S.C. § 10156(f); see
supra at 13. Thus, Byrne Program formula funding
can be denied to an applicant that fails to provide
the required § 10153(a)(5)(D) certification as to any
“applicable Federal law[],” whether that law pertains
to the particular grant sought or to the applicant
seeking it.22

22

The Third Circuit inferred from the fact that qualifying
Byrne (and other federal) grant recipients could lose a specified
(often small) percentage of their annual distribution if they fail
to comply with certain other statutes, that the Attorney General
was not statutorily authorized “to withhold all of a [Byrne]
grantee’s funds for any reason the Attorney General chooses.”
City of Philadelphia v. Attorney Gen., 916 F.3d at 286 (emphases
in original) (citing 34 U.S.C. § 20927(a) (providing mandatory 10%

40a
Indeed, whether a grant is awarded by formula or
by discretion, there is something disquieting in the
idea of States and localities seeking federal funds to
enforce their own laws while themselves hampering
the enforcement of federal laws, or worse, violating
those laws. One has only to imagine millions of dollars
in Byrne funding being sought by a locality that is
simultaneously engaged in persistent, serious violations of federal environmental laws. The formula
nature of the Byrne Program does not dictate that
such an applicant must be given federal money even
as it continues to flout federal law. To the contrary,
§ 10153(a)(5)(D) authorizes the Attorney General to
condition the locality’s receipt of a Byrne grant on its
certified willingness to comply with all federal laws
penalty for failure to comply with Sex Offender Registration and
Notification Act); id. § 30307(e)(2) (mandating 5% penalty for
failure to comply with Prison Rape Elimination Act); id. § 40914(b)
(withholding up to 4% of funding for failure to meet requirements
of National Instant Criminal Background Check System)). That
reasoning does not apply here, where the issue is not whether the
Attorney General can withhold Byrne funding for any reason
from qualifying applicants, but whether he can deny any such
funding to an applicant that fails to demonstrate qualification
under the Program’s statutory requirements, indeed, fails to satisfy
them in a “form acceptable to the Attorney General,” as Congress
has mandated. 34 U.S.C. § 10153(a)(5). To be sure, the form
acceptable to the Attorney General must be grounded in the
qualifying requirements it serves, but where that is the case, an
applicant’s failure—or refusal—to satisfy the statutory requirement
in that form can result in denial of a Byrne grant. While the
Attorney General cannot “finally disapprove” a deficient Byrne
grant application “without first affording the applicant reasonable notice of any deficiencies . . . and opportunity for correction
and reconsideration,” id. § 10154, if those deficiencies persist
after such notice and opportunity, then the Attorney General is
authorized to deny the grant in its entirety and to reallocate
funds as provided in § 10156(f).

41a
applicable to that locality, which includes environmental laws.
The conclusion obtains with even more force here,
where enactment of the law at issue, 8 U.S.C. § 1373,
was informed by Congress’s concern that States and
localities receiving federal grants were hampering the
enforcement of federal immigration laws. See supra at
17-20. Subsequent reports that increasing numbers
of federal grant recipients were limiting cooperation
with federal immigration authorities prompted a congressional request for DOJ investigation, the results
of which led two successive Attorneys General serving
different administrations to identify § 1373 as an “applicable Federal law” requiring compliance certification.
See supra at 20–25.23 We are satisfied that these
identifications are authorized by the plain language of
§ 10153(a)(5)(D), and the formula nature of the Byrne
Program requires no contrary conclusion.
Fourth, the Third Circuit observes that certain
§ 10153(a)(5) certification requirements appear, on
their face, to pertain to the requested grant rather
than to the grant applicant. See City of Philadelphia
v. Attorney Gen., 916 F.3d at 289 (citing § 10153(a)(5)(A)
(requiring certification that “the programs to be
funded by the grant meet all the requirements of this
part”); § 10153(a)(5)(B) (requiring certification that
23

The IG’s findings, see supra at 21–23, might well be found to
demonstrate the “high risk” identified by the Ninth Circuit for
imposing “special conditions” on Byrne grants, see City of Los
Angeles v. Barr, 941 F.3d at 940 (holding that “special conditions,”
as referenced in § 10102(a)(6), means “unusual” or “extraordinary”
conditions for a “high-risk grantee,” i.e., a grantee with “a history
of noncompliance with grant requirements, financial stability
issues, or other factors that suggest[] a propensity toward violation of a grant’s terms” (internal quotation marks omitted)).

42a
“all the information contained in the application is
correct”); and § 10153(a)(5)(C) (requiring certification
that “there has been appropriate coordination with
affected agencies”)). That, however, is insufficient reason
to impose a similar limitation on § 10153(a)(5)(D),
when the plain language of that provision—“all other
applicable Federal laws”—reaches more broadly. See
generally Norfolk & W. Ry. Co. v. Am. Train Dispatchers
Ass’n, 499 U.S. at 127, 129 (rejecting argument that
exemption from “antitrust laws and from all other
law” was limited to antitrust-related laws; ejusdem
generis canon does not apply where neither statutory
text nor context supports urged limitation (emphasis
added) (internal quotation marks omitted)).
In urging otherwise, plaintiffs point to 34 U.S.C.
§ 10228, which states that “[n]othing in this chapter
or any other Act shall be construed to authorize any
department, agency, officer, or employee of the United
States to exercise any direction, supervision, or control
over any police force or any other criminal justice
agency of any State or any political subdivision thereof.”
As the Fourth Circuit has observed in construing
§ 10228’s predecessor statute, the provision is intended
“to guard against any tendency towards federalization
of local police and law enforcement agencies.” Ely v.
Velde, 451 F.2d 1130, 1136 (4th Cir. 1971) (construing
statute to prohibit federal authorities from “[prescribing]
the type of shoes and uniforms to be worn by local law
enforcement officers, the type or brand of ammunition
to be purchased and used by police departments and
many other vital matters pertaining to the day-to-day
operations of local law enforcement” (citation omitted)).
Section 1373 raises no such federalization concern. It
does not direct, control, or supervise the day-to-day
operations of any State or local police force or law
enforcement agency. It does not mandate that State

43a
or local law enforcement authorities cooperate with
federal immigration officers. It requires only that
nothing be done to prohibit voluntary communication
about citizenship or immigration status among such
officials. See supra at 24. To hold that § 10228 places
such a statutory requirement outside the scope of
applicable laws requiring § 10153(a)(5)(D) compliance
certification is to render that qualification condition a
nullity, as compliance with every federal law necessarily places some limits on a grant applicant’s
actions. Indeed, that conclusion applies whether the
law pertains to the applicant or the grant program. We
decline to construe § 10228 so broadly as to render
§ 10153(a)(5)(D) inoperative. Cf. Mountain States Tel.
& Tel. Co. v. Pueblo of Santa Ana, 472 U.S. 237, 250
(1985) (noting “elementary canon of construction that
a statute should be interpreted so as not to render one
part inoperative” (internal quotation marks omitted)).
See generally Ely v. Velde, 451 F.2d at 1136 (declining
to construe predecessor provision “so broadly as unnecessarily to undercut solutions adopted by Congress to
preserve and protect other societal values”).24
Fifth, DOJ’s own focus on laws pertaining to grants
rather than applicants in its past identifications of
“applicable” federal laws does not itself limit the word.
Given the scope of local programs that can be funded
with Byrne grants, it is not surprising that DOJ would
most frequently identify laws applicable to a particular program in specifying the form of an acceptable
§ 10153(a)(5)(D) certification. See generally City of
Philadelphia v. Attorney Gen., 916 F.3d at 290 (observ24

Insofar as plaintiffs rely not only on § 10228, but also on the
Tenth Amendment to argue that § 1373 cannot be an “applicable”
law requiring Compliance Certification, we discuss that constitutional point infra at 49–61.

44a
ing that if requested grant was to be used for body
armor purchases or human research, applicants were
expected to certify willingness to comply with applicable federal regulations in those areas). Far fewer,
one expects, will be the occasions when States and
localities seeking Byrne grants are themselves violators of federal laws applicable to them. Nevertheless,
in such circumstances, the violated laws fall within
the plain meaning of the phrase “all other applicable
Federal laws” as used in § 10153(a)(5)(D). To illustrate,
while the Attorney General can—and has—required
applicants proposing to use Byrne grants for construction or renovation projects to comply with federal
environmental laws specifically applicable to such
work, that hardly means he cannot also require an
applicant that has a history of violating environmental laws generally from certifying its willingness going
forward to comply with such laws. The laws are applicable in the former instance to the grant purpose; in
the latter, to the grant applicant. In either case, the
Attorney General is requiring compliance certification
as to “applicable Federal laws.”
Sixth, Congress’s duty to speak unambiguously in
imposing conditions on federal grant money also does
not require “all other applicable Federal laws” to be
construed to mean only laws pertaining to grants and
not to grant applicants. See New York v. Dep’t of
Justice, 343 F. Supp. 3d at 231. The duty derives from
Pennhurst State School & Hospital v. Halderman, 451
U.S. 1 (1981). The Supreme Court there analogized
federal spending legislation to “a contract: in return
for federal funds, the States agree to comply with
federally imposed conditions.” Id. at 17. It concluded
therefrom that Congress must “speak with a clear
voice” in placing conditions on federal grants because
there “can . . . be no knowing acceptance [of the puta-

45a
tive contract] if a State is unaware of the conditions or
is unable to ascertain what is expected of it.” Id.
“Knowing acceptance” is no concern here. Section
10153(a)(5)(D) provided plaintiffs with clear notice
that their Byrne grant applications had to include a
certification, in a form acceptable to the Attorney
General, of their willingness to comply not only with
laws specifically applicable to the Byrne Program,
but also with “all other applicable Federal laws.” To
the extent the quoted phrase fails to specify precisely
which laws are “applicable,” that uncertainty can pertain
as much for laws applicable to requested grants as for
those applicable to grant applicants. Thus, the district
court’s Pennhurst reasoning does not support its
conclusion that “applicable Federal laws” can pertain
only to requested Byrne grants, not to grant applicants.
But more to the point, no Pennhurst concern arises
here because plaintiffs were given advance notice that
their 2017 Byrne grant applications had to certify a
willingness to comply with § 1373. Indeed, they were
given such notice twice, first in 2016, and again
in 2017. See supra at 23–25. To be sure, that notice
was provided by DOJ rather than Congress. But the
Supreme Court has recognized that, in establishing
federal grant programs, Congress cannot always “prospectively resolve every possible ambiguity concerning
particular applications of the [program’s statutory]
requirements.” Bennett v. Kentucky Dep’t of Educ., 470
U.S. 656, 666, 669 (1985) (making point in context of
federal education grant program). Thus, it has upheld
an administering agency’s clarifying interpretations,
and even its violation determinations, as long they
were grounded in “statutory provisions, regulations,
and other guidelines provided by the Department” at
the time of the grant. Id. at 670–71; see also United

46a
States v. O’Hagan, 521 U.S. 642, 672–73 (1997) (recognizing agency authority to prescribe legislative rules
consistent with statute). Plaintiffs here may disagree
with the identification of § 1373 as an “applicable
Federal law,” but they can hardly complain of inadequate
notice.
In a final argument in support of their APA challenge to the Attorney General’s identification of § 1373
as an applicable federal law, plaintiffs point to Congress’s
rejection of various legislative proposals to impose
immigration-related conditions on receipt of federal
funds. As the Supreme Court has cautioned, “subsequent legislative history is a hazardous basis for
inferring the intent of an earlier Congress.” Pension
Ben. Guar. Corp. v. LTV Corp., 496 U.S. 633, 650
(1990) (internal quotation marks omitted). Such legislative history “is a particularly dangerous ground” of
construction where, as here, the “proposal[s] . . . do[]
not become law.” Id. Indeed, “several equally untenable
inferences may be drawn from” congressional inaction,
“including the inference that the existing legislation
already incorporated the offered change.” Id. (internal
quotation marks omitted). Thus, this challenge to the
Attorney General’s § 10153(a)(5)(D) authority to identify
§ 1373 as an “applicable” law also fails.
In sum, we conclude that the plain language of
§ 10153(a)(5)(D), authorizes the Attorney General to
require certification in a form that specifically references federal laws applicable either to the Byrne grant
sought or to the State or locality seeking that grant.
Because 8 U.S.C. § 1373 is a law applicable to all
plaintiffs in this action, the Attorney General was
authorized to impose the challenged Certification
Condition and did not violate either the APA or
separation of powers by doing so.

47a
b. Tenth Amendment Challenge
(1) “As Applied” Review
The district court ruled not only that the Certification Condition was not statutorily authorized, but also
that it could not be so authorized without violating
the Constitution. Specifically, the district court held
that 8 U.S.C. § 1373, the law for which the condition
required certification, “is facially unconstitutional
under the anticommandeering doctrine of the Tenth
Amendment,” and, as such, “drops out of the possible
pool of ‘applicable federal laws’ requiring § 10153(a)(5)(D)
certification. New York v. Dep’t of Justice, 343 F. Supp.
3d at 237 (internal quotation marks omitted). The
district court did not have to reach this constitutional
question, having already found the Certification
Condition to violate the APA. See Lyng v. Nw. Indian
Cemetery Protective Ass’n, 485 U.S. 439, 445 (1988)
(noting that “longstanding principle of judicial restraint
requires that courts avoid reaching constitutional questions in advance of the necessity of deciding them”);
accord Camreta v. Greene, 563 U.S. 692, 705 (2011).
This court, however, cannot avoid the issue in light
of our ruling that the Certification Condition is
statutorily authorized.
For reasons briefly explained herein, we think the
district court’s reasoning insufficient to support its
declaration of facial unconstitutionality. We do not
pursue the matter in detail, however, because § 1373’s
constitutionality is properly assessed here not on the
face of the statute, but as applied to clarify a federal
funding requirement.25 In that context, § 1373 does not
25

As the Supreme Court has long recognized, “as-applied
challenges are the basic building blocks of constitutional adjudication,” and it is not the court’s “traditional institutional role

48a
constitute commandeering in violation of the Tenth
Amendment.
To the extent the district court thought that § 1373
had to be constitutional in all its applications to be
identified as an “applicable Federal law[]” warranting
§ 10153(a)(5)(D) certification, it was mistaken. Even
assuming arguendo that § 1373 can constitutionally
be applied to States and localities only when they
are seeking federal funding—a matter we do not here
decide—the principle of severability would warrant
upholding the statute as so narrowed. See Alaska
Airlines, Inc. v. Brock, 480 U.S. 678, 685 (1987)
(discussing severability in addressing constitutional
challenges to statutes); accord National Fed’n of Indep.
Bus. (“NFIB”) v. Sibelius, 567 U.S. 519, 586–88 (2012)
(severing part of Affordable Care Act raising constituto resolve questions of constitutionality with respect to each
potential situation that might develop.” Gonzales v. Carhart, 550
U.S. 124, 168 (2007) (internal quotation marks and alterations
omitted); see Village of Hoffman Estates v. Flipside, Hoffman
Estates, Inc., 455 U.S. 489, 494-95 (1982) (holding that courts should
consider constitutional challenge to statute as applied to plaintiff
before considering other applications); Yazoo & Miss. Valley R.R.
Co. v. Jackson Vinegar Co., 226 U.S. 217, 219–20 (1912) (upholding statute as applied to instant case without speculating as to
how it might apply in other circumstances); accord United States
v. Holcombe, 883 F.3d 12,17 (2d Cir. 2018) (explaining that where
First Amendment rights are not implicated, court considers
constitutional challenge “in light of the specific facts of the case
at hand” (internal quotation marks omitted)). Section 1373 is not
here challenged as constitutionally vague, much less constitutionally vague in a way implicating First Amendment rights, so
as to warrant more than as-applied review. See Farrell v. Burke,
449 F.3d 470, 496 (2d Cir. 2006) (“The general rule disfavoring
facial vagueness challenges does not apply in the First Amendment
context.”); see also United States v. Davis, 139 S. Ct. 2319, 2323
(2019) (“In our constitutional order, a vague law is no law at all.”).

49a
tional concerns and upholding remainder); United
States v. Booker, 543 U.S. 220, 245 (2005) (remedying
constitutional defect in Sentencing Guidelines by severing provision for mandatory application). There can
be no question that Congress would have enacted the
law, even as so narrowed. Legislative history indicates
that § 1373’s enactment was animated by reports that
States and localities receiving federal funding were
hindering cooperation with immigration authorities.
See supra at 17–20. Nor is there any reason to think
that the law would not operate as Congress intended
as applied in the funding context. See generally Alaska
Airlines, Inc. v. Brock, 480 U.S. at 684–85 (discussing
two factors informing severability).
With this understanding, that, in the end, the
proper scope of constitutional inquiry is “as applied,”
we briefly discuss concerns raised by the district court’s
facial assessment before explaining our conclusion
that § 1373 does not violate the Tenth Amendment as
applied here to States and localities seeking Byrne
Program grants.
(2) The District Court’s Identification
of Facial Unconstitutionality
The Tenth Amendment states: “The powers not
delegated to the United States by the Constitution,
nor prohibited by it to the States, are reserved to the
States respectively, or to the people.” U.S. CONST.
amend. X. From this text, the Supreme Court has
derived an “anticommandeering principle,” which prohibits the federal government from compelling the States
to enact or administer a federal regulatory program.
See Printz v. United States, 521 U.S. 898, 935 (1997)
(“The Federal Government may neither issue directives
requiring the States to address particular problems,
nor command the States’ officers, or those of their

50a
political subdivisions, to administer or enforce a federal
regulatory program.”).
This court has already considered, and rejected, a
facial commandeering challenge to § 1373. See City of
New York v. United States, 179 F.3d 29 (2d Cir. 1999).
We reasoned that § 1373 does not “compel[] state and
local governments to enact or administer any federal
regulatory program.” Id. at 35. Nor does it “affirmatively conscript[] states, localities, or their employees
into the federal government’s service.” Id. Rather, the
law prohibits state and local governments and officials
“only from directly restricting the voluntary exchange
of immigration information” with federal immigration
authorities. Id.
The district court acknowledged this precedent, but
concluded that it does not survive Murphy v. National
Collegiate Athletic Association, 138 S. Ct. 1461 (2018).26
The Supreme Court there held that federal legislation
prohibiting States from authorizing sports gambling
violates the Tenth Amendment’s anticommandeering
rule because it “unequivocally dictates what a state
legislature may and may not do.” Id. at 1478. The
Court explained that it did not matter whether
Congress issued such a dictate by commanding affirmative action or imposing a prohibition: “The basic
principle—that Congress cannot issue direct orders
to state legislatures—applies in either event.” Id.
The district court concluded that Murphy’s reasoning
required it to hold § 1373 facially violative of the
Tenth Amendment because the statute’s proscriptions
26

It has long been the rule in this circuit that a panel decision
controls “unless and until . . . reversed en banc or by the Supreme
Court.” In re Arab Bank, PLC Alien Tort Statute Litig., 808 F.3d
144, 154 (2d Cir. 2015) (internal quotation marks omitted).

51a
prevent States from “adopting [immigration] policies
contrary to those preferred by the federal government,”
or “extricating themselves from federal immigration
enforcement.” New York v. Dep’t of Justice, 343 F.
Supp. 3d at 235 (internal quotation marks and alterations omitted).
Murphy may well have clarified that prohibitions as
well as mandates can manifest impermissible commandeering. But the conclusion that § 1373, on its
face, violates the Tenth Amendment does not follow.
A commandeering challenge to a federal statute
depends on there being pertinent authority “reserved
to the States.” In Murphy, there was no question that,
but for the challenged federal law, the States’ police
power allowed them to decide whether to permit
sports gambling within their borders. That conclusion
is not so obvious in the immigration context where it
is the federal government that holds “broad,” Arizona
v. United States, 567 U.S. at 394, and “preeminent”
power, Toll v. Moreno, 458 U.S. at 10. Title 8 of
the United States Code, commonly known as the
Immigration and Nationality Act (“INA”), see 8 U.S.C.
§ 1101 et seq., is Congress’s “extensive and complex”
codification of that power, Arizona v. United States,
567 U.S. at 395.
This does not mean that States can never enact any
laws pertaining to aliens. See id. at 404 (observing
that “[w]hen there was no comprehensive federal program regulating the employment of unauthorized
aliens . . . State had authority to pass its own laws on
the subject”). But courts must carefully identify the
powers reserved to States in this area of extensive and
complex federal legislation and the effect of their
exercise on federal immigration laws and policies. It is
doubtful that States have reserved power to adopt—in

52a
the words of the district court—immigration policies
“contrary to those preferred by the federal government.” New York v. Dep’t of Justice, 343 F. Supp. 3d at
235 (internal quotation marks omitted) (emphasis added).
As Chief Justice Marshall famously pronounced,
“The states have no power, by taxation or otherwise,
to retard, impede, burden, or in any manner control,
the operations of the constitutional laws enacted by
congress to carry into execution the powers vested in
the general government.” McCulloch v. Maryland,
17 U.S. at 436. The Supreme Court recently made
the same point in the immigration context. While
acknowledging a State’s “understandable frustrations
with the problems caused by illegal immigration,” the
Court held that the “State may not pursue policies
that undermine federal law.” Arizona v. United States,
567 U.S. at 416.
Here, the district court declared § 1373 facially
violative of the Tenth Amendment without identifying
what reserved power States have to enact laws or
policies seemingly foreclosed by 8 U.S.C. § 1373, i.e.,
laws prohibiting their officials and agencies from
engaging in even voluntary communications about
citizenship and immigration status with federal authorities. A court undertaking that inquiry would have to
recognize, as the Supreme Court has, that “[c]onsultation
between federal and state officials is an important
feature of the immigration system” established by the
INA. Id. at 411. A court would then have to consider
how various INA provisions establish that consultation feature. In Arizona v. United States, the Supreme
Court discussed various INA provisions encouraging
or prohibiting restrictions on federal-state sharing
of immigration-status information before concluding
that the “federal scheme thus leaves room for a [State]
policy requiring state officials to contact [federal

53a
immigration authorities] as a routine matter.” Id. at
413 (emphasis added). The same conclusion may not
be so easy to reach, however, with respect to a State
policy prohibiting information sharing. Among the
statutes cited in Arizona v. United States to illustrate
the importance placed on federal-state consultation by
the INA is 8 U.S.C. § 1644. See 567 U.S. at 412–13. As
discussed supra at 17–20, § 1644, like § 1373, prohibits
restricting State or local government entities from
communicating with federal immigration authorities
“‘regarding the immigration status, lawful or unlawful,
of an alien in the United States.”‘ Id. (quoting 8
U.S.C. § 1644). Further, even outside the immigration
context, the Supreme Court has not decided whether
a federal law imposing “purely ministerial reporting
requirements” on the States violates the Tenth
Amendment. See Printz v. United States, 521 U.S. at
936 (O’Connor, J., concurring) (noting open question
regarding statute’s missing child reporting requirement).
While this authority casts doubt on the district
court’s identification of facial unconstitutionality, we
do not ourselves pursue the point further because,
even assuming some power reserved for the States to
prohibit information sharing with federal immigration
authorities, we conclude that § 1373 does not violate
the Tenth Amendment as applied here to a federal
funding requirement.27

27

For that same reason, we need not conclusively decide the
preemptive effect of § 1373. We note only that, insofar as the
district court concluded that the statute could claim no preemptive effect because it confers a “purported federal right to transmit
information only on government entities and officials,” not on
private persons, its focus may have been too narrow. New York v.
Dep’t of Justice, 343 F. Supp. 3d at 235 (internal quotation marks
and alterations omitted); see Murphy v. Nat’l Collegiate Athletic

54a
(3) Section 1373 Raises No Commandeering Concerns as Applied to a
Federal Funding Requirement
While Congress cannot regulate the States, its
constitutional powers, notably under the Spending
Clause, see U.S. CONST. art. I, § 8, cl. 1, do allow it to
“fix the terms on which it shall disburse federal money
to the States,” Pennhurst State Sch. & Hosp. v.
Halderman, 451 U.S. at 17. By setting such terms,
Congress can “influenc[e] a State’s policy choices,”
New York v. United States, 505 U.S. at 166, and even
“implement federal policy it could not impose directly
under its enumerated powers,” NFIB v. Sibelius, 567
U.S. at 578; see South Dakota v. Dole, 483 U.S. 203,
207 (1987) (explaining that “objectives not thought
to be within Article I’s enumerated legislative fields
may nevertheless be attained through the use of the
spending power and the conditional grant of federal
funds” (internal quotation marks omitted)); United
States v. Butler, 297 U.S. 1, 66 (1936) (holding that
Congress’s power to place conditions on disbursement
of federal funds “is not limited by the direct grants of
legislative power found in the Constitution”). Thus,
where Congress places conditions on a State’s receipt
of federal funds—whether directly, or by delegation of
clarifying authority to an executive agency—there is
no commandeering of reserved State power so long as
the State has “a legitimate choice whether to accept

Ass’n, 138 S. Ct. at 1480 (observing that “Constitution . . . confers
upon Congress the power to regulate individuals, not States”
(internal quotation marks omitted)). As already noted, § 1373 is
one provision of a larger statute, the INA, which certainly confers
rights and places restrictions on large numbers of private persons.

55a
the federal conditions in exchange for federal funds.”
NFIB v. Sibelius, 567 U.S. at 578.28
A State is deprived of “legitimate choice” only when
the federal government imposes grant conditions that
pass the point at which “pressure turns into compulsion.” Id. at 577–78 (internal quotation marks omitted).
On this point, even the NFIB dissenters agreed. See
id. at 681 (Scalia, J., with Kennedy, Thomas, and
Alito, JJ., dissenting) (observing that “courts should
not conclude that legislation is unconstitutional . . .
unless the coercive nature of an offer is unmistakably
clear”). Pressure can turn into compulsion when the
amount of funding that a State would lose by not
acceding to the federal conditions is so significant to

28

The law further requires that federal grant conditions
(1) promote the “general welfare,” (2) “unambiguously” inform
States what is demanded of them, (3) reasonably relate “to the
federal interest in particular national projects or programs,” and
not “induce the States to engage in activities that would
themselves be unconstitutional.” South Dakota v. Dole, 483 U.S.
at 207-08, 210 (internal quotation marks omitted). None of these
requirements is at issue on this appeal. Section 10153(a)(5)(D)’s
requirement that Byrne grant applicants certify their willingness
to comply with “all . . . applicable Federal laws” promotes the
respect for law necessary to the general welfare. See, e.g., City
of Los Angeles v. Barr, 929 F.3d 1163, 1176 (9th Cir. 2019)
(“[C]ooperation relating to enforcement of federal immigration
law is in pursuit of the general welfare, and meets the low bar of
being germane to the federal interest in providing the funding.”).
Such a certification condition reasonably relates to the Byrne
Program, whose focus, after all, is law enforcement. For reasons
discussed supra at 47-48, Congress avoids ambiguity by itself
stating that § 10153(a)(5)(D) certification must be made as to all
applicable Federal laws, and then authorizing the Attorney General
to require certification in a form that references specifically
identified applicable laws. Finally, nothing about § 10153(a)(5)(D)
induces unconstitutional conduct by the State-applicants.

56a
the States’ overall operations as to leave it with no real
choice but to agree.
Such was the case with the Medicaid expansion
provision of the Affordable Care Act, which the Supreme
Court held invalid in NFIB v. Sebelius because it
threatened States rejecting expansion with the withholding of 100% of their Medicaid funding, which
constituted 10% to 16% of most States’ total budgets.
The Supreme Court concluded that “[t]he threatened
loss of over 10 percent of a State’s overall budget . . .
is economic dragooning that leaves the States with
no real option but to acquiesce in the Medicaid
expansion.” Id. at 581–82 (describing condition as “a
gun to the head”).
The funding loss associated with most grant conditions, however, does not raise such coercion concerns.
See id. at 684–85 (Scalia, J., with Kennedy, Thomas,
and Alito, JJ., dissenting) (observing that Medicaid
expansion provision was “quite unlike anything that
we have seen in a prior spending-power case” in that
it “threatened to withhold 42.3% of all federal outlays
to the States”). In South Dakota v. Dole, the Supreme
Court described a threatened loss of 5% of federal
highway funding—less than 0.5% of South Dakota’s
budget—if the state did not raise its legal drinking age
to 21, as only “mild encouragement” and “a valid use
of the spending power.” 483 U.S. at 211–12.
This case is much more akin to Dole than to NFIB.
While plaintiffs emphasize that a failure to provide
§ 10153(a)(5)(D) certification in a form acceptable to
the Attorney General, i.e., a form certifying a
willingness to comply with 8 U.S.C. § 1373, can result
in the denial of any Byrne funding for that year,
plaintiffs do not—and cannot—claim that such a loss
represents so significant a percentage of their annual

57a
budgets as to cross the line from pressure to coercion.
For example, New York’s anticipated 2017 Byrne
award is $8,879,161, a significant amount of money to
be sure, but one representing less than 0.1% of the
State’s annual $152.3 billion budget, a smaller percentage loss even than that in Dole.29 Massachusetts’
anticipated 2017 Byrne award is $3,453,006, also representing less than 0.1% of its annual $38.92 billion
budget.30 Thus, however much the plaintiff States
would prefer to receive Byrne awards without having
to certify their willingness to comply with 8 U.S.C.
§ 1373, they cannot complain that the consequences
for failing to do so are so severe as to leave them with
no real choice in the matter. As the Supreme Court has
observed in connection with the conditions attached
to most federal funding programs: “The States are
separate and independent sovereigns. Sometimes they
have to act like it.” NFIB v. Sebelius, 567 U.S. at 579.
In sum, the district court erred in holding 8 U.S.C.
§ 1373 unconstitutional because the statute does not
violate the anticommandeering principle of the Tenth
Amendment as applied here to a federal funding
requirement.
In the absence of any such Tenth Amendment
concern, and in light of our holding that the challenged
Certification Condition is statutorily authorized by
34 U.S.C. § 10153(a)(5)(D), we conclude that the condition does not violate either the APA or the Constitution.
29

See NEW YORK DIVISION OF THE BUDGET, FY 2017 ENACTED
BUDGET FINANCIAL PLAN 69 (May 2016), available at https://
www.budget.ny.gov/pubs/archive/fy17archive/enactedfy17/FY20
17FP.pdf.
30

See Press Release, Governor Baker Signs Fiscal Year 2017
Budget (July 8, 2016), available at https://www.mass.gov/news/
governor-baker-signs-fiscal-year-2017-budget.

58a
Accordingly, we vacate the district court’s injunction
prohibiting application of the Certification Condition.
3. The Notice Condition Is Statutorily
Authorized by 8 U.S.C. §§ 10153(a)(4),
10153(a)(5)(C), and 10155
The challenged Notice Condition requires States
and localities accepting Byrne grants to have in effect
during the grant period a “statute, or a state rule,
-regulation, -policy, or -practice” for their criminal
detention facilities to respond “as early as practicable”
to written requests from federal immigration authorities for notice of identified aliens’ scheduled release
dates. Supra at 15–16 (quoting condition). The Attorney
General’s statutory authority to impose this condition
derives from 34 U.S.C. §§ 10153(a)(4), 10153(a)(5)(C),
and 10155.
Section 10153(a)(4) requires a State or locality
seeking Byrne funding to include in its application,
“in such form as the Attorney General may require,”
“[a]n assurance” that throughout the grant period,
“the applicant shall maintain and report such data,
records, and information (programmatic and financial)
as the Attorney General may reasonably require.”
Section 10153(a)(5)(C) requires a Byrne grant applicant
to provide “[a] certification, made in a form acceptable
to the Attorney General,” that “there has been
appropriate coordination with affected agencies.”
Section 10155 authorizes the Attorney General to
“issue rules to carry out” these requirements and any
other parts of the Byrne Program.
The district court did not discuss these statutory
conditions. It concluded simply that the Notice Condition
was not authorized by § 10102(a)(6), as DOJ maintained.
The Third Circuit, however, did consider §§ 10153(a)(4)

59a
and 10153(a)(5)(C). It concluded that § 10153(a)(4)
did not authorize the Notice Condition because “[its]
data-reporting requirement is expressly limited to
‘programmatic and financial’ information—i.e., information regarding the handling of federal funds and
the programs to which those funds are directed. It
does not cover Department priorities unrelated to the
grant program.” City of Philadelphia v. Attorney Gen.,
916 F.3d at 285. As for § 10153(a)(5)(C), the Third
Circuit concluded that it did not authorize the Notice
Condition because its “coordination requirement” operated only in the past tense, i.e, “to require certification
that there was appropriate coordination in connection
with the grantee’s application. This does not serve as
a basis to impose an ongoing requirement to coordinate
on matters unrelated to the use of grant funds.” Id.
(emphases in original).
To explain why we conclude otherwise, we discuss
each statutory requirement in turn.
a. Section
10153(a)(4)’s
Requirement

Reporting

The plain language of § 10153(a)(4) authorizes the
Attorney General to decide both what data, records,
and information a Byrne grant recipient must maintain
and report and the form of an applicant’s assurance
that it will do so. This authority is cabined only by the
parenthetical modifier “(programmatic and financial),”
which serves to limit the referenced data, records,
and information to those pertaining to the particular
program being funded by a Byrne grant or to related
financial matters. In this respect, at least, we agree
with the Third Circuit. See id.
But unlike that court, we think the release
information required by the Notice Condition is

60a
“programmatic,” at least for Byrne-funded programs
that relate in any way to the criminal prosecution,
incarceration, or release of persons, some of whom will
inevitably be aliens subject to removal.31 This includes
most, if not all, of the programs for which plaintiffs
seek Byrne funding, for example, (1) programs for task
forces targeting certain crimes, the object of which
is undoubtedly the arrest, prosecution, and eventual
incarceration of perpetrators; (2) programs for prosecutors’ offices, whose attorneys decide when to pursue
(or forego) the prosecution and incarceration of criminal suspects; (3) programs for defenders’ offices, whose
attorneys work to secure persons’ release from criminal
detention and to avoid their conviction and incarceration; (4) diversion programs for persons who might
otherwise remain in criminal custody; (5) programs for
persons while incarcerated or for the facilities maintaining them; (6) programs for persons upon their
release from incarceration. As to such programs, we
conclude that the Attorney General is statutorily
authorized by 8 U.S.C. § 10153(a)(4) to require Byrne
grant recipients to report when identified aliens in their
custody will be released.32

31

As this court observed in Cuomo v. Barr, 7 F.3d 17 (2d Cir.
1993), plaintiff “New York houses many illegal aliens in its prison
system. As of March 1992, New York held approximately 60,000
prisoners in state correctional facilities, 8% of whom were known
to be aliens and an additional 4% of whom were suspected to be
aliens. Of this number, 6,096 had been convicted of aggravated
felonies, making them subject to deportation.” Id. at 18. While
the record on appeal does not provide current statistics, there is
no reason to suspect a marked decline in these percentages.
32

Because plaintiffs have not sought to distinguish among
their grant purposes in defending the challenged injunction and
judgment, we have no occasion on this appeal to consider whether
Byrne Program funding could be sought for a purpose so unrelated

61a
Insofar as the Notice Condition specifically requires
a grant applicant to have a statute, rule, regulation,
policy, or practice in place for its criminal detention
facilities to report identified aliens’ release dates “as
early as practicable” after receipt of a written federal
request, we are satisfied that the requirement falls
within the Attorney General’s authority to determine
the “form” of an acceptable Byrne grant application,
which necessarily includes the form of an acceptable
assurance. 34 U.S.C. § 10153(a). That conclusion
is reinforced by the Attorney General’s authority
to “issue rules to carry out this part.” Id. § 10155.
See generally Federal Election Campaign Comm’n v.
Democratic Senatorial Campaign Comm., 454 U.S. 27,
37 (1981) (“[D]eference should be presumptively afforded”
to agency authorized to make rules in administering
statute.); National Broad. Co. v. United States, 319
U.S. 190, 215, 219 (1943) (explaining that statute
delegating authority, inter alia, to “[m]ake such rules
and regulations . . . as may be necessary to carry out
the provisions of this Act” gave agency “expansive
powers” (internal quotation marks omitted)).
b. Section 10153(a)(5)(C)’s Coordination
Requirement
Further statutory authority for the Notice Condition
is supplied by § 10153(a)(5)(C)’s requirement for certification, in “a form acceptable to the Attorney General,”
that “there has been appropriate coordination with
affected agencies.” The Third Circuit observed that
Congress’s use of the past tense in the quoted text
signals that “appropriate coordination” must have
occurred by the time a State or locality formally files
to prosecution, incarceration, or release that the Notice Condition
would not be statutorily authorized in those circumstances.

62a
its Byrne Program application. See City of Philadelphia
v. Attorney Gen., 916 F.3d at 285. While we agree
with that construction, we do not think that means
the required coordination need not continue into the
future. See id. Rather, we think appropriate coordination frequently, perhaps invariably, must determine
future conduct.
The plain meaning of “coordination” is “the functioning of parts in cooperation and normal sequence.”
WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY
502. “Coordination” strives to bring a “combination [of
parts] in suitable relation for most effective or harmonious results.” Id. The definition does not describe
a static concept that ends as soon as the suitable
relation of parts and sequence of their operation is
determined. Rather, coordination contemplates that
relation and sequence are agreed upon in order to
establish how parts will operate going forward to
achieve effective and harmonious results.
The “parts” pertinent to § 10153(a)(5)(C)’s coordination requirement are the grant applicant and the
agencies that will be affected by that grant. Thus, the
certification required by § 10153(a)(5)(C) demands that,
in advance of any Byrne award, States and localities
coordinate with affected agencies to determine their
relationship and sequence of conduct as necessary
throughout the grant period to ensure effective and
harmonious results.
Put more concretely, if a State were to seek Byrne
Program funding for its State police to pursue a law
enforcement initiative involving undercover operations
across several municipalities, “appropriate coordination”
might well require the State to reach an understanding with the affected localities as to how notice
will be given to them when those undercover activities

63a
are occurring within their borders, thus ensuring that
local authorities do not misidentify the State undercover officers as real criminals, with possibly tragic
consequences for both sides. In sum, the parties reach
an understanding about necessary coordination before
the State files its formal Byrne grant application, and
the parties’ conduct during the funding period is
coordinated as thus agreed upon.
Similarly, were a State or locality to seek a Byrne
grant to modernize equipment used to track terrorist
threats, “appropriate coordination” might require the
applicant to consult with other state and federal
agencies engaged in similar tracking and to reach
agreement as to the type of compatible equipment to
be acquired and how obtained information will be
shared and secured. Such coordination before formal
application then determines the parties’ conduct after
receipt of the grant.
So, here, when a State seeks Byrne funding for
programs that relate to the prosecution, incarceration,
or release of persons, some of whom will be removable
aliens, there must be coordination with the affected
federal agency, the Department of Homeland Security
(“DHS”), before a formal application is filed, but what
makes that coordination “appropriate” is that it will
establish the parties’ relationship and the sequence of
their conduct throughout the grant period.
To explain what makes DHS an affected agency, we
begin with the ordinary and clear meaning of “affect,”
which is to “produce a material influence upon.”
WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY 35;
see BLACK’S LAW DICTIONARY (9th ed. 2009) (defining
“affect” to mean “to produce an effect on; to influence
in some way”). The degree of influence need not be
significant for the law to recognize that something has

64a
been “affected” in a range of contexts. See, e.g., Jones
v. United States, 529 U.S. 848, 854 (2000) (holding
that “statutory term ‘affecting . . . commerce,’ . . . when
unqualified, signal[s] Congress’ intent to invoke its
full authority under the Commerce Clause”); United
States v. Wiant, 314 F.3d 826, 830 (6th Cir. 2003)
(holding, in context of “affected a financial institution”
that “breadth of [its] definition indicates that” word
“affect” “is intended to encompass even minimal
impacts”); United States v. SKW Metals & Alloys, Inc.,
195 F.3d 83, 90 (2d Cir. 1999) (“The sum of what
dictionaries say about the relevant meaning is that
the verb ‘to affect’ expresses a broad and open-ended
range of influences.”).
When States use Byrne grants in ways related to the
prosecution, incarceration, or release of aliens, the
DHS Secretary’s performance of numerous statutory
responsibilities with respect to such aliens is affected.
For example, the Secretary must “begin any removal
proceeding” for an alien convicted of a deportable offense
“as expeditiously as possible after the date of the conviction,” 8 U.S.C. § 1229(d)(1); must effect the removal
of such an alien “within . . . 90 days” after an order of
removal becomes final, see id. § 1231(a)(1)(A)–(a)(1)(B)(i)–
(ii); and must detain the alien during that 90-day period,
see id. § 1231(a)(2).33 The Secretary, however, “may not
remove an alien who is sentenced to imprisonment”—
whether by federal or State authorities—”until
the alien is released.” Id. § 1231(a)(4)(A). In that
case, the 90-day removal period starts to run from
the date of the alien’s release from custody. See id.
33

While these statutory sections refer to the Attorney General,
the removal responsibilities stated therein and in other statutory
provisions referenced in this part of the opinion have been transferred to the Secretary of DHS. See 6 U.S.C. §§ 251(2), 552(d).

65a
§ 1231(a)(1)(B)(iii). Moreover, in circumstances where
a removable alien is released from custody before a
final removal order has been obtained, the law authorizes the Secretary to issue a warrant for the alien’s
arrest and detention, see id. § 1226(a), and (with
limited exceptions) requires the Secretary to do so if
the alien has a certain criminal history or has engaged
in terrorist activities, see id. § 1226(c)(1), (2).35
34

As even this brief review makes plain, a removable
alien’s State incarceration and release from incarceration will affect DHS’s performance of its own statutory
duties throughout the grant period. In these circumstances, “appropriate coordination” requires that, by
the time a State or locality files its Byrne grant
application, it have reached an agreement with
DHS as to their mutual relationship and sequence
of conduct throughout the grant period. Any less
34

States are under no obligation to incarcerate criminal aliens
convicted of state felony crimes, but if they do so, they may then
request that the federal government either (1) pay “compensation
. . . as may be appropriate” to the State “with respect to the
incarceration” of the alien, or (2) “take the undocumented criminal alien into the custody of the Federal Government and
incarcerate the alien.” 8 U.S.C. § 1231(i). It appears that, in 2017,
plaintiff the State of New York received $13.9 million in such
compensation pursuant to the SCAAP program referenced supra
at 21. See Bureau of Justice Assistance, Fiscal Year 2017 SCAAP
Award Details, available at https://bja.ojp.gov/program/state-cri
minal-alien-assistance-program-scaap/archives (last visited Feb.
24, 2020) (follow “FY 2017” hyperlink below “SCAAP Awards”
subheading).
35

In 1992, New York attempted to sue federal authorities for
failing to comply with a predecessor statute requiring them to
take into custody, upon release, aliens convicted of aggravated
felonies under state as well as federal law. See Cuomo v. Barr,
812 F. Supp. 324 (N.D.N.Y. 1993), appeal dismissed, 7 F.3d 17
(2d Cir. 1993).

66a
coordination would not be “appropriate”; indeed, it
would be meaningless.
The Notice Condition serves to ensure such
appropriate coordination. It advises States that, at the
time they file a Byrne grant application, they must
agree to respond as soon as practicable to a written
DHS request for the release date of an identified
State-incarcerated alien and to have a statute, rule, or
policy in force throughout the grant period.
We conclude that the Attorney General is authorized to impose such a condition by § 10153(a)(5)(C),
which empowers him to determine the acceptable form
for certifying appropriate coordination. See supra at
37 (discussing dictionary definition of “form” as something requiring “specific information”).36 It is further
supported by § 10155, which authorizes the Attorney
General to issue rules for carrying out Byrne Program
requirements. Of course, we recognize that plaintiffs
would prefer not to coordinate at all with DHS, but
that option is denied to them by § 10153(a)(5)(C) when
the States seek Byrne grants for programs relating to
prosecution, incarceration, or release that will affect
DHS’s performance of its own statutory duties.
In sum, we conclude that the Notice Condition is
statutorily authorized by § 10153(a)(4)’s reporting
36

Where, as here, the affected agency is federal, the Attorney
General can be expected to have particular insights into what
coordination is appropriate to establish the relationship and
sequence of conduct necessary for a grant applicant and the
affected federal agency both to perform their respective duties in
an effective and harmonious manner. But even where the
affected agency is not federal, the Attorney General’s form- and
rule-authority may allow him to help parties resolve coordination
disputes that surface after the application is made public but
before it is approved. See 34 U.S.C. § 10153(a)(3)(B).

67a
requirement, § 10153(a)(5)(C)’s coordination requirement,
and § 10155’s rule-making authority for Byrne Program
applications relating to prosecution, incarceration,
and release. That being the purpose for which plaintiffs have generally sought Byrne funding, we vacate
the district court’s injunction barring any application
of the Notice Condition.
4. The Access Condition Is Statutorily Authorized by 34 U.S.C. §§ 10153(a)(5)(C) and
10155
Title 34 U.S.C. § 10153(a)(5)(C)’s coordination requirement and § 10155’s rule-making provision also authorize
the challenged Access Condition, and for much the
same reason that they authorize the challenged Notice
Condition. The Access Condition requires Byrne
grant applicants to agree to have in place throughout
the grant period a “statute, or a State rule, -regulation,
-policy, or -practice” that ensures federal immigration
officials “access” to State correctional facilities so
that these officials can meet with detained aliens (or
suspected aliens) to determine their legal status in
this country. See supra at 16 (quoting condition).
As explained in discussing the Notice Condition,
when States seek Byrne funding for programs related
to the prosecution, incarceration, or release of persons,
some of whom will inevitably be removable aliens,
DHS is an “affected agency” for purposes of 34 U.S.C.
§ 10153(a)(5)(C). That is because a State’s incarceration of an alien requires DHS to delay acting on its
own statutory obligations to arrest, detain, and remove
certain aliens until the State releases the alien. See
supra at 67-69. In such circumstances, coordination
between the State and DHS is not only appropriate,
but necessary, to allow the federal agency effectively

68a
to resume its obligations when the State has achieved
its penal ones.
For DHS to be able to do so, it needs to ascertain not
only when a removable alien will be released (the
object of the Notice Condition), but also what aliens
incarcerated by the State are removable. DHS does
not ask the State to provide the latter information.
Rather, it asks to be afforded access to Stateincarcerated aliens (or suspected aliens) so that DHS
can itself ascertain their potential removability before
release. That is what the challenged Access Condition
ensures.37
Affording such access constitutes “appropriate
coordination” in that it allows both the State seeking
a Byrne grant for purposes relating to prosecution,
incarceration, or release and an affected agency, DHS,
to carry out their respective duties with respect to
incarcerated aliens in an orderly sequence. Thus, as
with the Notice Condition, we conclude that the
Attorney General is statutorily authorized to impose
the Access Condition pursuant to § 10153(a)(5)(C),
which empowers him to determine the acceptable form
for certifying appropriate coordination, and § 10155,
which authorizes him to issue rules to carry out the
coordination requirement. Accordingly, we vacate the
injunction prohibiting any application of the Access
Condition.

37

What it does not ensure is that incarcerated aliens will then
agree to talk with federal immigration authorities.

69a
II. The Attorney General’s Imposition of the
Challenged Conditions Was Not Arbitrary and
Capricious
Plaintiffs argue that, even if the Attorney General
was statutorily authorized to impose the challenged
conditions, the district court correctly concluded that
it was arbitrary and capricious for him to do so here
without considering the conditions’ negative consequences, particularly in undermining relationships
between immigrant communities and local law enforcement. See New York v. Dep’t of Justice, 343 F. Supp.
3d at 240–41. The conclusion does not withstand de
novo review. See Karpova v. Snow, 497 F.3d 262, 267
(2d Cir. 2007) (holding that appeals court reviewing
summary judgment award on APA claim examines
“administrative record de novo without according
deference to the decision of the district court”).
While agency action may be overturned as arbitrary
and capricious if the agency “entirely failed to consider
an important aspect of the problem” at issue, Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983), a court will not
“lightly” reach that conclusion, Islander East Pipeline
Co., LLC v. McCarthy, 525 F.3d 141, 151 (2d Cir. 2008)
(citing approvingly to Patterson v. Caterpillar, Inc., 70
F.3d 503, 505 (7th Cir. 1995) (stating that court “must
be very confident that the decisionmaker overlooked
something important”)).
Here, DOJ did not overlook something important.
As the district court acknowledged, DOJ was aware of
the detrimental effects plaintiffs fear from the three
challenged conditions. The court also acknowledged
that the weight to be given these effects as compared
to the conditions’ perceived benefits was at least arguable. See New York v. Dep’t of Justice, 343 F. Supp. 3d

70a
at 241. The sole ground on which the district court
concluded that DOJ arbitrarily and capriciously “ignored”
these detrimental effects in imposing the challenged
conditions was its failure to mention such effects in
any proffered document. See id. (observing that documents “do not reflect that [DOJ] in any way considered
whether jurisdictions’ adherence to the conditions
would undermine trust and cooperation between local
communities and government”).
In fact, there was no need for DOJ to discuss the
relative detriments and benefits of the Certification
Condition. That condition identifies a specific statute,
8 U.S.C. § 1373, as an “other applicable Federal law[]”
for purposes of the statutory compliance certification
requirement of 34 U.S.C. § 10153(a)(5)(D). Thus,
the sole question for DOJ to decide was whether 8
U.S.C. § 1373 is an applicable law. Having made that
decision—which we uphold, see supra at 35–61—
nothing in the statute authorized DOJ to excuse a
Byrne applicant from certifying its willingness to
comply with an applicable federal law on a finding
that the detrimental effects of compliance outweigh
the benefits. Indeed, that would be particularly unwarranted here where the legislative history shows that
Congress was itself aware of the very detrimental
effects raised by plaintiffs when it enacted § 1373.
See supra at 19 (quoting Senator Kennedy’s acknowledgment of mayors’ concerns that cooperating with
immigration authorities could be counterproductive).
Thus, DOJ’s failure to discuss detrimental effects does
not show that it arbitrarily or capriciously imposed the
Certification Condition.
As for the Notice and Access Conditions, these apply
only to persons in State custody, i.e., persons found
guilty beyond a reasonable doubt of charged crimes, or

71a
persons for whom there is at least probable cause to
think that they committed crimes. Such conditions do
not put law-abiding undocumented aliens who have
been crime victims or witnesses at risk of removal and,
thus, should not dissuade such aliens from reporting
crimes or cooperating in their investigation.38 Thus,
it was hardly arbitrary or capricious for DOJ to impose
these conditions without discussing detrimental effects
that they were unlikely to cause.
Nor are we persuaded by plaintiffs’ further argument that the challenged conditions are arbitrary and
capricious because DOJ failed to “display awareness
that it [was] changing position” and did not show “good
reasons for the new policy.” Encino Motorcars, LLC v.
Navarro, 136 S. Ct. 2117, 2126 (2016) (internal
quotation marks omitted). DOJ did not change its
position; rather, the Attorney General exercised his
38

See City of Philadelphia v. Attorney Gen., 916 F.3d at 282
(citing Philadelphia’s rationale for policy limiting employee cooperation with federal immigration authorities: to “foster trust
between the immigrant community and law enforcement,” which
is “critical to reassure law-abiding residents that contact with the
City government will not lead to deportation” by federal authorities (internal quotation marks omitted)); City of Chicago v.
Sessions, 888 F.3d at 279 (observing that “City recognized . . .
maintenance of public order and safety required the cooperation
of witnesses and victims, whether documented or not”); Michael
R. Bloomberg, Mayor Michael R. Bloomberg Signs Executive Order
41 Regarding City Services For Immigrants (Sept. 17, 2003)
(remarking in public speech that “[w]hen the parents of an immigrant child forego vaccination for fear of being reported to the
federal immigration authorities, we all lose . . . . Likewise, we all
suffer when an immigrant is afraid to tell the police that she has
been the victim of a sexual assault or domestic violence”), available at https://www1.nyc.gov/office-of-the-mayor/news/262-03/mayormichael-bloomberg-signs-executive-order-41-city-services-immigr
ants.

72a
authority to have Byrne grant applicants satisfy the
§§ 10153(a)(4), 10153(a)(5)(C), and 10153(a)(5)(D)
requirements in a more specific form. Even if it was
necessary to show “good reasons” for this decision,
however, that is satisfied here by the 2016 IG Report’s
findings of a significant, decade-long decline in cooperation between local law enforcement officials and
federal immigration authorities, some achieved through
policies in tension with, if not actually violative of,
8 U.S.C. § 1373.
CONCLUSION
To summarize, we conclude as follows:
(1) The Attorney General was statutorily authorized to impose all three challenged conditions
on Byrne grant applications.
a. The Certification Condition (1) is statutorily
authorized by 34 U.S.C. § 10153(a)(5)(D)’s
requirement that applicants comply with “all
other applicable Federal laws,” and (2) does
not violate the Tenth Amendment’s anticommandeering principle;
b. The Notice Condition is statutorily authorized by 34 U.S.C. § 10153(a)(4)’s reporting
requirement, § 10153(a)(5)(C)’s coordination
requirement, and § 10155’s rule-making
authority;
c. The Access Condition is statutorily authorized
by 34 U.S.C. § 10153(a)(5)(C)’s coordination
requirement, and § 10155’s rule-making
authority.
(2) The Attorney General did not overlook
important detrimental effects of the challenged

73a
conditions so as to make their imposition
arbitrary and capricious.
Accordingly,
(1) We REVERSE the district court’s award of
partial summary judgment to plaintiffs;
(2) We VACATE the district court’s mandate
ordering defendants to release withheld 2017
Byrne funds to plaintiffs, as well as its
injunction barring defendants from imposing
the three challenged immigration-related
conditions on such grants; and
(3) We REMAND the case to the district court,
a. with directions that it enter partial summary judgment in favor of defendants on
plaintiffs’ challenge to the three immigrationrelated conditions imposed on 2017 Byrne
Program grants; and
b. insofar as there remains pending in the
district court plaintiffs’ challenge to conditions imposed by defendants on 2018 Byrne
Program grants, for further proceedings
consistent with this opinion.

74a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
[Filed July 13, 2020]
————
No. 19-267-cv(L)
No. 19-275-cv(con)
————
STATE OF NEW YORK, STATE OF CONNECTICUT,
STATE OF NEW JERSEY, STATE OF WASHINGTON,
COMMONWEALTH OF MASSACHUSETTS,
COMMONWEALTH OF VIRGINIA, STATE OF
RHODE ISLAND, CITY OF NEW YORK,
Plaintiffs-Appellees,
v.
UNITED STATES DEPARTMENT OF JUSTICE,
WILLIAM P. BARR, IN HIS OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF THE UNITED STATES,
Defendants-Appellants.
————
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 13th day of July, two
thousand twenty.

75a
PRESENT:
ROBERT A. KATZMANN,
Chief Judge,
JOSÉ A. CABRANES,
ROSEMARY S. POOLER,
PETER W. HALL,
DEBRA ANN LIVINGSTON,
DENNY CHIN,
RAYMOND J. LOHIER, JR.,
SUSAN L. CARNEY,
RICHARD J. SULLIVAN,
JOSEPH F. BIANCO,
WILLIAM J. NARDINI,
STEVEN J. MENASHI,
Circuit Judges.
————
For Plaintiffs-Appellees State of New York, Connecticut,
New Jersey, Rhode Island, and Washington, and
Commonwealths of Massachusetts and Virginia:
Barbara D. Underwood, Solicitor General, Anisha S.
Dasgupta, Deputy Solicitor General, Linda Fang and
Ari Savitzky, Assistant Solicitors General, for Letitia
James, Attorney General of the State of New York,
New York, NY.
For Plaintiff-Appellee City of New York:
Richard Dearing, Devin Slack, Jamison Davies, for
James E. Johnson, Corporation Counsel of the City of
New York, New York, NY.
————

76a
Following disposition of this appeal on February 26,
2020, Plaintiffs-Appellees filed petitions for rehearing
en banc and an active judge of the Court requested a
poll on whether to rehear the case en banc. A poll
having been conducted and there being no majority
favoring en banc review, the petitions for rehearing
en banc are hereby DENIED.
José A. Cabranes, Circuit Judge, joined by Debra
Ann Livingston, Richard J. Sullivan, Joseph F. Bianco,
William J. Nardini, and Steven J. Menashi, Circuit
Judges, concurs by opinion in the denial of rehearing
en banc.
Raymond J. Lohier, Jr., Circuit Judge, joined by
Peter W. Hall, Circuit Judge, concurs by opinion in the
denial of rehearing en banc.
Richard J. Sullivan, Circuit Judge, joined by José A.
Cabranes, Debra Ann Livingston, and Joseph F.
Bianco, Circuit Judges, concurs by opinion in the
denial of rehearing en banc.
Robert A. Katzmann, Chief Judge, dissents by opinion from the denial of rehearing en banc.
Rosemary S. Pooler, Circuit Judge, joined by Denny
Chin and Susan L. Carney, Circuit Judges, dissents by
opinion from the denial of rehearing en banc.
Michael H. Park, Circuit Judge, took no part in the
consideration or decision of the petitions.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, CLERK
[SEAL]
/s/ Catherine O’Hagan Wolfe

77a
JOSÉ A. CABRANES, Circuit Judge, joined by DEBRA
ANN LIVINGSTON, RICHARD J. SULLIVAN, JOSEPH F.
BIANCO, WILLIAM J. NARDINI, and STEVEN J. MENASHI,
Circuit Judges, concurring in the order denying
rehearing en banc:
I concur in the order denying rehearing of this case
en banc.
As a member of the unanimous panel in this case, I
begin by observing that the panel opinion expressly
underscored the importance of the issues involved in
this appeal.1 And yet, despite the controversy that this
subject matter naturally engenders, the fact remains
that the core questions on appeal are basic “questions
of statutory construction.”2
In her dissent from the Court’s order denying
rehearing en banc, Judge Pooler characterizes the outcome of this petition for rehearing en banc as “[a]stonishing[]”; asserts that she is “frankly, astounded,” that
the Court did not grant rehearing, particularly in light
of the circuit split that now exists; and remarks that
the contrary opinions of our sister circuits “call[] into
serious question the correctness of our Court’s
rationale and conclusions.”3 Regardless of the differing
opinions of those circuits, our Court’s decision to deny
rehearing—one made by an en banc court consisting of
1

See New York v. Dep’t of Justice (“DOJ”), 951 F.3d 84, 90 (2d
Cir. 2020) (“Th[is] case implicates several of the most divisive
issues confronting our country . . . national immigration policy,
the enforcement of immigration laws, the status of illegal aliens
in this country, and the ability of States and localities to adopt
policies on such matters contrary to, or at odds with, those of the
federal government.”).
2
3

Id.

See post, Pooler, J., dissenting from denial of rehearing
en banc, at 1-3.

78a
twelve of our Court’s thirteen active Circuit Judges—
evinces an unmistakable truth: that, in the circumstances presented, reasonable judicial minds can differ
as to whether the relevant statutory text permits the
Department of Justice to impose the challenged conditions on grants of money to state and municipal law
enforcement. There is nothing “astonishing” here
about a disagreement among sister circuits, much less
anything deserving the castigation by another colleague who asserts that our panel’s decision is “wrong,
wrong, and wrong again.”4
Despite the vigor and intensity of Judge Pooler’s
dissent, she sheds little new substantive light on the
debate.5 Instead, Judge Pooler primarily marshals the
4

See post, Lohier, J., concurring in denial of rehearing
en banc, at 3. As the only active judge on a panel that includes
Senior Judges Ralph K. Winter and Reena Raggi, I offer a sidebar
comment in the nature of a point of personal privilege. Judge
Lohier’s opinion regarding rehearing—a concurrence which is
functionally a dissent—is oddly focused on scolding several of his
colleagues, comparing their votes in this case to those on prior
en banc polls. These criticisms, unfounded on the merits, are
addressed in the measured concurring opinion of Judge Sullivan,
which I join in full. See post, Sullivan, J., concurring in denial of
rehearing en banc, at 1-4.
5

Of particular interest is Judge Pooler’s silence on the panel
opinion’s note that Section 1373—the statute requiring cooperation between federal, state, and local law enforcement—need not
be found constitutional in all applications in order to be upheld
here in the narrow context of federal funding. See New York v.
DOJ, 951 F.3d at 111-12. As recently reiterated by the Supreme
Court, we are to afford a strong presumption “that an unconstitutional provision in a law is severable from the remainder of the
law or statute.” Barr v. Am. Ass'n of Political Consultants, Inc.,
— S. Ct. —, 2020 WL 3633780, at *8 (2020) (citing Free Enterprise
Fund v. Public Co. Accounting Oversight Bd., 561 U.S. 477
(2010)); see also Seila Law LLC v. Consumer Financial Protection
Bureau, —S. Ct. —, 2020 WL 3492641 at *20 (2020) (noting that

79a
arguments of the various opinions of the First, Third,
Seventh, and Ninth Circuits upholding injunctions
that preclude enforcement of the conditions.6 All of
these opinions, save that of the First Circuit, were
available to the panel prior to its issuing its decision.
The panel opinion thoroughly addressed all of the
reasons relied on by our sister circuits in their decisions rejecting the Department of Justice’s position,
and explained why, with due respect, it found each of
those reasons unpersuasive with respect to the
Certification, Notice, and Access Conditions, as well as
the claim of unconstitutional commandeering under
the Tenth Amendment to the Constitution.7
In concurring in the denial of rehearing, I need not
restate the host of reasons already explained by Judge
Raggi in her comprehensive and careful opinion (in
which Judge Winter and I joined in full) as to why, in
our view, our sister circuits were in error.8 It does
“in the absence of a severability clause, the traditional rule is that
the unconstitutional provision must be severed unless the statute
created in its absence is legislation that Congress would not have
enacted” (internal quotation marks omitted)).
6

See generally City of Providence v. Barr, 954 F.3d 23 (1st Cir.
2020); City of Philadelphia v. Attorney Gen., 916 F.3d 276 (3d Cir.
2019); City of Los Angeles v. Barr, 941 F.3d 931 (9th Cir. 2019);
City of Chicago v. Sessions, 888 F.3d 272 (7th Cir. 2018).
7

See, e.g., New York v. DOJ, 951 F.3d at 103 (“We cannot
adopt the Seventh or Ninth Circuit’s conclusions because we do
not think the Attorney General’s authority to impose the three
challenged conditions here derives from the words ‘special conditions’ or ‘priority purposes.’”); id. (“The Third Circuit, however,
viewed the Attorney General’s statutory authority respecting
Byrne Program grants as ‘exceptionally limited.’ . . . We do not.”).
8

Chief Judge Katzmann, in his opinion dissenting from denial
of rehearing en banc, appears to fault the panel for relying on the
phrase “form acceptable to the Attorney General” in Section
10153(a)(5)(D) to conclude that the Attorney General could

80a
happen from time to time that our perspective differs
from that of other Circuits. (The opinion of the
First Circuit that was issued after our own and offered
disparaging assessments of our panel’s efforts
deserves a personal “sidebar” comment, which I offer
at the margin in note 9).9
require compliance certification to be in a form that identifies
specific statutes, such as Section 1373. See post, Katzmann, C.J.,
dissenting from denial of rehearing en banc, at 4-6. This is
perplexing. If the Government invokes a statute as the source of
authority for a challenged action, the Court is obliged to construe
that statute, regardless of whether the Government’s urged
construction persuades. See United States v. Figueroa, 165 F.3d
111, 114 (2d Cir. 1998) (Sotomayor, J.) (“We review issues of
statutory construction de novo, and the language of a statute is
our starting point in such inquiries.” (internal citation omitted)).
He also faults the panel for referring to the Attorney General’s
rulemaking authority, observing that DOJ did not rely on that
authority in its brief to this Court, and specifically disavowed
such reliance at oral argument in a related case before the Ninth
Circuit. See post, Katzmann, C.J., dissenting from denial of
rehearing en banc, at 6-8. As a member of the panel, I offer two
responses. First, Judge Raggi’s opinion refers to the Attorney
General’s rulemaking authority in order to reinforce conclusions
already reached on other grounds. Does disagreement about such
a reference warrant en banc review? Second, and in any event,
the statutory rulemaking authority applies generally to provisions of the Byrne grant. See 34 U.S.C. § 10155. These provisions
authorize certain action by the Attorney General with respect to
statutory requirements for compliance certification, notice, and
access. With respect, I am at a loss to understand how a court can
fairly assess the scope of that authority without taking into
account that it is informed by a general rulemaking authority.
9

The opinion of the First Circuit that Judge Pooler praises for
its “apt[] observ[ations]” arguably deserves no direct response,
being more notable for its tone than for its persuasive reasoning.
A few citations will suffice as a mini-baedeker for the curious.
Our construction of the statutory phrase “all other applicable
Federal laws,” 34 U.S.C. § 10153(a)(5)(D), is derided as “simplis-

81a
In the final analysis, the resolution of this dispute
will be determined not by arithmetic, but rather, by
the strength and persuasiveness of the several decisions. There can be little doubt that, in the fullness of
time, the conflict among the Circuits will be resolved
by our highest tribunal.

tic,” City of Providence, 954 F.3d at 36; “strain[ing] credulity,” id.
at 37; “extravagant,” id.; “blind[ly] allegian[t] to the dictionary,”
id.; and, relying on the author’s favorite source for authority,
“flout[ing] th[e] principle” that “[c]ourts generally ought not to
interpret statutes in a way that renders words or phrases either
meaningless or superfluous,” id. at 37 (citing United States v.
Walker, 665 F.3d 212, 225 (1st Cir. 2011)). Res ipsa loquitur.
Meanwhile, the First Circuit makes no mention of the fact that
the very definition of “applicable” on which our opinion relies has
been employed by the Supreme Court. See New York v. DOJ, 951
F.3d at 106 n.21 (citing Ransom v. FIA Card Servs., N.A., 562
U.S. 61, 69-70 (2011) (construing provision of Bankruptcy Code)).
Much less does it acknowledge that Congress’s use of the word
“all” in the phrase “all other applicable Federal laws” is a powerful signal of its intent to imbue the phrase with its broadest
possible meaning. Id. at 106 (citing Norfolk & W Ry. Co. v. Am.
Train Dispatchers Ass’n, 499 U.S. 117, 128-29 (1991) (explaining
that phrase “all other law” is “clear, broad, and unqualified”)). It
accuses our opinion of “reading the term ‘applicable’ out of the
statute,” City of Providence, 954 F.3d at 37, while failing even to
acknowledge the opinion’s argument that “the word ‘applicable’
does serve a limiting function in the statutory text,” New York v.
DOJ, 951 F.3d at 106. I am, frankly, astounded (as it were), that
Judge Pooler applauds as an “apt[] observ[ation]” the First Circuit’s charge that, in construing 34 U.S.C. § 10153(a)(5)(D), this
Court is simply “assuming” a legislative intent having no basis in
statutory text or “sound principles of statutory construction.” City
of Providence, 954 F.3d at 36-37.

82a
LOHIER, Circuit Judge, joined by HALL, Circuit Judge,
concurring:
Until today, every single circuit judge to have
considered the questions presented by this appeal has
resolved them the same way. That’s twelve judges—
including one former Supreme Court Justice—
appointed by six different presidents, sitting in four
separate circuits, representing a remarkable array of
views and backgrounds, responsible for roughly forty
percent of the United States population, who, when
asked whether the Attorney General may impose the
challenged conditions, have all said the same thing:
No.
Undeterred, the panel breaks course in an opinion
as novel as it is misguided. As my colleagues explain
in their dissent from the denial of rehearing in banc,
and as Justice Souter and Judges Selya, Barron,
Rendell, Ambro, Scirica, Rovner, Bauer, Manion,
Wardlaw, Ikuta, and Bybee have collectively demonstrated, the panel opinion misreads statutory text, misconstrues constitutional doctrine, and mistakes the
conclusion that it prefers for the one that the law
requires.1 The task of remedying these very serious
errors will now fall to the Supreme Court. I vote
against rehearing in banc so that it may do so sooner
rather than later. Indeed, if there is a single panel
decision that the Supreme Court ought to review from
this Circuit next Term, it is this one.2

1

Chief Judge Katzmann aptly describes the opinions of other
sister Circuits. See Katzmann, C.J., Dissenting Op. at 2 n.1.
2

See Cabranes, J., Concurring Op. at 5 (“There can be little
doubt that . . . the conflict among the Circuits will be resolved by
our highest tribunal.”).

83a
Just last year, a number of my colleagues who vote
now to deny rehearing in banc reminded us all that
“[t]he legitimacy of Congress’ power to legislate [via a
federal grant program] . . . rests on whether the State
voluntarily and knowingly accepts the terms of [that
grant program].” N.Y. State Citizens’ Coal. for
Children v. Poole, 935 F.3d 56, 59 (2d Cir. 2019)
(Livingston, J., dissenting from the denial of rehearing
in banc) (quotation marks omitted). This limit on the
Spending Clause power that they so enthusiastically
embraced comes from Pennhurst State School &
Hospital v. Halderman, 451 U.S. 1 (1981), in which the
Supreme Court required Congress to “speak unambiguously in imposing conditions on federal grant
money.” New York v. U.S. Dep’t of Justice, 951 F.3d 84,
109 (2d Cir. 2020) (emphasis added) (citing Pennhurst).
After Pennhurst, the requirement for clarity from
Congress in this context is basic and fundamental.
And so here the Department urged, the panel concluded, and the principal concurrence in the denial
of rehearing in banc now insists that 34 U.S.C.
§ 10153(a)(5)(D) unambiguously informs States that
they must abide by the certification condition. See
Brief for Defendants-Appellants at 26–30; New York,
951 F.3d at 110–11; Cabranes, J., Concurring Op. at
1–2.
The problem with this “thrice-asserted view,” however, is that it “is wrong, wrong, and wrong again.”
Genesis Healthcare Corp. v. Symczyk, 569 U.S. 66, 80
(2013) (Kagan, J., dissenting). To start, the panel itself
acknowledges that Section 10153(a)(5)(D) “fails to
specify precisely [by] which laws” States must a
bide. New York, 951 F.3d at 110. No surprise, then,
that States, cities, and municipalities across the
country—the very entities whose knowing acceptance
is paramount—have agreed with the First Circuit that

84a
the panel’s interpretation of Section 10153(a)(5)(D) is
“extravagant.” Brief for Chicago et al. as Amici Curiae
Supporting Plaintiffs-Appellees at 14 (quoting City of
Providence v. Barr, 954 F.3d 23, 37 (1st Cir. 2020)).
Sheriffs, police chiefs, and district attorneys have likewise criticized the panel’s interpretation as “striking.”
Brief for Local Law Enforcement Leaders as Amici
Curiae Supporting Plaintiffs-Appellees at 3. And again,
every judge to have considered the certification condition has determined that Section 10153(a)(5)(D) does
not permit it. But these federal judges, States, cities,
municipalities, sheriffs, police chiefs, and district
attorneys are not just wrong, says the panel, they are
unambiguously wrong: there is no room for debate
about what Section 10153(a)(5)(D) means.
How does the panel reach such a self-assured
conclusion? It first claims that Section 10153(a)(5)(D)
is unambiguous by observing that while it “fails to
specify precisely which laws are applicable, that
uncertainty can pertain as much for laws applicable to
requested grants as for those applicable to grant
applicants.” New York, 951 F.3d at 110 (quotation
marks omitted). In other words, multiple ambiguities
translate into clarity, two “maybes” mean yes. But as
several of my colleagues in this case and a chorus of
others have explained, there is one good reason after
another to think that “applicable” in fact means laws
applicable to the grant itself, not to grant recipients
broadly speaking. See Pooler, J., Dissenting Op. at 5–
6; see also City of Chicago v. Barr, 961 F.3d 882, 898–
909 (7th Cir. 2020); City of Providence, 954 F.3d at 36–
39; City of Philadelphia v. Attorney Gen., 916 F.3d 276,
288–91 (3d Cir. 2019).
The panel’s second interpretive twist is more
striking still. Here, the panel admits that Section

85a
10153(a)(5)(D) may be ambiguous but contends that
the Attorney General’s identification of 8 U.S.C.
§ 1373 as an “applicable Federal law” under Section
10153(a)(5)(D) is a permissible “clarifying interpretation[]” of it. New York, 951 F.3d at 110. To support that
argument, the panel leans heavily on Bennett v.
Kentucky Department of Education, 470 U.S. 656
(1985). But Bennett held that “ambiguities in the
requirements [of a federal grant program] should [not]
invariably be resolved against the Federal Government as the drafter of the grant agreement.” Id. at 669.
Thus while Bennett remarked that Congress often
“[can]not prospectively resolve every possible ambiguity” in a federal grant program, see id., Bennett did not
answer the relevant question before us: whether this
ambiguity in Section 10153(a)(5)(D) should give us
pause before embracing the Department’s position.
Until the challenged conditions were announced in
2016, the Edward Byrne Memorial Justice Assistance
Grant Program (the Byrne JAG Program), 34 U.S.C.
§§ 10151–10158, had never in its existence conditioned
the availability of its funds on the fidelity that localities displayed to federal immigration policies. Nor did
localities appear to use the Byrne JAG Program funds
for immigration purposes. See New York, 951 F.3d at
93. This is as it should be. After all, the Byrne JAG
Program, spurred by the murder of NYPD Officer
Edward Byrne, was designed to aid States and
cities in fighting crime, not immigration. See, e.g., 34
U.S.C. § 10152(a) (listing the criminal justice purposes
toward which Byrne JAG Program funds may be
directed); Nathan James, Cong. Research Serv.,
RS22416, Edward Byrne Memorial Justice Assistance
Grant Program: Legislative and Funding History 1–2
(2008) (explaining that the Byrne JAG Program
reflected increased support for state and local law

86a
enforcement to respond to rising crime rates); see also
Pooler, J., Dissenting Op. at 2 (“Immigration enforcement is not identified as an area for which grant funds
may be used. The statute requires the DOJ to issue
Byrne grants pursuant to a formula that distributes
funds based on state and local populations and crime
rates.”).
The panel opinion, in less than two pages of text,
ignores virtually all of this. Instead, it concludes that
“[k]nowing acceptance is no concern here.” New York,
951 F.3d at 110 (quotation marks omitted).3 Again,
several of my colleagues who vote here to deny rehearing
in banc took a different position last year in Poole.4 935
F.3d at 59 (Livingston, J., dissenting from the denial
of rehearing in banc) (emphasizing the importance of
“whether the State voluntarily and knowingly accepts
the terms of” a federal grant program); compare also
New York, 951 F.3d at 109 (recognizing “Congress’s duty
to speak unambiguously in imposing conditions on
federal grant money”) with Cabranes, J., Concurring Op.
at 2 (“[R]easonable judicial minds can differ as to
whether the relevant statutory text permits the Department of Justice to impose the challenged conditions on

3

For substantially the reasons provided by my colleagues dissenting from the decision to deny rehearing in banc, I also agree that
the panel decision incorrectly resolved the other statutory interpretation issues before it. See Pooler, J., Dissenting Op. at 3–11.
4

Judge Sullivan misunderstands my point about Poole. In
referring to the inconsistency of their opinions, I have not accused
him or any of my colleagues of “bad faith or hypocrisy.” Sullivan,
J., Concurring Op. at 1. And the differences Judge Sullivan lists
between Poole and this case relate only to policy and result. None
deflects from the Supreme Court’s central holding in Pennhurst
that Congress must speak unambiguously as to the terms on
which it provides funds to States and municipalities.

87a
grants of money to state and municipal law enforcement.”).
Why has this decision careened so far off the textualist track? How can it be that the language of the
statute is both unambiguous and at the same time that
reasonable minds could differ about the meaning of
the statutory text? Setting aside the policy result of
cutting funds to local police forces that refuse to toe
the Department line on immigration and that want to
focus instead on combatting local crime, what the
panel has done here is not an approach that is true to
Congress’s words or to ordinary principles of statutory
construction.
This error creates an important circuit split that
needs to be repaired definitively and now.5 Unfortunately, the split arises at the end of our Term. Our
already cumbersome process for proceeding in banc,
slowed by a pandemic, is not likely to correct anything
anytime soon. And even if we rectified the panel’s
error, the Department, encouraged by the panel’s decision, would continue to peddle its false and contorted
theory to the remaining circuits that have yet to
debunk it. Under these circumstances, the better course,
in my view, is for the Supreme Court to grant certiorari and reverse. It can do so faster than we can, and
it alone can forestall the spread of this grievous error.
For that reason, and that reason only, I concur in
the denial of rehearing in banc.
5

I agree with my colleagues who dissent from the denial of
rehearing in banc that this case is of exceptional importance. See
Pooler, J., Dissenting Op. at 3; Katzmann, C.J., Dissenting Op.
at 9. The panel’s decision, should it stand, has serious consequences that we should carefully consider. For example, nothing
in the decision stops the Department from conditioning Byrne
grants on a State’s allegiance to federal environmental laws.

88a
RICHARD J. SULLIVAN, Circuit Judge, joined by JOSÉ A.
CABRANES, DEBRA ANN LIVINGSTON, and JOSEPH F.
BIANCO, Circuit Judges, concurring in the order
denying rehearing en banc:
I concur with the denial of en banc review for the
reasons set forth in the panel’s opinion and in Judge
Cabranes’s concurrence. I write separately only to
address an erroneous and, to my mind, gratuitous
point raised in Judge Lohier’s concurrence.
The concurrence attacks the panel’s opinion (and
those who voted to deny rehearing en banc) for grafting onto the Byrne Memorial Justice Assistance Grant
Program a condition that was not voluntarily and
knowingly accepted by the States. In so arguing, the
concurrence chides several judges – myself included –
for singing a different tune last year when seeking
rehearing en banc in New York State Citizens’
Coalition for Children v. Poole, 935 F.3d 56, 59 (2d Cir.
2019) (Livingston, J., dissenting from the denial of
rehearing en banc). See ante at 6–7 (Lohier, J.,
concurring in the denial of rehearing en banc). It
suggests that the two cases are somehow indistinguishable, and that a vote to deny en banc rehearing
here reflects bad faith or hypocrisy on the part of those
who sought such rehearing in Poole. But as there is
very little harmony between this case and Poole, a
different tune is to be expected.
For starters, the grant condition imposed in Poole
resulted in a seemingly nonsensical bargain for the
States. Poole concerned whether, in exchange for
partial reimbursement of certain foster care maintenance payments under the Adoption Assistance and
Child Welfare Act of 1980, States had agreed to
mandatory minimum foster care spending obligations.
Poole, 935 F.3d at 58–59. Deciding that it had, the

89a
majority endorsed a perplexing interpretation of the
grant program that New York had knowingly “relinquished to federal courts its longstanding control over
discretionary judgments about payment rates for
foster care providers in exchange for partial reimbursement of some expenses incurred in the care of a
declining percentage of foster care children.” N.Y.
State Citizens’ Coal. for Children v. Poole, 922 F.3d 69,
91 (2d Cir. 2019) (Livingston, J., dissenting). And if
that were not enough, the majority concluded that
Congress intended for this strange deal to be enforceable through private litigation. Id. at 92; see also Poole,
935 F.3d at 59 (Livingston, J., dissenting from the
denial of rehearing en banc).
Here, by contrast, the panel’s interpretation of the
Byrne Grant condition does not result in such a lopsided bargain. In simple terms, States may receive
federal funding under the program so long as they do
not actively interfere with federal immigration policy,
among other things. See New York v. Dep’t of Justice,
951 F.3d 84, 94–96 (2d Cir. 2020). While a State may
determine that this is too great a concession – that the
juice is not worth the squeeze – that is a decision that
States are free to make ex ante based on their assessment of the costs and benefits of the grant program.
And, unlike Poole, the panel here did not foist an
implied cause of action on unwitting grant recipients.
Put bluntly, this case is a far cry from Poole.
But that’s not all; the posture in which the cases
arrived before us could not have been more different.
In Poole, the majority’s interpretation imposed “post
acceptance or ‘retroactive’ conditions” on New York,
Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S.
1, 25 (1981), requiring it to make mandatory payments
and assume liability that it could not escape, having

90a
already accepted federal funds. By contrast, the plaintiffs here challenge a condition of which they received
“advance notice” before they applied for federal funding. New York, 951 F.3d at 110 (“[P]laintiffs were given
advance notice that their 2017 Byrne grant applications had to certify a willingness to comply with
§ 1373. Indeed, they were given such notice twice, first
in 2016, and again in 2017.”). In other words, Poole
required us to determine whether New York knew the
rules of the game when it agreed to play; here, the
plaintiffs are well aware of the rules – they simply
want us to change them before they step onto the
court.
So, because the panel has not repeated the error
permitted in Poole, and because the panel’s opinion
otherwise persuades me that its interpretation of the
statute is the correct one, I concur in the denial of
rehearing en banc.

91a
ROSEMARY S. POOLER, Circuit Judge, joined by DENNY
CHIN and SUSAN L. CARNEY, Circuit Judges, dissenting
from the denial of rehearing en banc:
The panel opinion in this case allows the Executive
to impose funding conditions on congressionally allocated federal funds in a manner plainly not contemplated by Congress. Astonishingly, given that four
other circuits came out the other way, this Court
refused to hear this case en banc. I respectfully dissent
from the denial of rehearing en banc.
Appellees are states and a city that sought funding
from the federal government through the Byrne
Memorial Justice Assistance Grants program (“Byrne
Grant Program”). The Byrne Grant Program evolved
from a 1968 block grant program for law enforcement
and criminal justice developed by Congress because
“crime is essentially a local problem that must be dealt
with by State and local governments.” Omnibus Crime
Control and Safe Streets Act of 1968 (“1968 Act”), Pub.
L. No. 90-351, 82 Stat. 197, 197. In enacting the 1968
Act, Congress intended to “guard against any tendency towards federalization of local police and law
enforcement agencies.” Ely v. Verde, 451 F.2d 1130,
1136 (4th Cir. 1971) (discussing the legislative history
of the 1968 Act). It did so by barring federal agencies
and Executive Branch employees from using grants
administered by the Department of Justice (“DOJ”) to
“exercise any direction, supervision, or control over
any police force or any other law enforcement agency
of any State or any political subdivision thereof.”
§ 518(a), 82 Stat. at 208. Despite numerous modifications and amendments to the 1968 Act over the
years, that provision remains in effect. See 34 U.S.C.
§ 10228(a).

92a
In 2006, Congress reworked the 1968 Act to create
and codify the Byrne Grant Program at issue here,
with an eye toward providing state and local governments with “more flexibility to spend money for programs that work for them rather than to impose a ‘one
size fits all’ solution.” H.R. Rep. No. 109-233, at 89
(2005); see also 34 U.S.C. §§ 10151-58. The statute
allows grant recipients discretion to use funds to
support activities in any of eight broad criminal
justice-related programs. 34 U.S.C. § 10152(a)(1).
Immigration enforcement is not identified as an area
for which grant funds may be used. The statute
requires the DOJ to issue Byrne grants pursuant to a
formula that distributes funds based on state and local
populations and crime rates. See 34 U.S.C. § 10156; see
also City of Los Angeles v. McLaughlin, 865 F.2d 1084,
1088 (9th Cir. 1989) (noting that “‘formula’ grants . . .
are not awarded at the discretion of a state or federal
agency, but are awarded pursuant to a statutory
formula”). So long as they use their funds to satisfy the
statute’s goals and meet the statute’s certification and
attestation requirements, state and local governments
are entitled to their share of the formula allocation.
See 34 U.S.C. §§ 10152(a)(1), 10153(A).
In 2017, the DOJ adopted a policy requiring Byrne
Grant Program applicants to:
1. Submit a Certification of Compliance with
8 U.S.C. § 1373, a federal law that bars
cities or states from restricting communications by their employees with the
Department of Homeland Security (“DHS”)
about the immigration or citizenship
status of individuals (the “Certification
Condition”);

93a
2. Implement a law, policy, or practice that
provides DHS officials access to any detention facility to determine the immigration
status of those held within (the “Access
Condition”); and
3. Implement a law, policy, or practice that
ensures correctional facilities will honor
any formal written request from the DHS
and authorized by the Immigration and
Nationality Act seeking advanced notice of
the scheduled date and time for a particular alien (the “Notice Condition”).
Appellees challenged these conditions by bringing
suit in the Southern District of New York. The lower
court granted Appellees partial summary judgment,
enjoining the DOJ from enforcing the conditions and
ordering the release of the 2017 Byrne Grant Program
funds. See New York v. U.S. Dep’t of Justice, 343 F.
Supp. 3d 213 (S.D.N.Y. 2018). Our Court reversed this
grant of summary judgment, vacated the order to
release the funds, and remanded the case. New York
v. U.S. Dep’t of Justice, 951 F.3d 84, 124 (2d Cir. 2020).
At the time of the district court’s decision, the
Seventh Circuit had upheld an injunction precluding
enforcement of the Notice and Access Conditions, City
of Chicago v. Sessions, 888 F.3d 272 (7th Cir. 2018),
reh’g en banc granted in part on other grounds, vacated
in part on other grounds, No. 17-2991, 2018 WL
4268817 (7th Cir. June 4, 2018), reh’g en banc vacated,
Nos. 17-2991, 18-2649, 2018 WL 4268814 (7th Cir.
Aug. 10, 2018). Since then, three more of our sister circuits have also upheld injunctions barring enforcement of all or some of the conditions. See City of
Providence v. Barr, 954 F.3d 23 (1st Cir. 2020); City of
Los Angeles v. Barr, 941 F.3d 931 (9th Cir. 2019); City

94a
of Philadelphia v. Attorney Gen., 916 F.3d 276 (3d Cir.
2019).
The circuit split—which generated a host of persuasive opinions from our sister circuits—calls into serious question the correctness of our Court’s rationale
and conclusions. The opinion in New York v. U.S.
Department of Justice ignores the words of the statute,
the relevant legislative history, and the conclusions of
our sister circuits. I am, frankly, astounded that my
colleagues did not find this a case of exceptional
importance warranting en banc review. See Fed. R.
App. P. 35(a)(2).
I. The DOJ’s Statutory Authority to Impose the
Challenged Conditions
A. The Certification Condition
The Certification Condition requires applicants
submit a Certification of Compliance with 8 U.S.C.
§ 1373, which bars state and local governments from
prohibiting or restricting their employees from providing federal officials with information about individuals’ citizenship or immigration status. The panel in
New York concluded that the DOJ was statutorily
authorized to impose the Certification Condition based
on a statutory provision requiring that a Byrne Grant
Program applicant include in its application “[a]
certification, made in a form acceptable to the Attorney General,” that “the applicant will comply with all
provisions of this part and all other applicable Federal
laws.” 34 U.S.C.§ 10153(a)(5)(D) (emphasis added).
Based on the dictionary definition of the word “applicable,” the panel determined that an “applicable
Federal law” is “one pertaining either to the State or
locality seeking a Byrne grant or to the grant being
sought.” New York, 951 F.3d at 106.

95a
That conclusion is in error for a number of reasons.
First, the panel’s reading of the term “applicable
Federal laws” fails to comply with the well-settled
principle that statutes should be read so as “to give
effect, if possible, to every clause and word of a
statute.” Duncan v. Walker, 533 U.S. 167, 174 (2001)
(internal quotation marks and citation omitted); see
also United States v. Nordic Vill., Inc., 503 U.S. 30, 36
(1992) (noting the “settled rule that a statute must, if
possible, be construed in such fashion that every word
has some operative effect”); United States v. Anderson,
15 F.3d 278, 283 (2d Cir. 1994) (“[C]ourts will avoid
statutory interpretations that render provisions superfluous.” ). As the Third Circuit explained, an interpretation as expansive as the panel’s creates a redundancy issue because if “applicable” is construed to
mean laws pertaining to both grants and applicants,
“all other applicable Federal laws” in effect means “all
other Federal laws.” See City of Philadelphia, 916 F.3d
at 289 (internal quotation marks omitted).
The panel argues that its interpretation does not
run afoul of the canon against surplusage because
“applicable” in fact serves a limiting function; the
panel’s logic seems to be that the provision is limited
because “an applicant must certify its willingness to
comply with those laws—beyond those expressly
stated in Chapter 34—that can reasonably be deemed
‘applicable.’” New York, 951 F.3d at 104, 106-07. This
is incorrect. As the First Circuit—which issued its
opinion after ours—aptly observed:
The Second Circuit’s interpretation of the
phrase “applicable Federal laws”—which
encompasses all federal laws that apply to
state and local governments in any capacity—
flouts [the] principle [against surplusage] by

96a
effectively reading the term “applicable” out
of the statute. For instance, a local government can hardly certify that it will comply
with a law that does not apply to local governments in the first place. Congress obviously
could have written this provision to require
Byrne [Grant Program] applicants to certify
compliance with “all other Federal laws,” but
it did not. In our view, the fact that Congress
included the word “applicable” strongly implies
that the provision must refer to a subset of all
federal laws that apply to state and local
governments.
City of Providence, 954 F.3d at 37.
In addition, while the text of Section 10153(A)(5)(D)
does not define “applicable,” the statutory context
makes clear that “applicable” means applicable to the
grant, not the applicant more broadly. See, e.g., City of
New York v. Beretta U.S.A. Corp., 524 F.3d 384, 401
(2d Cir. 2008) (“[T]he term ‘applicable’ must be examined in context.”). The other conditions in Section
10153(A) apply to the grant, not to those who receive
the grant. See, e.g., 34 U.S.C. § 10153(A)(1) (stating
that funds cannot be used to replace state or local
funds); id. § 10153(A)(2), (3) (mandating that grant
projects must be submitted for appropriate review); id.
§ 10153(A)(4) (setting forth a reporting requirement
on how the grant is administered); id. § 10153(A)(6)
(requiring a plan for how grant funds will be used). To
read Section 10153(A)(5)(D) as the only condition that
applies to states and localities’ conduct beyond that
which is undertaken in their capacities as grant
recipients makes little sense. See Kucana v. Holder,
558 U.S. 233, 246 (2010) (holding that statutory
provisions must be read in context and relying on the

97a
other statutory provisions that a particular provision
is “sandwiched” between to delineate its scope). There
is no reason why Congress would insert a condition
unrelated to grant funds into a list that otherwise
includes conditions that are closely linked to grant
administration. See Whitman v. Am. Trucking Ass’ns,
531 U.S. 457, 468 (2001) (“Congress, we have held,
does not alter the fundamental details of a regulatory
scheme in vague terms or ancillary provisions—it does
not, one might say, hide elephants in mouseholes.”);
see also City of Providence, 954 F.3d at 37-38 (“It
strains credulity to think that Congress would bury
among those certifications and assurances an
authorization for the DOJ to condition grants on
certification of compliance with federal laws that . . .
lack any nexus to the Byrne [Grant] program.”).
The panel’s broad reading of “all other applicable
Federal laws” allows the Attorney General to condition
the receipt of funds on any number of statutes, such as
Section 1373, which have nothing to do with federal
grants, and in so doing require applicants to comply
with any federal directive, regardless of that directive’s
relationship with the grant at issue. But as the First
Circuit observed, there is ample reason to “doubt that
Congress intended to give the DOJ so universal a
trump card.” City of Providence, 954 F.3d at 38. For
instance, as the First Circuit notes, the “formulaic
nature” of the Byrne Grant Program undermines the
notion that “applicable” should be read so expansively.
Id.
Additionally, Congress reinforced its desire to avoid
generally using grant funds to advance policy goals by
“stating expressly in other statutes that noncompliance with those statutes’ requirements could trigger
the withholding of a set percentage of a Byrne [Grant

98a
Program] grant.” Id. at 39. For example, Congress
provided that no more than 10 percent of funds may
be withheld for failure to meet “death-in-custody”
reporting requirements. 34 U.S.C. § 60105(c)(2); see
also id. § 40914(b)(1) (providing for a withholding of 4
percent of funds for failure to meet background check
requirements); id. § 20927(a) (providing for a 10 percent reduction for failure to meet sex offender registration requirements); id. § 30307(e)(2)(A) (providing for
a 5 percent reduction for failure to comply with
measures to eliminate prison rape). No more than 5
percent of Byrne Grant Program funds were allowed
to be used for discretionary grants, which could be
granted only under limited circumstances. Id.
§ 10157(b). These provisions further demonstrate that
Congress did not intend to condition funds on compliance with every law applicable to applicants. “If
Congress had already given the Attorney General [the]
sweeping authority to withhold all funds for any
reason, it would have no need to delineate numerous,
specific circumstances under which the Attorney
General may withhold limited amounts of funds.” City
of Philadelphia, 916 F.3d at 286. And if Congress were
so concerned about state and local authorities flouting
federal immigration law, it well knew how to codify
that concern and utterly failed to do so here.
Congress in fact considered, on multiple occasions,
making compliance with Section 1373 a condition of
receiving federal funds—but has never actually done
so. See City of Chicago, 888 F.3d at 277-78 (collecting
bills). The panel’s decision notes that enactment of
Section 1373 “was informed by Congress’s concern
that States and localities receiving federal grants were
hampering the enforcement of federal immigration
laws,” New York, 951 F.3d at 108, but it hardly follows
from this observation that Congress intended to

99a
express that policy by conditioning the receipt of
Byrne grants on compliance with Section 1373. If that
were the case, Congress could have followed through
with any one of its attempts to accomplish that goal.
This is not the Executive Branch clarifying an ambiguity in a manner that gives effect to congressional
intent—this is the Executive Branch sidestepping
Congress’s refusal to condition grant funds on
compliance with Section 1373.
Finally, such a move violates the rule that conditions imposed on the recipients of federal grants are to
be “unambiguously” set out by Congress. Pennhurst
State Sch. & Hosp. v. Halderman, 451 U.S. 1, 17
(1981). Congress is, of course, free to “attach conditions on the receipt of federal funds,” and may use that
power “to further broad policy objectives by conditioning receipt of federal moneys upon compliance by the
recipient with federal statutory and administrative
directives.” South Dakota v. Dole, 483 U.S. 203, 206
(1987) (internal quotation marks and citation omitted). But “if Congress desires to condition the
States’ receipt of federal funds, it must do so unambiguously . . ., enabling the States to exercise their
choice knowingly, cognizant of the consequences of
their participation.” Id. at 207 (internal quotation
marks, brackets, and citation omitted).
The panel in New York v. U.S. Department of Justice
asserts that there is no “knowing acceptance” concern
here because the DOJ provided advance notice that
the 2017 Byrne Grant Program applications had to
certify a willingness to comply with Section 1373. New
York, 951 F.3d at 110 (internal quotation marks
omitted). But the fact that the DOJ “unambiguously”
sets out the grant requirements is of no moment,
because the conditions are to be set by Congress.

100a
Absent Congress writing Section 10153(a)(5)(D) to
specify that compliance with every statute and
regulation applicable to states and localities acts as a
grant condition, Section 10153(a)(5)(D) cannot be read
so expansively. To do so would allow the DOJ to exert
a tremendous amount of leverage over state and local
police authorities and to interfere in an area reserved
to the states by imposing new interpretations of
federal immigration statutes. See U.S. Dep’t of Justice,
Edward Byrne Memorial Justice Assistance Grant
(JAG) Program FY 2018 Local Solicitation 36-37, 4445 (2018) (interpreting 8 U.S.C. §§ 1226(a), 1226(c),
1231(a)(4), 1324(a), 1357(a), 1366(1), 1366(3), 1373).
It is true, as the panel points out, that the Supreme
Court has recognized that in establishing federal
grant programs, Congress cannot always “prospectively resolve every possible ambiguity concerning
particular applications of [a program’s] requirements.”
Bennett v. Ky. Dep’t of Educ., 470 U.S. 656, 669 (1985).
But reading Section 10153(a)(5)(D) so broadly does not
resolve an ambiguity in the statute—it instead reads
into the statute a meaning that simply is not there.
That is contrary to Congress’s intent to create a
formula-based program that distributes awards
through a “carefully defined calculation” that takes
into account just population and crime statistics. City
of Chicago, 888 F.3d at 285; see also 34 U.S.C.
§ 10156(a)(1) (“[T]he Attorney General shall . . .
allocate” funds based on the statutory formula).
Allowing the Attorney General to set policy-related
conditions “destabilize[s] the formula nature of the
grant.” City of Philadelphia, 916 F.3d at 290; see also
City of Providence, 954 F.3d at 34 (stating that “it is
nose-on-the-face plain that Congress intended [Byrne
Grant Program] to operate as a formula grant
program”).

101a
In sum, there are numerous reasons why the panel
erred in holding that “applicable Federal laws” means
all laws applicable to states or localities applying for
Byrne grants, including Section 1373. Rather, as our
sister circuits have concluded, it is apparent that
“applicable Federal laws” “are federal laws that apply
to state and local governments in their capacities as
Byrne [Grant Program] grant recipients.” City of
Providence, 954 F.3d at 38-39. As such, there is no
statutory provision authorizing the DOJ’s imposition
of the Certification Condition.
B. The Notice and Access Conditions
The panel’s rationale for upholding the Notice and
Access Conditions is also problematic. The panel
determined that these conditions are authorized by
the coordination requirement contained in Section
10153(A)(5)(C), which requires grant recipients to
certify “in a form acceptable to the Attorney General”
that “there has been appropriate coordination with
affected [federal] agencies,” and the reporting requirement contained in Section 10153(a)(4), which requires
the maintenance and reporting of “such data, records,
and information (programmatic and financial) as the
Attorney General may reasonably require.” See New
York, 951 F.3d at 117-18, 121. The panel explained
that the coordination requirement provided statutory
authorization because “when a State seeks Byrne
funding for programs that relate to the prosecution,
incarceration, or release of persons, some of whom will
be removable aliens, there must be coordination with
the affected federal agency, the Department of
Homeland Security [], before a formal application is
filed . . . .” Id. at 119. Similarly, the panel concluded
that the reporting requirement provided statutory
authorization for the Notice Condition because the

102a
release of information pursuant to this condition is
programmatic “at least for Byrne-funded programs
that relate in any way to the criminal prosecution,
incarceration, or release of persons.” Id. at 117.
Again, this overly expansive reading of the statute
cannot stand. As the Third Circuit thoroughly
explained:
The data-reporting requirement is expressly
limited to “programmatic and financial” information—i.e., information regarding the handling of federal funds and the programs to
which those funds are directed. It does not
cover Department priorities unrelated to the
grant program. Furthermore, the coordination requirement asks for a certification that
there “has been” appropriate coordination. . . .
[W]e interpret [that] to require certification
that there was appropriate coordination in
connection with the grantee’s application.
This does not serve as a basis to impose an
ongoing requirement to coordinate on matters
unrelated to the use of grant funds.
City of Philadelphia, 916 F.3d at 285. It is thus clear
from the statutory text that Congress provided authority for the DOJ to mandate only that grant recipients
“maintain and report information about its grant and
the programs that the grant funds.” City of Providence,
954 F.3d at 35; see also City of Los Angeles, 941 F.3d
at 944-45; City of Philadelphia, 916 F.3d at 285. In
addition, the DOJ is authorized “only to require a
certification that the applicant has coordinated in the
preparation of its application with agencies affected by
the programs for which the applicant seeks funding.”
City of Providence, 954 F.3d at 35; see also City of Los
Angeles, 941 F.3d at 945; City of Philadelphia, 916

103a
F.3d at 285. Yet what the DOJ seeks to require under
the Notice and Access Conditions extends far beyond
what the reporting and coordination provisions
envision.
Rather than properly cabining the DOJ’s authority,
however, the panel concluded that the DOJ could
impose the Access and Notice Conditions for nearly all
law enforcement purposes, regardless of whether
those purposes relate in any way to the grant. But as
discussed above, Congress set out eight programs for
which Byrne Grant Program funds may be used, and
none is enforcement of federal immigration law. See 34
U.S.C. § 10152(a)(1). The statute simply does not support the weight the panel places on it. By permitting
the DOJ to stretch its authority beyond its statutory
bounds, the New York panel invites the Executive
Branch to compel states and localities to provide
information to, and coordinate with the federal government on, all aspects of law enforcement activity.
For these reasons, the panel’s interpretation of the
various statutory provisions contained in the Byrne
Grant Program statute, as well as its ultimate conclusion that these provisions grant the DOJ authority to
impose the Certification, Access, and Notice Conditions,
is deeply flawed, and a worthy subject for en banc
review.
II. Whether Section 1373 Violates the Anticommandeering Doctrine
The panel’s treatment of the Tenth Amendment
challenge in this case also calls for en banc consideration. The Tenth Amendment provides that “[t]he
powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.”

104a
U.S. Const. amend. X. Congress thus has only “the
power to regulate individuals, not States.” New York
v. United States, 505 U.S. 144, 166 (1992). This mandate is enforced via the anticommandeering doctrine,
which provides that “[t]he Federal Government may
neither issue directives requiring the States to address
particular problems, nor command the States’ officers,
or those of their political subdivisions, to administer or
enforce a federal regulatory program.” Printz v. United
States, 521 U.S. 898, 935 (1997).
As the panel noted, this Court previously upheld
Section 1373 as constitutional in City of New York v.
United States, 179 F.3d 29 (2d Cir. 1999). There, we
concluded that “federal measures that seek to impress
state and local governments into the administration of
federal programs” violate the Tenth Amendment, but
“federal measures that prohibit states from compelling
passive resistance to particular federal programs” do
not. Id. at 35. But the Supreme Court’s recent decision
in Murphy v. National Collegiate Athletic Association,
138 S. Ct. 1461 (2018), calls the viability of City of New
York into serious question.
In Murphy, the Supreme Court invalidated a provision of the federal Professional and Amateur Sports
Protection Act (“PASPA”), which prohibited states
from allowing sports betting. 138 S. Ct. 1461. In
defending the federal law, the DOJ argued that the
anti-commandeering doctrine only prohibited the
federal government from “affirmatively command[ing]”
what the states must do, rather than prohibiting
states from enacting certain types of laws. Id. at 1478
(internal quotation marks omitted). Thus, the
DOJ argued PASPA did not run afoul of the anticommandeering doctrine because it did not prevent
the complete legalization of sports gambling, just

105a
those state laws that authorized gambling with
restrictions, such as limiting the location where such
bets could be made. The Supreme Court rejected this
argument:
The PASPA provision at issue here—
prohibiting state authorization of sports
gambling—violates the anti-commandeering
rule. That provision unequivocally dictates
what a state legislature may and may not
do. . . . It is as if federal officers were installed
in state legislative chambers and were armed
with the authority to stop legislators from
voting on any offending proposals. A more
direct affront to state sovereignty is not easy
to imagine.
Neither [the sports leagues] nor the United
States contends that Congress can compel a
State to enact legislation, but they say that
prohibiting a State from enacting new laws is
another matter. . . .
This distinction is empty. It was a matter of happenstance that the laws challenged in New York and
Printz commanded “affirmative” action as opposed to
imposing a prohibition. The basic principle—that Congress cannot issue direct orders to state legislatures—
applies in either event.
Id. at 1478.
Section 1373 provides in relevant part that:
(a) In general
Notwithstanding any other provision of
Federal, State, or local law, a Federal, State,
or local government entity or official may not
prohibit, or in any way restrict, any govern-

106a
ment entity or official from sending to, or
receiving from, the Immigration and Naturalization Service information regarding the
citizenship or immigration status, lawful or
unlawful, of any individual.
(b) Additional authority of government
entities
Notwithstanding any other provision of
Federal, State, or local law, no person or
agency may prohibit, or in any way restrict, a
Federal, State, or local government entity
from doing any of the following with respect
to information regarding the immigration
status, lawful or unlawful, of any individual:
(1) Sending such information to, or requesting or receiving such information from, the
Immigration and Naturalization Service.
(2) Maintaining such information.
(3) Exchanging such information with any
other Federal, State, or local government
entity.
8 U.S.C. § 1373.
Just as PASPA did, Section 1373 seeks to skirt the
anti-commandeering doctrine’s prohibition against
coercing states into enforcing federal law. While
PASPA sought to accomplish this goal by providing
that states could not “sponsor, operate, advertise,
promote, license, or authorize by law or compact”
sports betting, 28 U.S.C. § 3702(1), Section 1373
attempts to do so by stripping from state governments
the right to control state officials’ communication of
information collected for state purposes and at state
expense. Just as PASPA barred states from taking

107a
certain action (that is, authorizing sports betting),
Section 1373 bars states from taking certain action—
that is, prohibiting certain communications to federal
officials. Thus, our Circuit’s previous reliance on the
distinction between “measures that seek to impress
state and local governments into the administration of
federal programs” and “federal measures that prohibit
states from compelling passive resistance to particular
federal programs” in striking down a Tenth Amendment challenge to Section 1373, City of New York, 179
F.3d at 35, is no longer valid in light of Murphy. Even
the New York panel does not seem to challenge this
conclusion. 951 F.3d at 113 (noting that “Murphy may
well have clarified that prohibitions as well as mandates can manifest impermissible commandeering”).
Nonetheless, the panel held that the district court
erred in concluding that Section 1373 violated the
Tenth Amendment because the district court failed to
identify a “reserved power States have to enact laws
or policies seemingly foreclosed by 8 U.S.C. § 1373.” Id.
at 114. The panel relied heavily on the broad power of
the federal government in the immigration context,
suggesting that states accordingly lacked power in this
arena. Id. at 113. But the relevant power reserved to
the states in this situation is not the power to enact
immigration-related legislation. Rather, the reserved
power at issue is the authority of the states to refuse
the aid of state officials in enforcing federal law. In
failing to engage with this power, the panel erred in
its analysis of whether Section 1373 would be facially
unconstitutional. See Printz, 521 U.S. at 932 n.17, 935
(holding that a statute, which “requires [state employees] to provide information that belongs to the State
and is available to them only in their official capacity,”
violates the Tenth Amendment); see also id. at 928
(explaining that the purpose of anti-commandeering

108a
doctrine is the “[p]reservation of the States as independent and autonomous political entities”).
The panel then went on to conclude that “§ 1373
does not violate the Tenth Amendment as applied here
to a federal funding requirement.” 951 F.3d at 114. It
seems the panel concluded that the as-applied challenge fails because Congress has the ability to fix
conditions, such as compliance with “applicable Federal laws” as was the case here, on receipt of federal
funds. Id. at 114-15. But this conclusion makes little
sense, in my view. If Section 1373 is a facial violation
of the Tenth Amendment, and therefore unconstitutional, then it cannot fall within the scope of “applicable Federal laws,” even if the Certification Condition
stands. Thus, by relying on the validity of the condition here to suggest that Section 1373 is constitutional
as applied, the panel engages in circular reasoning
and evades the ultimate issue.
Every other court to have considered the issue postMurphy reached the correct conclusion: Section 1373
violates the Tenth Amendment and is unconstitutional,
even as applied to the situation at hand. See City of
Philadelphia v. Sessions, 309 F. Supp. 3d 289, 331
(E.D. Pa. 2018); City of Chicago v. Sessions, 321 F.
Supp. 3d 855, 872 (N.D. Ill. 2018); City & County of
San Francisco v. Sessions, 349 F. Supp. 3d 924, 953
(N.D. Cal. 2018); cf. United States v. California, 314 F.
Supp. 3d 1077, 1101 (E.D. Cal. 2018).
For the reasons given above and found in the opinions of our sister circuits, I respectfully dissent from
the denial of rehearing en banc. Perhaps the Appellees
will find the relief they seek at the Supreme Court.

109a
KATZMANN, Chief Judge, dissenting from the denial of
rehearing en banc:
I am usually reluctant to vote in favor of rehearing
en banc, informed by the institutional experience of
our Circuit and the explicit policy of the Federal Rules
that en banc rehearing is ordinarily “not favored.” Fed.
R. App. P. 35(a). That institutional experience is one
of general deference to panel adjudication—a deference which holds whether or not the judges of the
Court agree with the panel’s disposition of the matter
before it. Thus, although I disagree with the panel’s
decision for the reasons stated by Judge Pooler and
Judge Lohier, in the vast majority of cases I would
have joined those of my colleagues who have voted
against rehearing despite such disagreements with
the panel’s opinion.
Nevertheless, this is a rare case in which I respectfully believe we should have granted rehearing en
banc. Judge Pooler and Judge Lohier have described
in compelling detail why the panel’s statutory analysis
was mistaken. I write separately to highlight additionally that the panel did not adhere to the normal rules
of appellate litigation to reach this result. In short, the
panel reversed the district court’s grant of partial
summary judgment in favor of Plaintiffs based on legal
arguments that Defendants either had not made, had
abandoned, or had even expressly disavowed. Few
principles are better established in our Circuit than
the rule that “arguments not made in an appellant’s
opening brief are waived even if the appellant pursued
those arguments in the district court.” JP Morgan
Chase Bank v. Altos Hornos de Mexico, S.A. de C.V.,
412 F.3d 418, 428 (2d Cir. 2005); see Knipe v. Skinner,
999 F.2d 708, 711 (2d Cir. 1993). The panel opinion
does not explain why a departure from this principle

110a
was warranted in this case, and I cannot see why it
was.
As Judge Pooler and Judge Lohier each note, most
of the substantive statutory issues here have been
discussed at length by our sister Circuits, all of which
persuasively differ from the panel’s interpretations.1
1

With respect to the Notice Condition, Judge Ikuta’s opinion
for the Ninth Circuit, joined by Judge Bybee, demonstrates the
deficiency in the panel’s conclusion that the provision referring to
“programmatic” information authorizes a condition requiring
real-time reporting of information unrelated to a program funded
by a Byrne JAG grant. City of Los Angeles v. Barr, 941 F.3d 931,
944–45 (9th Cir. 2019). So does Judge Selya’s opinion for the First
Circuit, joined by Justice Souter and Judge Barron, City of
Providence v. Barr, 954 F.3d 23, 35–36 (1st Cir. 2020), and Judge
Rendell’s opinion for the Third Circuit, joined by Judges Ambro
and Scirica, City of Philadelphia v. Attorney General of U.S., 916
F.3d 276, 285 (3d Cir. 2019).
The panel’s conclusion that the Access Condition is authorized
by the statutory language requiring a certification “that there has
been appropriate coordination with affected agencies” has been
rejected in persuasive discussions by the First, Third, and Ninth
Circuits. See City of Providence, 954 F.3d at 33 (“The text of the
provision itself belies this jerry-built justification.”); City of Los
Angeles, 941 F.3d at 945 (the statutory language neither “support[s] DOJ’s interpretation that a recipient must coordinate
with DHS agents who are not part of a funded program” nor
authorizes the imposition of “an ongoing obligation on the applicant to coordinate with DHS agents throughout the life of the
grant”); City of Philadelphia, 916 F.3d at 285 (given Congress’s
choice of verb tense, language requiring certification that there
“has been” appropriate coordination “does not serve as a basis to
impose an ongoing requirement to coordinate on matters unrelated to the use of grant funds”).
Our sister Circuits also cogently disagree with the panel’s
interpretation of the language “all other applicable federal laws”
as authorizing the Certification Condition, City of Providence,
954 F.3d at 36–39; City of Philadelphia, 916 F.3d at 288–91.
Judge Rovner’s opinion for the Seventh Circuit, joined by Judge

111a
Those discussions illustrate well why the panel was
mistaken to conclude that the Byrne JAG statute itself
required the challenged conditions. But the panel also
concluded that the Byrne JAG statute confers “considerable” discretion upon the Attorney General to set the
substantive conditions for a successful grant application beyond those specifically required by the statute.
New York v. Dep’t of Justice, 951 F.3d 84, 103 (2d Cir.
2020); see id. at 103 n.18.2 To reach this conclusion, the
panel adopted two novel arguments that set its reasoning further apart from that of the other Circuits: first,
that the Attorney General has discretion to impose
substantive conditions on grant recipients under
various provisions of the Byrne JAG statute conferring
authority over the “form” of an application, and second, that the Attorney General has such discretion
under 34 U.S.C. § 10155, the provision conferring
general rulemaking authority to carry out the Byrne
JAG program. See New York, 951 F.3d at 104–05, 116–

Bauer, further explains why the panel’s interpretation of “all
other applicable laws” creates serious constitutional problems.
City of Chicago v. Barr, 961 F.3d 882, 906–08 (7th Cir. 2020)
(“Congress, under its spending power, can attach only conditions
that “bear some relationship to the purpose of the federal spending,” and the universe of all federal laws as promoted by the
Attorney General would necessarily include many laws that fail
to meet that standard[,] . . . rendering the conditions ambiguous.”); see id. at 933 (Manion, J., concurring in the judgment)
(agreeing with and emphasizing this point).
2

This aspect of the panel’s decision is concerning for the
additional reason, helpfully explained by a group of former grant
administrators as amici curiae, that it transforms the mandatory
formula grant program Congress enacted into a discretionary
one. See Br. of Former Grant Administrators as Amici Curiae
Supporting Plaintiffs-Appellees and Supporting Rehearing En
Banc at 2–12.

112a
17, 121–22. Neither argument was properly raised on
appeal.
First, the panel holds that several provisions of the
Byrne JAG statute, each authorizing the Attorney
General to determine the “form” of an applicant’s
required certifications or assurances, delegates to the
Attorney General the authority to fashion conditions
on the receipt of Byrne JAG funds not already
specified in the Byrne JAG statute. According to the
panel, the Attorney General’s authority is “evident in
the requirement that Byrne grant applicants provide
certification in a ‘form acceptable to the Attorney
General.’” New York, 951 F.3d at 105 (quoting 34
U.S.C. § 10513(a)(5)).3

3

In my view, the better interpretation of the statutory text is
that Congress delegated authority only over the “form” of the
certifications and assurances necessary for a Byrne JAG application, not their content. Without the benefit of adversarial briefing, the panel reached the opposite conclusion on the basis of a
single dictionary definition. Relying on that dictionary definition,
the panel concludes that the word “form” in this context refers to
the document on which an applicant must provide any requested
information, and thereby concludes that Congress’s choice of the
word “form” was in fact meant to confer authority over an
application’s substance.
Dictionary definitions can be useful in interpreting statutory
language, especially when trying to ascertain the meaning of a
specialized term, or a term of art, or a word’s usage at the time of
the law’s enactment. But because interpretive challenges often
arise from the way a particular word is used in the context of the
provision or statute as a whole, dictionaries are often less helpful
in addressing them than we might hope. And in some cases “dictionaries must be used as sources of statutory meaning only with
great caution.” United States v. Costello, 666 F.3d 1040, 1043 (7th
Cir. 2012) (Posner, J.). That is not only because “[d]ictionary
definitions are acontextual,” unlike statutory language, id.
at 1044, but also because dictionary definitions—particularly

113a
The panel thought this question worthy of “only
brief discussion,” characterizing it as “not seriously
disputed.” 951 F.3d at 104. If that is an accurate
description, it is only because Defendants had abandoned the argument the panel adopted. Defendants
had argued the point in the district court, see Defs.’
Mem. of Law at 19, New York v. Dep’t of Justice, No.
1:18-CV-6474 (ER) (S.D.N.Y. Sept. 14, 2018), ECF No.
51. But the district court reached precisely the opposite conclusion in its well-reasoned opinion. See New
York v. Dep’t of Justice, 343 F. Supp. 3d 213, 230
(S.D.N.Y. 2018). And the State Appellees defended
that conclusion in clear terms on appeal. Br. of
Appellees State of New York, et al., at 34 (“As the
district court explained, the Byrne JAG statute’s grant
of authority to the Attorney General to prescribe the
form of Byrne JAG applications and certifications, see
34 U.S.C. § 10153(a), cannot reasonably be construed
as authorization to dictate substantive eligibility
requirements beyond those set forth by Congress.”).
On appeal, Defendants argue that the statute itself
makes certification of compliance with Section 1373 a
condition of any Byrne JAG application, on the theory
that Section 1373 is an “applicable Federal law,” but
do not argue that the Attorney General has the
authority to “identify” Section 1373 as an “applicable”
law by virtue of his authority over the “form” of an
application, or otherwise has discretion to impose
conditions in addition to those imposed by the statute.
dictionary definitions of common words—can supply a judge with
many possible meanings and no reasoned basis to choose among
them. We have referred to Judge Posner’s discussion as “helpful
cautionary advice,” United States v. Bove, 888 F.3d 606, 608 n.5
(2d Cir. 2018) (Cabranes, J.), and I think that advice would have
been well followed here with respect to the panel’s interpretation
of the word “form.”

114a
See Br. of Appellants at 26–27. The panel’s brief discussion does not mention this history, or explain why
it should not lead to the conclusion that Defendants
had abandoned this particular argument.
Second, the panel also concluded that the Attorney
General possessed additional authority to impose the
Notice and Access Conditions pursuant to his authority, codified at 34 U.S.C. § 10155, to “issue rules to
carry out” the Byrne JAG program. See New York, 951
F.3d at 116–17, 121–22. Whether or not the challenged
conditions could be valid exercises of that authority,
Defendants did not assert the Attorney General’s
Section 10155 rulemaking authority as a basis for the
challenged conditions either in the district court or on
appeal. See Defs.’ Mem. of Law, ECF No. 51; Br. for
Appellants. I do not think the panel should have
adopted it under the well-settled principles I have discussed above. See JP Morgan Chase Bank, 412 F.3d at
428; Knipe, 999 F.2d at 711. Having reached out to
consider this argument, however, the panel should
have stopped short again, because Defendants had
already expressly stated to one of our sister Circuits
that the challenged conditions were not promulgated
as an exercise of the Attorney General’s Section 10155
rulemaking authority. See Oral Arg. at 5:17–5:31, City
& Cty. of San Francisco v. Barr, No. 18-17308 (9th Cir.
Dec. 2, 2019), available at https://www.ca9.uscourts.
gov/media/viewvideo.php?pkvid=0000016625.
* * *
For the panel to rely on two legal bases for the challenged conditions that Defendants have not offered—
and in one case, have disavowed—is especially troubling in the context of this case. As the Seventh Circuit
has documented, “the Attorney General has presented
the courts with one statutory ‘authorization’ after

115a
another for the decision to withhold all Byrne JAG
funding from sanctuary cities.” City of Chicago, 961
F.3d at 920. In my view, there was no reason for the
panel to add to that mix two arguments that were
never presented to this Court.4
Considering only the arguments presented by the
parties in this case, I would interpret the Byrne JAG
statute as Judge Pooler lays out. If the Attorney
General was without discretion (or did not exercise
what discretion he has) to impose the challenged conditions, then, as Judge Pooler explains, the challenged
conditions can survive a Spending Clause challenge
only if the statute imposes them unambiguously. For
the reasons explained by Judge Pooler and Judge
Lohier, it does not. To be sure, I believe Judge Pooler’s
4

Judge Cabranes downplays the panel’s reliance on these two
unpreserved arguments as unremarkable or unworthy of en banc
review. Ante at 3–4 n.8 (Cabranes, J., concurring in the denial of
rehearing en banc). With utmost respect, I disagree. In both
cases, the panel read the statute to confer discretion on the Attorney General that the Attorney General either had not claimed,
had not exercised, or both. That conclusion was of special significance to this litigation, because if the statute itself was the only
basis for the challenged conditions—rather than the Attorney
General’s exercise of discretion conferred by the statute—then
the statute’s language must independently live up to the Spending Clause’s requirement that conditions on federal funds be
“unambiguous[].” Pennhurst State Sch. & Hosp. v. Halderman,
451 U.S. 1, 17 (1981). Thus, as Judge Pooler explains, “the fact
that the DOJ ‘unambiguously’ sets out the grant requirements is
of no moment, because the conditions are to be set by Congress.”
Ante at 8 (Pooler, J., dissenting from the denial of rehearing en
banc); see Br. of Former Grant Administrators as Amici Curiae at
2 (“The defining characteristic of a mandatory grant is that Congress, not the agency, determines who receives grant funds and
in what amount.”). In my view, the statutory analysis set forth by
Judge Pooler and the considerations noted in this dissent should
have led us to rehear this case en banc.

116a
reading of the statute is the better one on its own
terms, but those who find the statutory language
ambiguous should conclude that the challenged conditions cannot be imposed on Plaintiffs consistent with
the Constitution.
As Judge Cabranes has rightly observed, and as
Judge Lohier’s opinion makes manifest, “the decision
not to convene the en banc court does not necessarily
mean that a case either lacks significance or was
correctly decided. Indeed, the contrary may be true.”
United States v. Taylor, 752 F.3d 254, 256 (2d Cir.
2014) (Cabranes, J., dissenting from the denial of
rehearing en banc). For the reasons stated by Judge
Pooler and Judge Lohier, I believe the contrary is true
here. Indeed, I share my colleagues’ view that this case
is of exceptional importance, see ante at 8 n.5 (Lohier,
J., concurring in the denial of rehearing en banc); ante
at 3 (Pooler, J., dissenting from the denial of rehearing
en banc), a view that Judge Cabranes all but endorses
in his concurring opinion, see ante at 1 (Cabranes, J.,
concurring in the denial of rehearing en banc).
All of my participating colleagues also seem to agree
that Supreme Court review is now inevitable. See ante
at 5 (Cabranes, J., concurring in the denial of rehearing en banc); ante at 8 (Lohier, J., concurring in the
denial of rehearing en banc); ante at 15 (Pooler, J.,
dissenting from the denial of rehearing en banc). Of
course, that will be for the Supreme Court to decide.
Now that our Court has declined to rehear this case, I
hope my colleagues are right.
For these reasons, I respectfully dissent from today’s
order denying rehearing en banc.

117a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
[Filed November 30, 2018]
————
18 Civ. 6471 (ER)
18 Civ. 6474 (ER)
————
STATES OF NEW YORK, CONNECTICUT, NEW JERSEY,
RHODE ISLAND, and WASHINGTON, and
COMMONWEALTHS OF MASSACHUSETTS and VIRGINIA,
Plaintiffs,
–against–
UNITED STATES DEPARTMENT OF JUSTICE, and
MATTHEW G. WHITAKER, in his official capacity as
Acting Attorney General of the United States,
Defendants.
————
CITY OF NEW YORK,
Plaintiff,
–against–
MATTHEW G. WHITAKER, in his official capacity as
Acting Attorney General of the United States, and
UNITED STATES DEPARTMENT OF JUSTICE,
Defendants.*

*

Pursuant to Federal Rule of Civil Procedure 25(d), Acting
Attorney General Matthew G. Whitaker is automatically sub-

118a
OPINION AND ORDER
Ramos, D.J.:
Since Congress created the modern version of the
program in 2006, the Plaintiff States and City of New
York have received funding for criminal justice
initiatives through the Edward Byrne Memorial Justice Assistance Grant (“Byrne JAG”) program, named
after New York City police officer Edward R. Byrne,
who was killed in the line of duty. In 2017, for the first
time in the history of the program, the U.S. Department of Justice (“DOJ”) and Attorney General
(collectively, “Defendants”) imposed three immigrationrelated conditions that grantees must comply with in
order to receive funding. Plaintiffs bring this suit
challenging these new conditions. Consistent with
every other court that has considered these issues, the
Court concludes that Defendants did not have lawful
authority to impose these conditions. For the reasons
set forth below, Plaintiffs’ motion for partial summary
judgment is GRANTED, and Defendants’ motion for
partial summary judgment or in the alternative to
dismiss is DENIED.
I. Background
A. The Byrne JAG Program
The Byrne JAG program has its origins in the
Omnibus Crime Control and Safe Streets Act of 1968,
Pub. L. No. 90-351, tit. I, 82 Stat. 197, which created
grants to assist the law enforcement efforts of state
and local authorities. After undergoing several amendments, the modern Byrne JAG program was created
through the Violence Against Women and Department
stituted as a party in place of former Attorney General Jefferson
B. Sessions III.

119a
of Justice Reauthorization Act of 2005, Pub. L. No.
109-162, § 1111, 119 Stat. 2960, 3094 (2006). The
Byrne JAG program is now codified at 34 U.S.C.
§§ 10151–10158.
Under the Byrne JAG program, states and localities
may apply for funds to support criminal justice programs in a variety of categories, including law
enforcement, prosecution, crime prevention, corrections, drug treatment, technology, victim and witness
services, and mental health. 34 U.S.C. §§ 10152(a)(1),
10153(a). The funds are disbursed according to a
formula based on the particular jurisdiction’s population and violent crime statistics. Id. § 10156. Grantees
may also make subgrants to localities or community
organizations, id. § 10152(b), and some state funds are
set aside for subgrants to localities, id. § 10156(c)(2).
On July 25, 2017, Defendants announced that they
were imposing three new immigration-related conditions on applicants for Byrne JAG funds in fiscal year
(“FY”) 2017.1 According to the press release announc-

1

In 2016, Defendants imposed a related but different condition on the City of New York’s Byrne JAG grant. The condition
required the City to “undertake a review to validate its compliance with 8 U.S.C § 1373,” a statute which prohibits states and
localities from restricting their officials from communicating with
immigration authorities regarding anyone’s citizenship or immigration status (as will be discussed in detail below). City’s FY
2016 Byrne JAG Grant ¶ 53, Trautman Decl. Ex. A, Doc. 53-1.
The City was further required to submit documentation several
months after accepting the grant showing that it was in compliance or that it came into compliance. Id. The City accepted the
condition and submitted documents certifying that “its laws and
policies comply with and operate within the constitutional
bounds of § 1373.” City’s June 27, 2017 Letter 2, Soler Decl. Ex.
A, Doc. 41-1. This condition was not imposed on the Plaintiff

120a
ing the change, the conditions were intended to
“encourage . . . ‘sanctuary’ jurisdictions to change their
policies and partner with federal law enforcement to
remove criminals.”2 Holt Decl. Ex. 17, at AR-00992,
Doc. 33-17.3
The first condition requires grantees, upon request,
to give advance notice to the Department of Homeland
Security (“DHS”) of the scheduled release date and
time of aliens housed in state or local correctional facilities (the “Notice Condition”). As stated in the award
documents, the Notice Condition provides:

States. See New York State’s FY 2016 Byrne JAG Grant,
Trautman Decl. Ex. B, Doc. 53-2; Trautman Decl. ¶ 3, Doc. 53.
2

The Court notes that the label of “sanctuary” cities or states
“is commonly misunderstood.” City of Chicago v. Sessions, 888
F.3d 272, 281 (7th Cir. 2018), vacated in part, No. 17-2991, 2018
WL 4268814 (7th Cir. Aug. 10, 2018). Although Defendants claim
that “‘sanctuary’ policies . . . intentionally undermine our laws
and protect illegal aliens who have committed crimes,” AR-00992,
many so-called sanctuary jurisdictions “do[] not interfere in any
way with the federal government’s lawful pursuit of its civil
immigration activities, and presence in such localities will not
immunize anyone to the reach of the federal government,”
Chicago, 888 F.3d at 281. Indeed, many such jurisdictions will
cooperate with immigration enforcement authorities for persons
most likely to present a threat to the community, and “refuse
such coordination where the threat posed by the individual is
lesser, reflect[ing] the decision by the state and local authorities
as how best to further the law enforcement objectives of their
communities with the resources at their disposal.” Id.; see also
United States v. California, 314 F. Supp. 3d 1077, 1105 (E.D. Cal.
2018) (“Standing aside does not equate to standing in the way.”).
3

Unless otherwise indicated, references to “Doc.” relate to
documents filed in the City’s action, No. 18 Civ. 6474. The motion
papers and supporting documents submitted in the two related
actions are essentially identical.

121a
A State statute, or a State rule, -regulation,
-policy, or -practice, must be in place that is
designed to ensure that, when a State (or
State-contracted) correctional facility receives
from DHS a formal written request authorized by the Immigration and Nationality Act
that seeks advance notice of the scheduled
release date and time for a particular alien in
such facility, then such facility will honor such
request and — as early as practicable . . . —
provide the requested notice to DHS.
New York State’s FY 2017 Byrne JAG Grant
¶ 55(1)(B), Holt Decl. Ex. 1, Doc. 33-1.
The second condition requires grantees to give
federal agents access to aliens in state or local
correctional facilities in order to question them about
their immigration status (the “Access Condition”). The
Access Condition provides:
A State statute, or a State rule, -regulation,
-policy, or -practice, must be in place that is
designed to ensure that agents of the United
States acting under color of federal law in fact
are given to access any State (or Statecontracted) correctional facility for the purpose of permitting such agents to meet with
individuals who are (or are believed by such
agents to be) aliens and to inquire as to such
individuals’ right to be or remain in the
United States.
Id. ¶ 55(1)(A).4
4

While the quoted provisions apply to state jurisdictions,
similar terms apply to local jurisdictions. See New York State’s
FY 2017 Byrne JAG Grant ¶ 56(1)(A)–(B).

122a
The third condition requires grantees to certify their
compliance with 8 U.S.C. § 1373, which prohibits
states and localities from restricting their officials
from communicating with immigration authorities
regarding anyone’s citizenship or immigration status
(the “Compliance Condition”). The Compliance Condition provides:
[N]o State or local government entity,
-agency, or -official may prohibit or in any
way restrict — (1) any government entity or
-official from sending or receiving information
regarding citizenship or immigration status
as described in 8 U.S.C. 1373(a); or (2) a
government entity or -agency from sending,
requesting or receiving, maintaining, or
exchanging information regarding immigration status as described in 8 U.S.C. 1373(b).
Id. ¶ 53(1).
Grantees are also required to monitor any subgrantees’ compliance with the three conditions, and to notify
DOJ if they become aware of “credible evidence” of a
violation of the Compliance Condition. Id. ¶¶ 53(3),
54(1)(D), 55(2), 56(2). Grantees must certify their compliance with the three conditions, which carries the
risk of criminal prosecution, civil penalties, and
administrative remedies. Id. ¶ 1; Holt Decl. Ex. 17, at
AR-01031, -01033.
B. Plaintiffs
The States of New York, Connecticut, New Jersey,
Rhode Island, and Washington, the Commonwealths
of Massachusetts and Virginia (collectively, the
“States”), and the City of New York (the “City”) have
received Byrne JAG funds since at least 2006 (and
some had received predecessor grants for decades).

123a
Pls.’ 56.1 ¶¶ 63, 66, 89, 114, Doc. 23. Plaintiffs have
used these funds to support a broad array of law
enforcement, criminal justice, public safety, and drug
treatment programs. Id. ¶¶ 64, 115.
On June 26, 2018, DOJ issued award letters to the
States requiring their acceptance of the new conditions described above in order to receive their FY 2017
Byrne JAG funds, which collectively totaled over $25
million. Id. ¶¶ 26, 30. Although the City had also
applied for a FY 2017 Byrne JAG grant of over $4
million, the City did not receive an award letter at that
time. Id. ¶¶ 44, 51, 114. Instead, in letters sent several
months earlier, DOJ informed the City that, “based on
a preliminary review, the Department has determined
that [the City] appears to have laws, policies, or
practices that violate 8 U.S.C. § 1373,” DOJ’s Oct. 11,
2017 Letter 1, Soler Decl. Ex. B., Doc. 41-2, which
could result in the City’s “ineligib[ility] for FY 2017
Byrne JAG funds,” DOJ’s Jan. 24, 2018 Letter 2, Soler
Decl. Ex. D, Doc. 41-4.
DOJ cited, among other things, the City’s Executive
Order No. 41 as a policy that “appears to . . . violate”
§ 1373’s prohibition on restricting communications
between local officials and immigration authorities
regarding immigration status. DOJ’s Oct. 11, 2017
Letter 1–2. Executive Order No. 41, together with
Executive Order No. 34, forms the City’s “General
Confidentiality Policy,” which was issued by thenMayor Michael Bloomberg in 2003. Pls.’ 56.1 ¶ 143.
This policy protects “confidential information,” which
is defined as including, as relevant here, information
concerning an individual’s immigration status.5 Exec.
5

“[C]onfidential information” also includes information relating to an individual’s sexual orientation, status as a victim of
domestic violence or sexual assault, status as a crime witness,

124a
Order No. 41, § 1 (2003), Negrón Decl. Ex. B, Doc. 422. Under the policy, City employees may not disclose
an individual’s immigration status except in limited
circumstances, such as when the disclosure is
authorized by the individual, is required by law, is to
another City employee as necessary to fulfill a
governmental purpose, pertains to an individual
suspected of illegal activity (other than mere status as
an undocumented immigrant), or is necessary to
investigate or apprehend persons suspected of terrorist or illegal activity (other than mere undocumented
status). Id. § 2. Additionally, police officers may not
inquire about a person’s immigration status unless
investigating illegal activity other than mere undocumented status, and may not inquire about the
immigration status of crime victims or witnesses at
all. Id. § 4(4). Other City employees may not inquire
about any person’s immigration status unless the
inquiry is required by law or is necessary to determine
eligibility for or to provide government services. Id.
§ 4(3).
The purpose of the City’s General Confidentiality
Policy is to assure residents that “they may seek and
obtain the assistance of City agencies regardless of
personal or private attributes, without negative consequences to their personal lives,” because “the obtaining of pertinent information, which is essential to the
performance of a wide variety of governmental
functions, may in some cases be difficult or impossible
if some expectation of confidentiality is not preserved.”
Id. at 1. The City maintains that its General Confidentiality Policy, in conjunction with other privacy
laws and policies, encourages residents to report
receipt of public assistance, or income tax records. Exec. Order
No. 41, § 1.

125a
crimes, seek medical treatment, and use other City
services because they can trust that the City will
protect their personal information. Pls.’ 56.1 ¶ 177.
The City believes that these laws and policies are
instrumental in maintaining the City’s historically
low crime rates by promoting trust and cooperation
between the New York Police Department and the
public, including immigrant communities that otherwise may retreat into the shadows if they believe that
the police will share their information with federal
immigration authorities. Id. ¶¶ 184, 187, 189.
Similarly, if people fear that the City could disclose
their information to immigration authorities, they
may refuse to cooperate with public health investigations or obtain medical services such as immunizations. Id. ¶ 194.
C. Related Litigation
The new conditions on Byrne JAG funding have
generated litigation throughout the country. In
Chicago, a district court in the Northern District of
Illinois issued a nationwide preliminary injunction
against the Notice and Access Conditions. City of
Chicago v. Sessions, 264 F. Supp. 3d 933 (N.D. Ill.
2017). On an interlocutory appeal, the Seventh Circuit
affirmed that decision, City of Chicago v. Sessions, 888
F.3d 272 (7th Cir. 2018), but later stayed the nationwide scope of the injunction pending en banc review,
see generally City of Chicago v. Sessions, No. 17-2991,
2018 WL 4268814, at *1 (7th Cir. Aug. 10, 2018). The
district court, on summary judgment, then permanently enjoined not only the Notice and Access
Conditions, but also the Compliance Condition, citing
the Supreme Court’s intervening decision in Murphy
v. NCAA, 138 S. Ct. 1461 (2018), and similarly stayed

126a
the injunction’s nationwide scope. City of Chicago v.
Sessions, 321 F. Supp. 3d 855 (N.D. Ill. 2018).
In a related case also in the Northern District of
Illinois, the City of Evanston and the U.S. Conference
of Mayors obtained a preliminary injunction against
all three conditions, but the district court stayed the
injunction’s “near-nationwide effect” as to the Conference. City of Evanston v. Sessions, No. 18 Civ. 4853,
slip op. at 11 (N.D. Ill. Aug. 9, 2018), Doc. 23. The
Seventh Circuit then lifted the stay as to the
Conference given that the injunction was “limited to
the parties actually before the court.” U.S. Conference
of Mayors v. Sessions, No. 18-2734, slip op. at 2 (7th
Cir. Aug. 29, 2018), Doc. 13. In other words, the
injunction applied only to the City of Evanston and
those local jurisdictions that are actually members of
the U.S. Conference of Mayors.6
In Philadelphia, a district court in the Eastern
District of Pennsylvania preliminarily enjoined the
Attorney General from denying that city FY 2017
Byrne JAG funds on the basis of the challenged
conditions. City of Philadelphia v. Sessions, 280 F.
6

The City of New York is a member of the U.S. Conference of
Mayors. As a result of the Evanston litigation, DOJ issued the
City’s FY 2017 Byrne JAG award on October 10, 2018, and
represented that it will not at this time enforce the challenged
conditions against the City. The parties agree that (1) the City’s
claims are not moot because DOJ may in the future enforce the
challenged conditions against the City if the preliminary injunction in Evanston is dissolved or reversed on appeal, see N.Y. State
Nat. Org. for Women v. Terry, 159 F.3d 86, 92 (2d Cir. 1998)
(“[V]oluntary cessation of misconduct does not engender mootness where the cessation resulted from a coercive order and a
threat of sanctions.”), and (2) the City’s claims under the
Administrative Procedure Act are ripe in light of DOJ’s reaching
a decision on the City’s Byrne JAG application. See Docs. 65, 72.

127a
Supp. 3d 579 (E.D. Pa. 2017). Following a bench trial,
the district court then permanently enjoined all three
conditions. City of Philadelphia v. Sessions, 309 F.
Supp. 3d 289 (E.D. Pa. 2018). The Attorney General
has appealed to the Third Circuit.
In California, the state and the City and County of
San Francisco sued over the conditions in the
Northern District of California, and the district court
initially denied California’s request for a preliminary
injunction against the Compliance Condition. California
ex rel. Becerra v. Sessions, 284 F. Supp. 3d 1015 (N.D.
Cal. 2018). Subsequently, with the benefit of a full
record on summary judgment, the district court then
permanently enjoined all three conditions but stayed
the injunction’s nationwide scope. City & County of
San Francisco v. Sessions, Nos. 17 Civ. 04642, 17 Civ.
04701 (WHO), 2018 WL 4859528 (N.D. Cal. Oct. 5,
2018).
D. This Case
The States and the City brought two related actions
on July 18, 2018, and filed amended complaints on
August 6, 2018. States’ First Am. Compl. (“FAC”), No.
18 Civ. 6471, Doc. 32; City’s FAC, No. 18 Civ. 6474,
Doc. 15. The States challenge the imposition of the
three FY 2017 conditions on five bases: (1) the
conditions violate the separation of powers, (2) the
conditions are ultra vires under the Administrative
Procedure Act (“APA”), (3) the conditions are not in
accordance with law under the APA, (4) the conditions
are arbitrary and capricious under the APA, and (5)
§ 1373 violates the Tenth Amendment’s prohibition on
commandeering. States’ FAC ¶¶ 116–150. In addition
to these claims, the City also asserts that the
conditions violate the Spending Clause and seeks a
declaratory judgment that § 1373 is unconstitutional

128a
or, in the alternative, that the City complies with
§ 1373. City’s FAC ¶¶ 111–148, 173–179.7
The States and the City have moved for partial
summary judgment on their claims challenging the FY
2017 conditions. No. 18 Civ. 6471, Doc. 56; No. 18 Civ.
6474, Doc. 21. Defendants have moved to dismiss or,
alternatively, for partial summary judgment on those
claims. No. 18 Civ. 6471, Doc. 88; No. 18 Civ. 6474,
Doc. 50. The motions are fully briefed, and oral argument was held on November 16, 2018.
II. Legal Standard
Summary judgment is appropriate when “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). “An
issue of fact is ‘genuine’ if the evidence is such that a
7

In their amended complaints, the States and the City also
assert related claims challenging identical conditions as well as
additional conditions attached to FY 2018 funds, which were
announced on July 20, 2018. States’ FAC ¶¶ 4, 151–173; City’s
FAC ¶¶ 6, 149–172. According to the amended complaints, in
addition to the three conditions imposed on FY 2017 grants,
recipients of FY 2018 funds must also certify that they will not
(1) violate 8 U.S.C. § 1644, another statute prohibiting restrictions
on exchanging immigration status information with federal
authorities; (2) violate 8 U.S.C. § 1324(a), which prohibits knowingly or recklessly concealing or harboring aliens; (3) impede
federal authorities in the arrest or removal of aliens as authorized by 8 U.S.C. §§ 1226(a), (c), 1231(a)(4); (4) impede federal
authorities in the interrogation of aliens as authorized by 8
U.S.C. § 1357(a)(1); or (5) impede the Attorney General’s reports
on the number of undocumented immigrants incarcerated in
federal and state prisons for felonies and efforts to remove them
pursuant to 8 U.S.C. § 1366(1), (3). States’ FAC ¶ 4; City’s FAC
¶ 6. The FY 2018 conditions are not at issue in the instant
motions for partial summary judgment.

129a
reasonable jury could return a verdict for the nonmoving party.” Senno v. Elmsford Union Free Sch.
Dist., 812 F. Supp. 2d 454, 467 (S.D.N.Y. 2011) (citing
SCR Joint Venture L.P. v. Warshawsky, 559 F.3d 133,
137 (2d Cir. 2009)). A fact is “material” if it might
affect the outcome of the litigation under the
governing law. Id.
The party moving for summary judgment is initially
responsible for demonstrating the absence of any
genuine issue of material fact. Celotex Corp. v. Catrett,
477 U.S. 317, 323 (1986). If the moving party meets its
burden, the nonmoving party must “come forward
with specific evidence demonstrating the existence of
a genuine dispute of material fact.” FDIC. v. Great Am.
Ins. Co., 607 F.3d 288, 292 (2d Cir. 2010).
In deciding a motion for summary judgment, the
Court must “construe the facts in the light most
favorable to the non-moving party and must resolve all
ambiguities and draw all reasonable inferences
against the movant.” Brod v. Omya, Inc., 653 F.3d 156,
164 (2d Cir. 2011) (quoting Williams v. R.H. Donnelley,
Corp., 368 F.3d 123, 126 (2d Cir. 2004)). However, in
opposing a motion for summary judgment, the nonmoving party may not rely on unsupported assertions,
conjecture, or surmise. Goenaga v. March of Dimes
Birth Defects Found., 51 F.3d 14, 18 (2d Cir. 1995).
Rather, “the non-moving party must set forth significant, probative evidence on which a reasonable factfinder could decide in its favor.” Senno, 812 F. Supp.
2d at 467–68 (citing Anderson v. Liberty Lobby, 477
U.S. 242, 256–57 (1986)).
In challenges to agency action under the APA,
summary judgment is the mechanism for deciding, as
a matter of law, whether the agency action is supported by the administrative record and is otherwise

130a
consistent with the APA standard of review. Chen v.
Bd. of Immigration Appeals, 164 F. Supp. 3d 612, 617
(S.D.N.Y. 2016). “Where, as here, a party seeks review
of agency action under the APA and ‘the entire case on
review is a question of law,’ summary judgment is
generally appropriate.” Noroozi v. Napolitano, 905 F.
Supp. 2d 535, 541 (S.D.N.Y. 2012) (quoting Citizens
Against Casino Gambling in Erie Cty. v. Hogen, No. 07
Civ. 0451 (S), 2008 WL 2746566, at *25 (W.D.N.Y. July
8, 2008)).
III. Discussion
This case challenges the authority of the Executive
Branch of the federal government to compel states to
adopt its preferred immigration policies by imposing
conditions on congressionally authorized funding to
which the states are otherwise entitled. As such, this
case is fundamentally about the separation of powers
among the branches of our government and the
interplay of dual sovereign authorities in our federalist system. “The founders of our country well understood that the concentration of power threatens individual liberty and established a bulwark against such
tyranny” through limits on concentrated power.
Chicago, 888 F.3d at 277. “Concentration of power in
the hands of a single branch is a threat to liberty,”
which “is always at stake when one or more of the
branches seek to transgress the separation of powers.”
Clinton v. City of New York, 524 U.S. 417, 450 (1998)
(Kennedy, J., concurring). “Just as the separation and
independence of the coordinate branches of the
Federal Government serve to prevent the accumulation of excessive power in any one branch, a healthy
balance of power between the States and the Federal
Government will reduce the risk of tyranny and abuse
from either front.” Gregory v. Ashcroft, 501 U.S. 452,

131a
458–59 (1991). That balance of power must be maintained “[b]y guarding against encroachments by the
Federal Government on fundamental aspects of state
sovereignty.” Fed. Mar. Comm’n v. S.C. State Ports
Auth., 535 U.S. 743, 769 (2002). It is incumbent on the
judiciary “to act as a check on such usurpation of
power,” whether among the branches of government or
the federal and state governments. Chicago, 888 F.3d
at 277. With these principles in mind, the Court turns
to the legal issues that govern this case.
A. Statutory Authority for the Conditions
Under the APA, courts must “hold unlawful and set
aside agency action . . . found to be . . . in excess of
statutory jurisdiction, authority, or limitations, or
short of statutory right,” “or otherwise not in accordance with law.” 5 U.S.C. § 706(2)(A), (C). In determining whether an agency action is ultra vires, “the
question . . . is always whether the agency has gone
beyond what Congress has permitted it to do.” City of
Arlington v. FCC, 569 U.S. 290, 297–98 (2013); see also
NRDC v. Abraham, 355 F.3d 179, 202 (2d Cir. 2004)
(discussing the “well-established principle” that “an
agency literally has no power to act . . . unless and
until Congress confers power upon it” (quoting La.
Pub. Serv. Comm’n v. FCC, 476 U.S. 355, 374 (1986))).
At the outset, the Court notes that the Byrne JAG
grant is “a formula grant rather than a discretionary
grant,” Chicago, 888 F.3d at 285, which means it is
“not awarded at the discretion of a state or federal
agency, but . . . pursuant to a statutory formula,” City
of Los Angeles v. McLaughlin, 865 F.2d 1084, 1088
(9th Cir. 1989). Under the Byrne JAG statute, “the
Attorney General shall . . . allocate” grant money
pursuant to a statutory formula based on the state’s

132a
population and violent crime statistics. 34 U.S.C.
§ 10156(a)(1) (emphasis added).
Because § 10156(a)(1) does not give the Attorney
General discretion to award or withhold Byrne JAG
grants or determine the conditions under which they
are disbursed, the authority for the challenged conditions must come from some other statutory provision,
if at all. Defendants point to two potential provisions:
34 U.S.C. § 10102(a)(6) and 34 U.S.C. § 10153(a)(5)(D).
i. 34 U.S.C. § 10102(a)(6)
Section 10102, which is located in a different subchapter from the Byrne JAG program, sets out the
duties of the Assistant Attorney General for the Office
of Justice Programs8 and provides as follows:
The Assistant Attorney General shall—
(1) publish and disseminate information on
the conditions and progress of the criminal
justice systems;
(2) maintain liaison with the executive and
judicial branches of the Federal and State
governments in matters relating to criminal justice;
(3) provide information to the President,
the Congress, the judiciary, State and local
governments, and the general public relating to criminal justice;
(4) maintain liaison with public and private educational and research institutions,
State and local governments, and govern8

By statute, DOJ’s Office of Justice Programs is headed by
this Assistant Attorney General. 34 U.S.C. § 10101.

133a
ments of other nations relating to criminal
justice;
(5) coordinate and provide staff support to
coordinate the activities of the Office and
the Bureau of Justice Assistance, the
National Institute of Justice, the Bureau of
Justice Statistics, the Office for Victims of
Crime, and the Office of Juvenile Justice
and Delinquency Prevention; and
(6) exercise such other powers and functions as may be vested in the Assistant
Attorney General pursuant to this chapter
or by delegation of the Attorney General,
including placing special conditions on all
grants, and determining priority purposes
for formula grants.
34 U.S.C. § 10102(a) (emphasis added).
Defendants contend that the italicized language
permits the Assistant Attorney General to “prioritize
federal grant monies for those state and local jurisdictions that assist in furthering relevant federal purposes,” by imposing “special conditions” such as those
challenged here “on all grants” including the Byrne
JAG program. Defs.’ Mem. 15, 18 (emphases omitted),
Doc. 51. However, Defendants’ “interpretation is contrary to the plain meaning of the statutory language.”
Chicago, 888 F.3d at 284. The problem for Defendants
is that the italicized language begins with the word
“including,” which “by definition is used to designate
that a . . . thing is part of a particular group.” Id. (citing
Including, Oxford English Dictionary (3d ed. 2016)).
Thus, the Assistant Attorney General can only place
special conditions or determine priority purposes to
the extent that power already “may be vested in the

134a
Assistant Attorney General pursuant to this chapter
or by delegation of the Attorney General.” 34 U.S.C.
§ 10102(a)(6). In other words, the italicized language
is not a “stand-alone grant of authority to the
Assistant Attorney General to attach any conditions to
any grants”; rather, such authority must come from
elsewhere in the chapter or have been delegated by the
Attorney General, who may only delegate it to the
extent that he has such power himself. Chicago, 888
F.3d at 285. Because Defendants cannot cite another
provision granting that power to the Assistant Attorney General or the Attorney General, § 10102(a)(6)
does not provide authority for imposing any of the
challenged conditions.
Moreover, the statutory structure indicates that
§ 10102(a)(6) is “an unlikely place for Congress to
place a power as broad” as Defendants would have it.
Id. The “including” clause is tacked on to a catch-all
provision at the end of a list of explicit powers, which
“would be an odd place indeed to put a sweeping power
to impose any conditions on any grants—a power
much more significant than all of the duties and
powers that precede it in the listing, and a power
granted to the Assistant Attorney General that was
not granted to the Attorney General.” Id. It would also
be “inconsistent with the goal of the statute to support
the needs of law enforcement while providing flexibility to state and local governments” and “at odds with
the nature of the Byrne JAG grant, which is a formula
grant rather than a discretionary grant.” Id. “[I]t is
inconceivable that Congress would have anticipated
that the Assistant Attorney General could abrogate
the entire distribution scheme and deny all funds to
states and localities . . . based on the Assistant
Attorney General’s decision to impose his or her own

135a
conditions—the putative authority for which is provided in a different statute.” Id. at 286.9
ii. 34 U.S.C. § 10153(a)(5)(D)
Defendants contend that § 10153(a)(5)(D) provides
authority for imposing the Compliance Condition only.
This section provides that applicants for Byrne JAG
funds must submit an application with a number of
certifications, assurances, and details, including:
A certification, made in a form acceptable to
the Attorney General and executed by the
chief executive officer of the applicant (or by
another officer of the applicant, if qualified
under regulations promulgated by the Attorney General), that—
(A) the programs to be funded by the grant
meet all the requirements of this part;
(B) all the information contained in the
application is correct;
(C) there has been appropriate coordination with affected agencies; and
(D) the applicant will comply with all provisions of this part and all other applicable
Federal laws.
34 U.S.C. § 10153(a)(5) (emphasis added).

9

The Court need not address whether Defendants’ “argument
might fail for an additional reason, that the term ‘special conditions’ is a term of art referring to conditions for high-risk grantees
with difficulty adhering to grant requirements” that does not
apply to the challenged conditions. Chicago, 888 F.3d at 285 n.2
(citing Philadelphia, 280 F. Supp. 3d at 617).

136a
Defendants argue that 8 U.S.C. § 1373 is an “applicable Federal law,” with which applicants must certify
compliance. Defendants contend that § 10153(a)(5)(D)
covers all federal laws applicable to Byrne JAG
applicants, i.e., states and localities (as opposed to
private individuals or entities). Defs.’ Mem. 20. They
further contend that the authority to require a “certification, made in a form acceptable to the Attorney
General,” 34 U.S.C. § 10153(a)(5),10 constitutes “a delegation to the Attorney General to determine whether
a particular federal law constitutes an ‘applicable
Federal law[],’” Defs.’ Mem. 19 (alteration in original)
(quoting 34 U.S.C. § 10153(a)(5)(D)).
Plaintiffs respond that “applicable Federal laws”
refers to only those laws that expressly apply to
federal grants. Pls.’ Mem. 26, Doc. 22. For example,
prohibitions on discrimination in “any program or
activity receiving Federal financial assistance” would
meet this definition, 42 U.S.C. § 2000d, while the
provisions concerning communications with immigration authorities in § 1373 would not. They argue that
Congress could not have intended to require applicants to certify, under threat of criminal prosecution,
their compliance with every possible law that could
conceivably apply to them.11 They argue that such a
broad interpretation would be inconsistent with the
structure of § 10153, which sets forth largely technical
10

See also 34 U.S.C. § 10153(a) (providing that applicants
“shall submit an application to the Attorney General . . . in such
form as the Attorney General may require”).
11

While vast, presumably the range of applicable laws would
be limited by the constitutional principle that the conditions must
“bear some relation to the purpose of the federal funds.” Chicago,
264 F. Supp. 3d at 945 (citing South Dakota v. Dole, 483 U.S. 203,
207–08 (1987)).

137a
and ministerial application requirements pertaining
to the grant itself;12 past practice of DOJ, which
understood applicable laws to have the narrower
construction;13 and the goal of the program to reduce
administrative burdens in the grant process.14 Pls.’
Mem. 27–29; see also ACLU’s Amici Br. 3–8, Doc. 71.
12

See 34 U.S.C. § 10153(a)(1) (Byrne JAG funds may not be
used to supplant state or local funds); id. § 10153(a)(2)–(3) (application must be submitted for review and public comment); id.
§ 10153(a)(4) (applicant must report programmatic and financial
data during the grant period); id. § 10153(a)(6) (applicant must
set forth plan for how the funds will be used).
13

See Dep’t of Justice Study Grp., Report to the Attorney
General: Restructuring the Justice Department’s Program of
Assistance to State and Local Governments for Crime Control and
Criminal Justice System Improvement 8–9 (1977) (identifying
“over twenty Federal statutes impos[ing] controls and limitations
on the use of [Law Enforcement Assistance Administration] grant
funds”), Holt Decl. Ex. 22, Doc. 33-25; see also New York State’s
FY 2016 Byrne JAG Grant, Trautman Decl. Ex. B (requiring
compliance with certain laws applicable to federal grants, such
as those pertaining to nondiscrimination, but not § 1373). Even a
certification form currently in use still appears to equate
“applicable federal statutes and regulations” with “federal
statutes and regulations applicable to the award.” Holt Decl. Ex.
17, at AR-01037 (emphasis added) (certifying that “(a) the Applicant will comply with all award requirements and all federal
statutes and regulations applicable to the award; (b) the Applicant will require all subrecipients to comply with all applicable
award requirements and all applicable federal statutes and
regulations”).
14

See S. Rep. No. 96-142, at 8 (1979) (listing “reduced red tape”
as the first goal of reforms to a predecessor program); Federal
Assistance to State and Local Criminal Justice Agencies: Hearing
on S. 1245, S. 1882, S. 3270, and S. 3280 Before the Subcomm. on
Criminal Laws and Procedures of the S. Comm. on the Judiciary,
95th Cong. 383 (1978) (letter of Att’y Gen. Griffin B. Bell) (stating
that the bill was “designed” to “simplify[] the grant process”), Holt
Decl. Ex. 25, Doc. 33-28.

138a
Plaintiffs further argue that the Attorney General’s
authority to determine the “form” of the application
cannot constitute authority to alter the substantive
requirements of compliance with particular laws, 34
U.S.C. § 10153(a)(5), and in any event, Congress could
not have intended to delegate the authority to determine what constitutes an “applicable” law, because
otherwise it would have done so explicitly, as it has
done in other statutes.15 Pls.’ Reply 16–17, Doc. 56.
On this final point, Plaintiffs are surely correct that
the Attorney General’s authority to determine the
“form” of the application does not include the ability to
dictate the “substance” of which laws an applicant
must comply with as a condition of grant funding.
Form, Black’s Law Dictionary (10th ed. 2014) (defining “form” as “[t]he outer shape, structure, or configuration of something, as distinguished from its substance or matter”). “There is no indication that an
acceptable form of the certification would encompass
additional substantive compliance with laws not
directly required by Congress.” San Francisco, 2018
WL 4859528, at *18; see Gonzales v. Oregon, 546 U.S.
243, 262 (2006) (stating that “[i]t would be anomalous
for Congress to have so painstakingly described the
Attorney General’s limited authority . . . but to have
given him, just by implication,” much broader authority). If Congress wanted to delegate this substantive
authority to the Attorney General, it would have done
so explicitly. “Congress . . . does not alter the fundamental details of a regulatory scheme in vague terms
or ancillary provisions—it does not, one might say,

15

See 26 U.S.C. § 432(e)(9)(E)(iv)(II) (referencing compliance
with “other applicable law, as determined by the Secretary of the
Treasury” (emphasis added)).

139a
hide elephants in mouseholes.” Whitman v. Am.
Trucking Ass’ns, 531 U.S. 457, 468 (2001).
However, the question remains as to the scope of
“applicable” federal laws with which applicants must
certify compliance: Does this mean laws applicable to
the state or locality, or laws applicable to the grant?
“Both positions are plausible,” Chicago, 264 F. Supp.
3d at 944, and “the question is a ‘close call,’”
Philadelphia, 280 F. Supp. 3d at 619. On one hand,
“Congress could expect an entity receiving federal
funds to certify its compliance with federal law, as the
entity is—independent of receiving federal funds—
obligated to comply.” Chicago, 264 F. Supp. 3d at 945.
And the command that “the applicant will comply
with . . . all other applicable Federal laws,” by virtue
of the proximity of the words, suggests laws that are
applicable to the “applicant.” 34 U.S.C. § 10153(a)(5)(D).
But this does not answer the question of whether this
means laws applicable to the applicant as a state or
locality, or laws applicable to the applicant as an
applicant for federal grant funding. The structure of
§ 10153, which concerns requirements pertaining to
the grant and the application, points toward the latter
reading. See San Francisco, 2018 WL 4859528, at *17
(“[B]ecause all the other conditions in Section 10153(a)
apply to the grant itself, the statutory context does not
support imposing a condition beyond the grant administration process.”).
In any event, it is unclear from the statutory language whether Congress intended to condition Byrne
JAG funds on compliance with all federal laws
applicable to the state or locality or compliance with
all federal laws applicable to federal grants. What is
clear, however, is that “if Congress intends to impose
a condition on the grant of federal moneys, it must do

140a
so unambiguously.” Pennhurst State Sch. & Hosp. v.
Halderman, 451 U.S. 1, 17 (1981). “By insisting that
Congress speak with a clear voice, we enable the
States to exercise their choice knowingly, cognizant of
the consequences of their participation.” Id. Under
this “clear notice” rule, the Court must view the statute “from the perspective of a state official who is
engaged in the process of deciding whether the State
should accept [the] funds and the obligations that go
with those funds,” and “must ask whether such a state
official would clearly understand that one of the
obligations of the Act is the [purported] obligation,”
Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy, 548
U.S. 291, 296 (2006), i.e., to comply with all federal
laws “applicable” to the state. “This malleable language does not provide the ‘clear notice that would be
needed to attach such a condition to a State’s receipt
of . . . funds.’” Philadelphia, 280 F. Supp. 3d at 647
(quoting Arlington Cent., 548 U.S. at 300). Conversely,
given the structure of § 10153, which concerns the
requirements of the application and the grant, as well
as the parties’ long history of treating “applicable
Federal laws” as encompassing laws applicable to
federal grants, grant recipients, and the grant-making
process, such a construction gives fair notice of the
terms of the funding. Accordingly, the Court concludes
that “applicable Federal laws” for purposes of 34
U.S.C. § 10153(a)(5)(D) means federal laws applicable
to the grant.
As the parties do not dispute, § 1373 is not one of
those applicable laws under this narrower construction of § 10153(a)(5)(D). Accordingly, Defendants did
not have statutory authority to condition Byrne JAG
funding on compliance with § 1373. But even if
Defendants’ broader interpretation of § 10153(a)(5)(D)
carried the day, § 1373 would still not be an “applica-

141a
ble” law because it is unconstitutional, as will be
explained below, and “no matter the breadth of this
provision, it will never capture an unconstitutional
statute.” Chicago, 321 F. Supp. 3d at 875.
B. Section 1373 and the Tenth Amendment
i. The Anticommandeering Doctrine
The Tenth Amendment provides: “The powers not
delegated to the United States by the Constitution, nor
prohibited by it to the States, are reserved to the
States respectively, or to the people.” U.S. Const.
amend. X. “[T]he Tenth Amendment confirms that the
power of the Federal Government is subject to limits
that may, in a given instance, reserve power to the
States.” New York v. United States, 505 U.S. 144, 157
(1992).
The Tenth Amendment embodies an “anticommandeering principle,” which “withhold[s] from Congress
the power to issue orders directly to the States.”
Murphy v. NCAA, 138 S. Ct. 1461, 1475 (2018); see
Printz v. United States, 521 U.S. 898, 935 (1997) (“The
Federal Government may neither issue directives
requiring the States to address particular problems,
nor command the States’ officers, or those of their
political subdivisions, to administer or enforce a
federal regulatory program.”); New York, 505 U.S. at
188 (“The Federal Government may not compel the
States to enact or administer a federal regulatory
program.”).
There are three significant purposes served by the
anticommandeering doctrine. First, by “divid[ing]
authority between federal and state governments,” it
promotes a “healthy balance of power between the
States and the Federal Government [that reduces] the
risk of tyranny and abuse from either front.” Murphy,

142a
138 S. Ct. at 1477 (quoting New York, 505 U.S. at 181).
Second, the anticommandeering doctrine supports
“political accountability,” because “if a State imposes
regulations only because it has been commanded to do
so by Congress, responsibility is blurred.” Id. And
third, the anticommandeering rule “prevents Congress
from shifting the costs of regulation to the States,”
because “if Congress can compel the States to enact
and enforce its program, Congress need not” “weigh
the expected benefits of the program against its costs.”
Id.
Most recently, in Murphy, the Supreme Court held
that the Professional and Amateur Sports Protection
Act (“PASPA”), which prohibited states from authorizing sports gambling, violated the anticommandeering
rule because it “unequivocally dictates what a state
legislature may and may not do.” Id. at 1478. The
Court explained that PASPA operated “as if federal
officers were installed in state legislative chambers
and were armed with the authority to stop legislators
from voting on any offending proposals,” which was a
“direct affront to state sovereignty.” Id.
In Murphy, the supporters of PASPA argued that
commandeering occurs only when Congress “command[s] ‘affirmative’ action as opposed to imposing a
prohibition,” but the Supreme Court rejected that distinction as “empty.” Id. “The basic principle—that
Congress cannot issue direct orders to state
legislatures—applies in either event.” Id.
There are two important limits on the anticommandeering doctrine. First, “[t]he anticommandeering
doctrine does not apply when Congress evenhandedly
regulates an activity in which both States and private
actors engage.” Id. Thus, Congress may enact laws

143a
that “appl[y] equally to state and private actors.” Id.
at 1479.
Second, commandeering does not occur when Congress validly preempts state law through the Supremacy Clause. In preemption, “Congress enacts a law
that imposes restrictions or confers rights on private
actors; a state law confers rights or imposes
restrictions that conflict with the federal law; and
therefore the federal law takes precedence and the
state law is preempted.” Id. at 1480. To qualify as a
preemption provision, the law “must represent the
exercise of a power conferred on Congress by the
Constitution,” and it “must be best read as one that
regulates private actors” because “the Constitution
‘confers upon Congress the power to regulate individuals, not States.’” Id. at 1479 (quoting New York, 505
U.S. at 166). Although a preemption provision that
prohibits contrary state law “might appear to operate
directly on the States,” in fact, it “confers on private
entities . . . a federal right to engage in certain conduct
subject only to certain (federal) constraints” and “to be
free from any other . . . requirements.” Id. at 1480–81.
In sum, “every form of preemption is based on a federal
law that regulates the conduct of private actors, not
the States.” Id. at 1481. Thus, the PASPA provision
prohibiting state authorization of sports gambling,
which did not confer any federal rights nor impose any
federal restrictions on private actors, could not be
understood “as anything other than a direct command
to the States,” which put it firmly in the category of
impermissible commandeering and not permissible
preemption. Id.

144a
ii. Section 1373
Section 1373 provides, in relevant part:
(a) In general
Notwithstanding any other provision of
Federal, State, or local law, a Federal, State,
or local government entity or official may not
prohibit, or in any way restrict, any government entity or official from sending to, or
receiving from, the Immigration and Naturalization Service information regarding the
citizenship or immigration status, lawful or
unlawful, of any individual.
(b) Additional
entities

authority

of

government

Notwithstanding any other provision of
Federal, State, or local law, no person or
agency may prohibit, or in any way restrict, a
Federal, State, or local government entity
from doing any of the following with respect
to information regarding the immigration
status, lawful or unlawful, of any individual:
(1) Sending such information to, or
requesting or receiving such information
from, the Immigration and Naturalization
Service.
(2) Maintaining such information.
(3) Exchanging such information with any
other Federal, State, or local government
entity.
8 U.S.C. § 1373(a)–(b).
In sum, § 1373 “prohibits any ‘government entity or
official’ from restricting any other ‘government entity

145a
or official’ from exchanging immigration status information” with immigration authorities.16 Chicago, 321
F. Supp. 3d at 868. Plaintiffs contend that this
command to state and local governments offends the
Tenth Amendment’s anticommandeering rule.
The Second Circuit has once before passed on the
constitutionality of § 1373, in City of New York v.
United States, 179 F.3d 29 (2d Cir. 1999), nineteen
years before Murphy was decided. There, the court
rejected the City’s facial challenge under the Tenth
Amendment to § 1373 and the related provision 8
U.S.C. § 1644, which had conflicted with a mayoral
executive order that prohibited City employees from
transmitting immigration information to federal
immigration authorities specifically, except in certain
circumstances.17 Id. at 31–32. Crucially, the court
reasoned that through these provisions,
Congress has not compelled state and local
governments to enact or administer any
16

For purposes of this case, subsections (a) and (b) essentially
overlap. Subsection (a) applies the prohibition on restricting government communication to any “government entity or official,”
and subsection (b) applies a similar prohibition to any “person or
agency.” 8 U.S.C. § 1373 (a)–(b). “Subsection (b) does not meaningfully expand the statute’s scope by including ‘person[s]’: Who
but a government actor can restrict the activities of a government
entity or official?” Chicago, 321 F. Supp. 3d at 868–69 (alteration
in original).
17

The court expressly declined to opine on whether § 1373
“would survive a constitutional challenge in the context of
generalized confidentiality policies that are necessary to the performance of legitimate municipal functions and that include
federal immigration status.” City of New York, 179 F.3d at 37.
The City’s current General Confidentiality Policy repealed and
replaced the executive order at issue in City of New York. Exec.
Order No. 34, § 1 (2003), Negrón Decl. Ex. A, Doc. 42-1.

146a
federal regulatory program. Nor has it affirmatively conscripted states, localities, or their
employees into the federal government’s service. These Sections do not directly compel
states or localities to require or prohibit anything. Rather, they prohibit state and local
governmental entities or officials only from
directly restricting the voluntary exchange of
immigration information with [federal immigration authorities].
Id. at 35. The court thus drew a clear distinction
“between invalid federal measures that seek to
impress state and local governments into the administration of federal programs and valid federal
measures that prohibit states from compelling passive
resistance to particular federal programs,” and
concluded that the challenged provisions fell into the
latter category. Id.
This Court is, of course, required to follow Second
Circuit precedent. But this Court is also duty bound to
follow the U.S. Constitution as authoritatively interpreted by the Supreme Court. “When ‘a subsequent
decision of the Supreme Court so undermines [Second
Circuit precedent] that it will almost inevitably be
overruled,’ the District Court is bound by the Supreme
Court’s ruling and not by the Second Circuit’s prior
decisions.” Austin v. United States, 280 F. Supp. 3d
567, 572 (S.D.N.Y. 2017) (alteration in original)
(quoting United States v. Emmenegger, 329 F. Supp.
2d 416, 429 (S.D.N.Y. 2004)).
It is clear that City of New York cannot survive the
Supreme Court’s decision in Murphy. See Chicago, 321
F. Supp. 3d at 873 (“Murphy’s holding deprives City of
New York of its central support . . . .”); United States
v. California, 314 F. Supp. 3d 1077, 1108 (E.D. Cal.

147a
2018) (“[T]he Supreme Court’s holding in Murphy
undercuts portions of the Second Circuit’s reasoning
[in City of New York] and calls its conclusion into
question.”). City of New York rested on the premise
that § 1373 does not “affirmatively conscript[] states,
localities, or their employees into the federal government’s service” or “directly compel states or localities
to require or prohibit anything,” and rather merely
“prohibit[s] state and local governmental entities or
officials” from taking certain action. City of New York,
179 F.3d at 35. In other words, City of New York
depended on “the distinction it draws between affirmative obligations and proscriptions.” Chicago, 321 F.
Supp. 3d at 873. That is precisely the distinction that
the Supreme Court in Murphy characterized as
“empty.” Murphy, 138 S. Ct. at 1478. Whether
Congress attempts to command affirmative action or
impose a prohibition, “[t]he basic principle—that
Congress cannot issue direct orders to state legislatures—applies in either event.” Id. Accordingly, this
Court is not bound by City of New York and must
follow the Supreme Court’s clear direction in Murphy.
It necessarily follows that § 1373 is unconstitutional
under the anticommandeering principles of the Tenth
Amendment. Section 1373 “unequivocally dictates
what a state legislature may and may not do.” Id.
Section 1373’s prohibition on states and localities from
restricting their officials from communicating with
immigration authorities constitutes a “direct order[]”
to states and localities in violation of the anticommandeering rule. Id.
The purposes served by the anticommandeering rule
illustrate why it compels this result. First, § 1373
impinges on Plaintiffs’ sovereign authority and their
citizens’ liberty to be regulated under their preferred

148a
state and local policies. Section 1373 requires Plaintiffs “to submit control of their own officials’ communications to the federal government and forego passing
laws contrary to Section 1373.” San Francisco, 2018
WL 4859528, at *15. “[T]he statute prevents [Plaintiffs] from extricating [themselves] from federal immigration enforcement,” Chicago, 321 F. Supp. 3d at 870,
and thereby denies Plaintiffs the “critical alternative”
required by the Tenth Amendment to “decline to
administer the federal program,” New York, 505 U.S.
at 176–77.18
Second, § 1373 undermines political accountability
because “the statute makes it difficult for citizens to
distinguish between state and federal policy in the
immigration context by barring states from adopting
policies contrary to those preferred by the federal
government.” Chicago, 321 F. Supp. 3d at 870. Faced
with the “appearance of a uniform federal/state/local
immigration enforcement policy indiscernible to
[Plaintiffs’] residents,” those residents cannot properly
credit or blame their state or local officials when their
policies are compelled by the federal government. San
Francisco, 2018 WL 4859528, at *15.
Third, § 1373 “shifts a portion of immigration
enforcement costs onto the States.” Id. at *16. “The
statute . . . forces states to allow their employees to
participate in the federal scheme, shifting employee
time—and thus corresponding costs—to federal

18

See also Jessica Bulman-Pozen, Preemption and Commandeering Without Congress, 70 Stan. L. Rev. 2029, 2046 (2018)
(“Because states operate through their officials, the power of the
state to decline to carry out a federal program entails the power
to forbid state officials from carrying out that federal program.”).

149a
initiatives and away from state priorities.” Chicago,
321 F. Supp. 3d at 870.
Defendants attempt to save § 1373 by claiming that
it is a preemption provision, Defs.’ Mem. 38–39, “but it
is no such thing,” Murphy, 138 S. Ct. at 1479. To
validly preempt, the provision “must be best read as
one that regulates private actors.” Id. A preemption
provision “confers on private entities . . . a federal right
to engage in certain conduct subject only to certain
(federal) constraints.” Id. at 1480. Parroting back this
language, Defendants claim that “Section 1373 confers
upon entities or individuals a federal right to engage
in certain conduct (the voluntary transmission of
information to federal immigration authorities) subject only to certain federal constraints.” Defs.’ Mem.
39. Conspicuously absent from this recitation is the
key word “private.” That is because by its own terms,
§ 1373 confers this purported federal right to transmit
information only on “government entit[ies] or
official[s].” 8 U.S.C. § 1373(a) (emphasis added);
see San Francisco, 2018 WL 4859528, at *14 (“Section
1373 . . . does not regulate private actors or
provide private actors with any additional rights in
the [Immigration and Nationality Act]’s statutory
scheme.”); Philadelphia, 309 F. Supp. 3d at 329
(“Given their plain language, neither Section 1373(a)
nor Section 1373(b) can be best read as regulating
private actors. On their face, they regulate state and
local governmental entities and officials, which is fatal
to their constitutionality under the Tenth Amendment.”). Defendants have failed to show that § 1373
regulates private actors at all, let alone that it is “best

150a
read as . . . regulat[ing] private actors.” Murphy, 138
S. Ct. at 1479.19
Next, Defendants attempt to fit § 1373 into a
commandeering carve-out for statutes facilitating “the
provision of information to the Federal Government,”
relying on dicta in Printz, 521 U.S. at 918; Defs.’ Mem.
40. This argument is similarly unavailing. First, the
Supreme Court has never actually held that such an
exception to the anticommandeering doctrine exists.
See Printz, 521 U.S. at 918 (“[Some statutes], which
require only the provision of information to the
Federal Government, do not involve the precise issue
before us here, which is the forced participation of the
States’ executive in the actual administration of a
federal program. We of course do not address these or
other currently operative enactments that are not
before us; it will be time enough to do so if and when
their validity is challenged in a proper case.”); see also
id. at 936 (O’Connor, J., concurring) (“[T]he Court
appropriately refrains from deciding whether other
purely ministerial reporting requirements imposed by
Congress on state and local authorities pursuant to its
Commerce Clause powers are similarly invalid.”).
19

Defendants’ reliance on Arizona v. United States, 567 U.S.
387 (2012), is misplaced. While the federal government has
“broad, undoubted power over the subject of immigration and the
status of aliens,” id. at 394, Arizona underscores that federal
immigration laws may preempt because they “not only impose
federal registration obligations on aliens but also confer a federal
right to be free from any other registration requirements,” Murphy,
138 S. Ct. at 1481 (emphasis added) (discussing Arizona). Here,
Defendants have not shown that § 1373 imposes any obligations
or confers any rights on aliens, let alone that it is “best read” as
doing so. Id. at 1479. To the contrary, “[o]n [its] face, [§ 1373]
regulate[s] state and local governmental entities and officials.”
Philadelphia, 309 F. Supp. 3d at 329.

151a
Second, even if a commandeering exception for certain
information reporting did exist, § 1373 would not
qualify for it. “Section 1373 is more than just an information-sharing provision,” Chicago, 321 F. Supp. 3d
at 872, because it prevents states and localities from
doing anything that “in any way restrict[s]” the flow of
certain information to immigration authorities, 8
U.S.C. § 1373(a). As such, § 1373 prevents state and
local policymakers from enacting a wide range of
information-governance rules, Chicago, 321 F. Supp.
3d at 872, and even prevents them from “disciplining
an employee for choosing to spend her free time or
work time assisting in the enforcement of federal
immigration laws,” Philadelphia, 280 F. Supp. 3d at
651. Section 1373 thus presents a graver intrusion into
state sovereignty than merely requiring the reporting
of certain data. San Francisco, 2018 WL 4859528, at
*16; Chicago, 321 F. Supp. 3d at 872.20
The Court acknowledges Defendants’ argument that
access to the information covered by § 1373 would

20

Defendants also suggest that § 1373 is permissible because
it “regulates the States as the owners of data bases,” as the
Driver’s Privacy Protection Act of 1994 (“DPPA”) validly did in
Reno v. Condon, 528 U.S. 141, 151 (2000). But it is clear that the
DPPA was constitutional because it “applied equally to state and
private actors.” Murphy, 138 S. Ct. at 1479 (discussing Reno); see
Reno, 528 U.S. at 151 (“The DPPA regulates the universe of entities that participate as suppliers to the market for motor vehicle
information—the States as initial suppliers of the information in
interstate commerce and private resellers or redisclosers of that
information in commerce.”). Here, as previously discussed, § 1373
applies only to state actors. See Chicago, 321 F. Supp. 3d at 869
(“Section 1373 does not evenhandedly regulate activities in which
both private and government actors engage. Thus, the saving
grace of Reno does not apply here.”).

152a
assist them in their immigration enforcement duties.21
Defs.’ Mem. 40–41. However, a “federal need for state
information does not automatically free the federal
government of the sometimes laborious requirement
to acquire that information by constitutional means.”
Chicago, 321 F. Supp. 3d at 872. “[T]he federalist
diffusion of power necessarily creates political barriers
and inefficiencies. But these inefficiencies are part of
federalism’s intended structure, not imperfections to
be remedied by judicially-wrought consolidation of
power.” Id.
Finally, Defendants contend that the Tenth Amendment does not apply to the challenged conditions here
because the Byrne JAG program is a voluntary federal
grant, and “a perceived Tenth Amendment limitation
on congressional regulation of state affairs d[oes] not
concomitantly limit the range of conditions legitimately placed on federal grants.” South Dakota v.
Dole, 483 U.S. 203, 210 (1987); Defs.’ Mem. 36–37. To
be sure, Congress may offer funds conditioned on compliance with specified conditions to “induce the States
to adopt policies that the Federal Government itself
could not impose,” such as raising the state drinking
age to 21. Nat’l Fed’n of Indep. Bus. v. Sebelius
(“NFIB”), 567 U.S. 519, 537 (2012) (citing Dole, 483
U.S. at 205–06). But Defendants’ point misunderstands the nature of Plaintiffs’ challenge. Congress
may impose “conditions legitimately placed on federal
grants,” Dole, 483 U.S. at 210 (emphasis added), but
Defendants—an agency and official of the Executive
21

For instance, Defendants claim that this information assists
federal officials in interrogating aliens as to their status, 8 U.S.C.
§ 1357(a)(1), removing certain deportable aliens, id. §§ 1227(a),
1228, or detaining certain deportable aliens when they are
released from criminal custody, id. § 1226(c)(1).

153a
Branch administering a nondiscretionary formula
grant—did not have statutory authority to legitimately place the three conditions here. With respect to
the Compliance Condition, Defendants claimed statutory authority on the basis that § 1373 was an
“applicable Federal law[]” requiring compliance under
§ 10153(a)(5)(D). “As an unconstitutional law, Section
1373 automatically drops out of the possible pool of
‘applicable Federal laws’ described in the Byrne JAG
statute.” Chicago, 321 F. Supp. 3d at 875. “Thus, the
Compliance Condition does not fail because it violates
the anticommandeering doctrine. It fails because the
statutory authority on which it depends sanctions only
the imposition of ‘applicable’ federal laws; because
Section 1373 no longer falls within that category, the
authority for the Compliance Condition has been
stripped away.” Id. at 876.
Accordingly, the Court holds that 8 U.S.C. § 1373(a)–
(b), insofar as it applies to states and localities, is
facially unconstitutional under the anticommandeering
doctrine of the Tenth Amendment.22 San Francisco,

22

This holding, of course, does not disturb § 1373 to the extent
it regulates the activities of the federal government. See 8 U.S.C.
§ 1373(a)–(b) (imposing prohibitions on “Federal . . . government
entit[ies] or official[s]”); see also id. § 1373(c) (requiring that
federal immigration authorities respond to inquiries); Free Enter.
Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S. 477, 508
(2010) (“‘Generally speaking, when confronting a constitutional
flaw in a statute, we try to limit the solution to the problem,’
severing any ‘problematic portions while leaving the remainder
intact.’” (quoting Ayotte v. Planned Parenthood of N. New Eng.,
546 U.S. 320, 329 (2006))); Engine Mfrs. Ass’n v. S. Coast Air
Quality Mgmt. Dist., 498 F.3d 1031, 1049 (9th Cir. 2007) (recognizing that “some of the provisions [of a statute] might be facially
invalid, and [others] might not”).

154a
2018 WL 4859528, at *17; Chicago, 321 F. Supp. 3d at
872; Philadelphia, 309 F. Supp. 3d at 331.
C. Separation of Powers
In light of Defendants’ lack of authority to impose
the three conditions on federal funding, Plaintiffs
contend that the conditions violate the separation of
powers. Pls.’ Mem. 41–42.
The Constitution vests Congress with the spending
power to “provide for the common Defence and general
Welfare of the United States.” U.S. Const. art. I, § 8,
cl. 1. “[I]n exercising its spending power, Congress
may offer funds to the States, and may condition those
offers on compliance with specified conditions.” NFIB,
567 U.S. at 537. Congress may also “delegate such
authority to the Executive Branch.” Chicago, 888 F.3d
at 283.
But for the reasons explained above, Congress has
neither conditioned Byrne JAG funds on the three
conditions here nor delegated the authority to impose
these conditions to the Executive Branch. The Executive Branch does not have the power of the purse and
“does not otherwise have the inherent authority as to
the grant at issue here to condition the payment of
such federal funds on adherence to its political
priorities.” Id.; see also City & County of San Francisco
v. Trump, 897 F.3d 1225, 1235 (9th Cir. 2018) (“Absent
congressional authorization, the Administration may
not redistribute or withhold properly appropriated
funds in order to effectuate its own policy goals.”). The
Byrne JAG statute provides “a firm commitment” of
funding according to statutorily prescribed criteria,
and the Executive Branch does not have “the seemingly limitless power to withhold funds” from grantees
who refuse to accept its unilaterally imposed condi-

155a
tions. Train v. City of New York, 420 U.S. 35, 45–46
(1975).
The separation of powers acts as a check on tyranny
and the concentration of power. “If the Executive
Branch can determine policy, and then use the power
of the purse to mandate compliance with that policy by
the state and local governments, all without the
authorization or even acquiescence of elected legislators, that check against tyranny is forsaken.” Chicago,
888 F.3d at 277. Because that is what Defendants
attempted to do here by imposing the three challenged
conditions, these conditions violate the separation of
powers.23 Id.; San Francisco, 2018 WL 4859528, at *33;
Philadelphia, 309 F. Supp. 3d at 321.
D. Arbitrary and Capricious Agency Action
Aside from the three conditions’ statutory and
constitutional flaws, Plaintiffs also contend that the
conditions are arbitrary and capricious. Pls.’ Reply 24–
28.
Under the APA, courts must “hold unlawful and set
aside agency action, findings, and conclusions found to
be . . . arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.” 5 U.S.C.
§ 706(2)(A). Under this standard, the agency is
required to “examine the relevant data and articulate
a satisfactory explanation for its action including a
‘rational connection between the facts found and the
choice made.’” Motor Vehicle Mfrs. Ass’n v. State Farm

23

Because the Court concludes that the separation of powers
prevents Defendants from imposing the three conditions at all,
the Court need not consider Plaintiffs’ argument that the
conditions are impermissibly unrelated or ambiguous under the
Spending Clause. See Pls.’ Reply 38–43 & n.34.

156a
Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983) (quoting
Burlington Truck Lines, Inc. v. United States, 371 U.S.
156, 168 (1962)). When an agency changes its policy,
the agency must “‘display awareness that it is changing position’ and ‘show that there are good reasons for
the new policy.’” Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117, 2126 (2016) (quoting FCC v. Fox
Television Stations, Inc., 556 U.S. 502, 515 (2009)).
Agency action is arbitrary and capricious if the agency
“relied on factors which Congress has not intended it
to consider, entirely failed to consider an important
aspect of the problem, offered an explanation for its
decision that runs counter to the evidence before the
agency, or is so implausible that it could not be
ascribed to a difference in view or the product of
agency expertise.” State Farm, 463 U.S. at 43.
In support of the decision to impose the three
conditions, Defendants point to five documents in the
administrative record: (1) a 2007 audit report by DOJ’s
Office of the Inspector General on the cooperation of
jurisdictions participating in the State Criminal Alien
Assistance Program in the removal of criminal aliens
(“2007 OIG Audit”), Holt Decl. Ex. 9, at AR-00001–
109, Doc. 33-9; (2) a May 2016 memorandum from
DOJ’s Office of the Inspector General regarding
alleged violations of § 1373 by grant recipients (“2016
OIG Memo”), Holt Decl. Ex. 9, at AR-00366–375; (3) a
July 2016 memorandum from DOJ’s Office of Justice
Programs responding to the aforementioned memo
(“2016 OJP Memo”), Holt Decl. Ex. 10, at AR-00384–
391, Doc. 33-10; (4) a one-page “Backgrounder” on the
FY 2017 Byrne JAG conditions distributed to the
media “on background,” Holt Decl. Ex. 17, at AR00993, Doc. 33-17; and (5) a July 2017 press release
announcing the conditions that accompanied the

157a
Backgrounder (“Press Release”), Holt Decl. Ex. 17, at
AR-00992.24 See Defs.’ Mem. 24–28.
Defendants claim that the 2007 OIG Audit
described a high level of cooperation on immigration
between the federal and state governments, which
later deteriorated. The audit concluded that “[t]he 99
jurisdictions that responded to the questionnaire
stated almost unanimously that there was no legislation or policy impeding the ability of local officers and
agencies to communicate with ICE on immigrationenforcement matters,” and noted that “many state,
county, and local law enforcement agencies are unwilling to initiate immigration enforcement but have
policies that suggest they are willing to cooperate with
ICE when they arrest individuals on state or local
charges and learn that those individuals may be
criminal aliens.” AR-00040–41, -00044.
The 2016 OIG Memo reported on information that
“differs significantly from what OIG personnel found
nearly 10 years ago during the earlier audit.” AR00367 n.1. The memo stated that the 10 jurisdictions
reviewed had laws or policies that “limited in some
way the authority of the jurisdiction to take action
with regard to ICE detainers,” and opined that certain
policies “may be causing local officials to believe and
apply the policies in a manner that prohibits or
restricts cooperation with ICE in all respects.” AR24

Defendants also cite a declaration from Francisco Madrigal
of Immigration and Customs Enforcement, Doc. 52, but because
it was not part of the administrative record, the Court may not
consider it for purposes of arbitrary-and-capricious review. See
Citizens Against Casino Gambling in Erie Cty. v. Chaudhuri, 802
F.3d 267, 279 (2d Cir. 2015) (stating that review is “limited
to examining the administrative record” (quoting NRDC v.
Muszynski, 268 F.3d 91, 97 (2d Cir. 2001))).

158a
00369, -00373. The memo suggested that DOJ
“consider,” among other things, “[r]equir[ing] grant
applicants to provide certifications specifying the
applicants’ compliance with Section 1373, along with
documentation sufficient to support the certification.”
AR-00374.
The 2016 OJP Memo concluded that “Section 1373
is an applicable federal law for the purposes of the
[Byrne JAG] program,” and stated that OJP had
provided guidance to “grantees and applicants with
clear direction on the requirements of Section 1373.”
AR-00384. The memo noted that “OJP already
requires all applicants for any grant program electronically to acknowledge and accept” a document that
“assures and certifies compliance with all applicable
Federal statutes, regulations, policies, guidelines, and
requirements.” AR-00385.
The Backgrounder announced that DOJ would
impose the Compliance Condition, Access Condition,
and Notice Condition on FY 2017 Byrne JAG grantees,
stating that these conditions have “the goal of
increasing information sharing between federal, state,
and local law enforcement” so that “federal immigration authorities have the information they need to
enforce the law and keep our communities safe.” AR00993. The Backgrounder stated that some grantees
“have adopted policies and regulations that frustrate
the enforcement of federal immigration law, including
by refusing to cooperate with federal immigration
authorities in information sharing about illegal aliens
who commit crimes,” and the new conditions will
“prevent the counterproductive use of federal funds for
policies that frustrate federal immigration enforcement.” Id. Similarly, the Press Release declared DOJ’s
intent to “encourage these ‘sanctuary’ jurisdictions to

159a
change their policies and partner with federal law
enforcement to remove criminals.” AR-00992.
Conspicuously absent from all of these documents is
any discussion of the negative impacts that may result
from imposing the conditions, and the record is devoid
of any analysis that the perceived benefits outweigh
these drawbacks. This absence is particularly glaring
given that Assistant Attorney General Peter J.
Kadzik, in a 2015 letter to Senator Richard Shelby,
stated that withholding Byrne JAG funding to jurisdictions that do not meet immigration-related conditions “would have a significant, and unintended,
impact on the underserved local populations who
benefit from these programs, most of whom have no
connection to immigration policy.”25 Holt Decl. Ex. 9,
at AR-00113. Defendants did not consider whether the
perceived benefits of the conditions outweighed these
negative impacts on underserved local populations or
whether such impacts could be mitigated. Even
though Defendants were aware of these detrimental
effects, they are not addressed anywhere in the
administrative record. While one may well argue
about the weight to be given to such evidence relative
to other factors, it cannot simply be ignored. See El Rio
Santa Cruz Neighborhood Health Ctr., Inc. v. U.S.
Dep’t of Health & Human Servs., 396 F.3d 1265, 1278
(D.C. Cir. 2005) (holding that agency action was arbitrary and capricious where the agency “failed adequately to address relevant evidence before it”); El
Paso Elec. Co. v. FERC, 201 F.3d 667, 672 (5th Cir.
25

Assistant Attorney General Kadzik also noted that “[i]n
many cases . . . the Department does not have the discretion to
suspend funding at all,” because “many Department grant funds
are formula-based, with the eligibility criteria (and related
penalties, if any) set firmly by statute.” AR-00113.

160a
2000) (holding that the agency could not “rely on the
potential advantages of [the action] . . . while ignoring
the potential disadvantages”). In addition, the documents proffered by Defendants do not reflect that they
in any way considered whether jurisdictions’ adherence to the conditions would undermine trust and
cooperation between local communities and government, or the extent to which this would harm public
welfare or frustrate local law enforcement, which is
the very thing that the Byrne JAG program is
supposed to assist. See Or. Nat. Res. Council v.
Thomas, 92 F.3d 792, 798 (9th Cir. 1996) (“Whether an
agency has overlooked ‘an important aspect of the
problem’ . . . turns on what a relevant substantive
statute makes ‘important.’”).
Defendants “entirely failed to consider an important
aspect of the problem” by failing to recognize how the
conditions would harm local populations, undermine
relationships between local communities and law
enforcement, and “interfere[] with local policies that
promote public health and safety.” Philadelphia, 280
F. Supp. 3d at 625 (quoting State Farm, 463 U.S. at
43). Accordingly, the three challenged conditions are
arbitrary and capricious.
E. Mandamus Relief
The States seek mandamus relief compelling
Defendants to reissue their award letters without the
three unlawful conditions and to disburse their FY
2017 awards without regard to those conditions.26 Pls.’
Mem. 47–48.
26

As a result of the preliminary injunction obtained by the
U.S. Conference of Mayors, of which the City is a member, the
City obtained its FY 2017 Byrne JAG award and intends to withdraw its request for mandamus relief, as it confirmed at oral

161a
Under the Mandamus Act, the Court has jurisdiction “to compel an officer or employee of the United
States or any agency thereof to perform a duty owed to
the plaintiff.” 28 U.S.C. § 1361. Mandamus relief is
appropriate only where “(1) the plaintiffs have a right
to have the act performed, (2) the defendant is under
a clear nondiscretionary duty to perform the act
requested, and (3) plaintiff has exhausted all other
avenues of relief.” City of New York v. Heckler, 742
F.2d 729, 739 (2d Cir. 1984).
Defendants object to mandamus relief on the
grounds that they are not legally required to issue the
awards. Defs.’ Mem. 51. They point out that the Byrne
JAG statute provides that the Attorney General “may”
make grants for criminal justice programs. 34 U.S.C.
§ 10152(a)(1). The full text of this provision reads:
(a) Grants authorized
(1) In general
From amounts made available to carry out
this part, the Attorney General may, in
accordance with the formula established
under section 10156 of this title, make
grants to States and units of local government, for use by the State or unit of local
government to provide additional personnel,
equipment, supplies, contractual support,
training, technical assistance, and information systems for criminal justice, including for any one or more of the following
programs:

argument. See City’s Oct. 23, 2018 Letter, Doc. 65; see also U.S.
Conference of Mayors, slip op. at 2; Evanston, slip op. at 11.

162a
(A) Law enforcement programs.
(B) Prosecution and court programs.
(C) Prevention and education programs.
(D) Corrections and community corrections programs.
(E) Drug treatment and enforcement
programs.
(F) Planning, evaluation, and technology
improvement programs.
(G) Crime victim and witness programs
(other than compensation).
(F) Mental health programs and related
law enforcement and corrections programs, including behavioral programs
and crisis intervention teams.
Id.
As noted above, the Byrne JAG grant is “a formula
grant rather than a discretionary grant.” Chicago, 888
F.3d at 285. Thus, in the context of the structure of the
statute and the nondiscretionary nature of the Byrne
JAG formula grant, the single word “may” does not
support the proposition that the Attorney General
may withhold grants entirely. Rather, this provision
means that the Attorney General may issue grants
only for the statutorily prescribed purposes.27 The
mandatory nature of this program is clear from
27

The subsection heading confirms that the provision is meant
to list the particular “[g]rants authorized.” 34 U.S.C. § 10152(a);
see Merit Mgmt. Grp., LP v. FTI Consulting, Inc., 138 S. Ct. 883,
893 (2018) (“Although section headings cannot limit the plain
meaning of a statutory text, ‘they supply cues’ as to what
Congress intended.” (citations omitted)).

163a
§ 10156, which provides that “the Attorney General
shall . . . allocate” funds pursuant to the statutory
formula. 34 U.S.C. § 10156(a)(1) (emphasis added); see
San Francisco, 2018 WL 4859528, at *33 (“The Byrne
JAG program is a formula grant that requires the
Attorney General to disburse funds annually . . . .”);
Philadelphia, 309 F. Supp. 3d at 343–44 (“[T]he JAG
statute is a formula (rather than discretionary) grant,
[and] the JAG Program enabling statute is couched in
mandatory language.” (citation omitted)).
Defendants also suggest that they are under no
statutory deadline to issue grants. Defs.’ Mem. 51.
However, an agency’s “unreasonable delay” may be “so
egregious as to warrant mandamus,” which the Court
assesses in light of several principles:
(1) the time agencies take to make decisions
must be governed by a “rule of reason”; (2)
where Congress has provided a timetable or
other indication of the speed with which it
expects the agency to proceed in the enabling
statute, that statutory scheme may supply
content for this rule of reason; (3) delays that
might be reasonable in the sphere of economic
regulation are less tolerable when human
health and welfare are at stake; (4) the court
should consider the effect of expediting
delayed action on agency activities of a higher
or competing priority; (5) the court should
also take into account the nature and extent
of the interests prejudiced by delay; and (6)
the court need not “find any impropriety
lurking behind agency lassitude in order to
hold that agency action is ‘unreasonably
delayed.’”

164a
Telecomms. Research & Action Ctr. v. FCC, 750 F.2d
70, 79–80 (D.C. Cir. 1984) (citations omitted).
As the district court in San Francisco concluded,
“[e]ach factor supports mandamus relief for the Byrne
JAG grant”:
For the first two factors, delays beyond a year
time frame preclude recipients from receiving
their awards when they need them to support
more immediate projects or programs. The
Byrne JAG program is a formula grant that
requires the Attorney General to disburse
funds annually . . . . Factor three favors relief
because the delay impacts human health and
welfare, particularly [because] Byrne JAG
funds aid [law enforcement programs]. Similarly, factor five supports relief because the
human welfare and community safety [programs] that [Plaintiffs’] grant funding [supports] are at risk of being discontinued for
lack of funding and are prejudiced by this
delay. Expediting this matter, as discussed in
factor four, would not prejudicially affect the
federal government’s tangentially related
interest in federal immigration enforcement.
Finally, the sixth factor . . . would favor relief
because DOJ is withholding grant funding
based on conditions that violate the separation of powers.
San Francisco, 2018 WL 4859528, at *33–34 (citations
omitted); see also Philadelphia, 309 F. Supp. 3d at 343
(“[I]t bears emphasis that Congress specifically set the
JAG Program as an annual award, and the DOJ’s
delay has precluded the City from receiving the
intended award at such time as the City can make
timely use of it.”).

165a
Accordingly, the Court will grant the States
mandamus relief compelling Defendants to reissue
their award letters without the three unlawful
conditions and to disburse their FY 2017 awards
without regard to those conditions.
F. Injunctive Relief
Plaintiffs seek a permanent injunction to bar
Defendants from imposing the three unlawful conditions. Pls.’ Mem. 42–47.
A plaintiff seeking a permanent injunction must
show “(1) that it has suffered an irreparable injury; (2)
that remedies available at law, such as monetary
damages, are inadequate to compensate for that
injury; (3) that, considering the balance of hardships
between the plaintiff and defendant, a remedy in
equity is warranted; and (4) that the public interest
would not be disserved by a permanent injunction.”
Entergy Nuclear Vt. Yankee, LLC v. Shumlin, 733 F.3d
393, 422 (2d Cir. 2013) (quoting Monsanto Co. v.
Geertson Seed Farms, 561 U.S. 139, 156 (2010)). Each
of these factors is satisfied here.
As to the first two factors, Plaintiffs have demonstrated an irreparable “constitutional injury” that cannot be adequately compensated by monetary damages
because Defendants have imposed on them unlawful
conditions that violate the separation of powers. San
Francisco, 2018 WL 4859528, at *30; see Scelsa v. City
Univ. of N.Y., 806 F. Supp. 1126, 1135 (S.D.N.Y. 1992)
(“[A] constitutional deprivation constitutes per se
irreparable harm.”). Plaintiffs have also demonstrated
that complying with the unlawful conditions would
undermine trust between immigrant communities and
local government, which would discourage individuals
from reporting crimes, cooperating with investiga-

166a
tions, and obtaining medical services, thereby harming public safety and welfare. E.g., Pls.’ 56.1 ¶¶ 184,
194. “Trust once lost is not easily restored, and as
such, this is an irreparable harm for which there is no
adequate remedy at law.” Chicago, 321 F. Supp. 3d at
877–78. Furthermore, “the Hobson’s choice that now
confronts [Plaintiffs]—whether to suffer this injury or
else decline much-needed grant funds—is not a choice
at all and is itself sufficient to establish irreparable
harm.” Id. at 878.
As to the third factor, the balance of hardships
weighs in favor of Plaintiffs. As just explained, the
unlawful conditions impose an irreparable injury on
Plaintiffs and encumber more than $29 million in
grant funds that Plaintiffs would otherwise use for law
enforcement and public safety purposes. On the other
side of the scale, Defendants “suffer[] little hardship
here because the injunction does not strip away any
option [they] could otherwise exercise” in pursuit of
their claimed goal of increasing cooperation on immigration matters. Id. at 879. “Though the Attorney
General has many tools at his disposal to increase
such local cooperation, conditioning the Byrne JAG
grant as he has here is not one of them.” Id.
Finally, an injunction will serve the public interest
in the lawful administration of government consistent
with the separation of powers. “By enjoining the
unlawful Conditions, the Court acts as a check on the
executive’s encroachment of congressional power and
thus serves the public interest by constraining the
Attorney General’s authority in order to preserve the
Byrne JAG program as Congress envisioned.” Id.
Accordingly, Plaintiffs are entitled to a permanent
injunction against the three challenged conditions.

167a
A question remains as to the scope of the injunction.
Plaintiffs seek a nationwide injunction barring
Defendants from imposing the conditions on any jurisdiction, contending that unlawful agency action must
be completely set aside and forcing other jurisdictions
to relitigate issues that are not fact dependent would
be inefficient. Pls.’ Mem. 46–47. Defendants ask that
injunctive relief be limited to the parties before the
Court, arguing that a broader scope is unnecessary to
accord relief to the parties and would short circuit the
percolation of these issues in courts around the
country. Defs.’ Mem. 52–55.
“Once a constitutional violation is found, a federal
court is required to tailor ‘the scope of the remedy’ to
fit ‘the nature and extent of the constitutional violation.’” Hills v. Gautreaux, 425 U.S. 284, 293–94 (1976)
(quoting Milliken v. Bradley, 418 U.S. 717, 744 (1974)).
Although “the scope of a district court’s equitable
powers to remedy past wrongs is broad,” Swann v.
Charlotte-Mecklenburg Bd. of Ed., 402 U.S. 1, 15
(1971), “‘injunctive relief should be no more burdensome to the defendant than necessary to provide
complete relief to the plaintiffs’ before the court,” L.A.
Haven Hospice, Inc. v. Sebelius, 638 F.3d 644, 664 (9th
Cir. 2011) (quoting Califano v. Yamasaki, 442 U.S.
682, 702 (1979)). Thus, “[w]here relief can be structured on an individual basis, it must be narrowly
tailored to remedy the specific harm shown,” but “an
injunction is not necessarily made over-broad by
extending benefit or protection to persons other than
prevailing parties in the lawsuit—even if it is not a
class action—if such breadth is necessary to give
prevailing parties the relief to which they are
entitled.” Bresgal v. Brock, 843 F.2d 1163, 1170–71
(9th Cir. 1987) (emphasis omitted).

168a
Here, Plaintiffs have not made a sufficient showing
of “nationwide impact” demonstrating that a nationwide injunction is necessary to completely accord relief
to them. City & County of San Francisco v. Trump, 897
F.3d 1225, 1244 (9th Cir. 2018). Moreover, the Court
notes that of the courts handling the Byrne JAG
litigation around the country, only one has issued a
nationwide injunction, which was briefly affirmed by
the Seventh Circuit, only to be stayed as to the nationwide scope pending en banc review. See generally City
of Chicago v. Sessions, No. 17-2991, 2018 WL 4268814,
at *1 (7th Cir. Aug. 10, 2018). Since then, each district
court to consider a nationwide injunction against the
Byrne JAG conditions has stayed the injunction’s
nationwide scope. See San Francisco, 2018 WL
4859528, at *30; Chicago, 321 F. Supp. 3d at 882. At
this juncture, the Court will similarly limit injunctive
relief to the parties before the Court and their political
subdivisions.28

28

At oral argument, the States requested that, to the extent
the Court limits injunctive relief to the parties, such relief also
extend to the States’ political subdivisions, which may be direct
grantees or subgrantees of the Byrne JAG program. The political
subdivisions experience the same injuries described earlier,
which necessarily flow to the States by virtue of the subdivisions’
position within the States’ geographic boundaries and political
systems, and which are compounded insofar as the States must
make and monitor compliance with subdivisions’ subgrants with
unlawful conditions. Accordingly, the Court agrees that in order
to accord complete relief to the States, an injunction must protect
both the States and their political subdivisions. See California ex
rel. Becerra v. Sessions, No. 17 Civ. 04701 (WHO), 2018 WL
6069940, at *1 (N.D. Cal. Nov. 20, 2018) (enjoining the challenged
conditions from being imposed on “any California state entity” or
“any California political subdivision”).

169a
IV. Conclusion
Plaintiffs’ motion for partial summary judgment is
GRANTED, and Defendants’ motion for partial summary judgment or in the alternative to dismiss is
DENIED. Specifically, the Court hereby ORDERS as
follows:
1. The Notice, Access, and Compliance Conditions are ultra vires and not in accordance with law under the APA. Summary
judgment is GRANTED to the States on
their Counts II and III and to the City on
its Count II.
2. 8 U.S.C. § 1373(a)–(b), insofar as it applies
to states and localities, is facially unconstitutional under the anticommandeering
doctrine of the Tenth Amendment. Summary judgment is GRANTED to the States
on their Count V and to the City on its
Counts V and XI.
3. The Notice, Access, and Compliance Conditions violate the constitutional separation of powers. Summary judgment is
GRANTED to the States on their Count I
and to the City on its Count I. The motions
for summary judgment with respect to the
City’s Count IV (violation of the Spending
Clause) are DENIED as moot.
4. The Notice, Access, and Compliance Conditions are arbitrary and capricious under
the APA. Summary judgment is GRANTED
to the States on their Count IV and to the
City on its Count III.

170a
5. Defendants are MANDATED to reissue
the States’ FY 2017 Byrne JAG award
documents without the Notice, Access,
or Compliance Conditions, and upon
acceptance, to disburse those awards as
they would in the ordinary course without
regard to those conditions.
6. Defendants are ENJOINED from imposing or enforcing the Notice, Access, or
Compliance Conditions for FY 2017 Byrne
JAG funding for the States, the City, or
any of their agencies or political subdivisions.
The Clerk of the Court is respectfully directed to
terminate the motions, Docs. 56 and 88 in No. 18 Civ.
6471, and Docs. 21 and 50 in No. 18 Civ. 6474, and to
update the docket as noted in the caption.
It is SO ORDERED.
Dated: November 30, 2018
New York, New York
/s/ Edgardo Ramos, U.S.D.J.
Edgardo Ramos, U.S.D.J.

171a
APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
[Filed January 4, 2019]
————
18 Civ. 6471 (ER)
18 Civ. 6474 (ER)
————
STATES OF NEW YORK, CONNECTICUT, NEW JERSEY,
RHODE ISLAND, and WASHINGTON, and
COMMONWEALTHS OF MASSACHUSETTS and VIRGINIA,
Plaintiffs,
—against—
UNITED STATES DEPARTMENT OF JUSTICE, and
MATTHEW G. WHITAKER, in his official capacity as
Acting Attorney General of the United States,
Defendants.
————
CITY OF NEW YORK,
Plaintiff,
—against—
MATTHEW G. WHITAKER, in his official capacity as
Acting Attorney General of the United States, and
UNITED STATES DEPARTMENT OF JUSTICE,
Defendants.
————

172a
ORDER
Ramos, D.J.:
On November 30,2018, the Court issued an Opinion
and Order granting Plaintiffs’ motion for partial
summary judgment, denying Defendants’ motion for
partial summary judgment or in the alternative to
dismiss, and granting declaratory, mandamus, and
injunctive relief. Doc. 114, at 42-43, No. 18 Civ. 6471;
Doc. 81, at 42-43, No. 18 Civ. 6474. Pending before the
Court are the parties’ requests to modify the mandamus relief ordered by the Court in Paragraph 5 of the
“Conclusion” section of its Opinion and Order. Docs.
117, 119, 121, No. 18 Civ. 6471; Docs. 82, 85, 86, No.
18 Civ. 6474.
Defendants request that the mandamus relief be
modified to remove the requirement that Defendants
issue the FY 2017 Byrne JAG award documents without the text of the Notice, Access, or Compliance
Conditions, and instead require Defendants to issue
the awards without enforcement of those conditions,
which are already enjoined pursuant to Paragraph 6.
Plaintiffs do not oppose this request, but request a
further modification clarifying that acceptance of the
awards will not be construed as acceptance of the
enjoined conditions. Defendants likewise do not
oppose this additional modification. The Court agrees
with the parties’ proposed modifications and will order
them accordingly. See California ex rel. Becerra v.
Sessions, No. 17 Civ. 04701 (WHO), 2018 WL 6069940,
at *2 (N.D. Cal. Nov. 20, 2018).
Plaintiffs also request that Defendants inform them
of the expected timing of the disbursement of the
Byrne JAG funds. Defendants respond that, in light of
the lapse of appropriations to the Department of

173a
Justice on December 21, 2018, Defendants cannot
estimate when Plaintiffs’ Byrne JAG funds will be
disbursed until the appropriations are restored and
Plaintiffs return their executed award letters. The
Court will direct Defendants to provide such an estimate upon the occurrence of these events.
Accordingly, Paragraph 5 of the “Conclusion” section
of the Court’s Opinion and Order is hereby modified to
read as follows: “Defendants are MANDATED to issue
the States’ FY 2017 Byrne JAG award documents, and
upon acceptance by those jurisdictions, to disburse
those awards as they would in the ordinary course but
without regard to the Notice, Access, or Compliance
Conditions. Acceptance of the FY 2017 awards shall
not be construed as acceptance of the enjoined conditions.”
Upon restoration of appropriations to the Department of Justice and Plaintiffs’ acceptance of the award
documents, Defendants are directed to inform Plaintiffs of the expected timing of the disbursement of their
FY 2017 Byrne JAG funds. The Court expects that,
upon the occurrence of these events, Defendants will
disburse the funds without further delay.
The Clerk of the Court is respectfully directed to terminate the motions, Doc. 117 in No. 18 Civ. 6471, and
Doc. 82 in No. 18 Civ. 6474.
It is SO ORDERED.
Dated: January 4, 2019
New York, New York
/s/Edgardo Ramos
Edgardo Ramos, U.S.D.J.

174a
APPENDIX E
U.S. Constitution, amend. X.
The powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.
————
8 U.S.C. § 1373.
8 U.S.C. § 1373. Communication between government agencies and the Immigration and Naturalization Service
(a) In general
Notwithstanding any other provision of Federal,
State, or local law, a Federal, State, or local government entity or official may not prohibit, or in any way
restrict, any government entity or official from sending to, or receiving from, the Immigration and Naturalization Service information regarding the citizenship or immigration status, lawful or unlawful, of any
individual.
(b) Additional authority of government entities
Notwithstanding any other provision of Federal,
State, or local law, no person or agency may prohibit,
or in any way restrict, a Federal, State, or local government entity from doing any of the following with
respect to information regarding the immigration
status, lawful or unlawful, of any individual:
(1) Sending such information to, or requesting or
receiving such information from, the Immigration
and Naturalization Service.
(2) Maintaining such information.

175a
(3) Exchanging such information with any other
Federal, State, or local government entity.
(c) Obligation to respond to inquiries
The Immigration and Naturalization Service shall
respond to an inquiry by a Federal, State, or local
government agency, seeking to verify or ascertain the
citizenship or immigration status of any individual
within the jurisdiction of the agency for any purpose
authorized by law, by providing the requested verification or status information.
————
34 U.S.C. § 10228(a).
34 U.S.C. § 10228. Prohibition of Federal control
over State and local criminal justice agencies;
prohibition of discrimination
(a) General rule
Nothing in this chapter or any other Act shall be
construed to authorize any department, agency, officer,
or employee of the United States to exercise any
direction, supervision, or control over any police force
or any other criminal justice agency of any State or
any political subdivision thereof.
————

176a
34 U.S.C. §§ 10151–10158.
34 U.S.C. § 10151. Name of program
(a) In general
The grant program established under this part shall
be known as the “Edward Byrne Memorial Justice
Assistance Grant Program”.
(b) References to former programs
(1) Any reference in a law, regulation, document,
paper, or other record of the United States to the
Edward Byrne Memorial State and Local Law
Enforcement Assistance Programs, or to the Local
Government Law Enforcement Block Grants program, shall be deemed to be a reference to the grant
program referred to in subsection (a).
(2) Any reference in a law, regulation, document,
paper, or other record of the United States to
section 506 of this Act as such section was in effect
on the date of the enactment of the Department of
Justice Appropriations Authorization Act, Fiscal
Years 2006 through 2009,1 shall be deemed to be a
reference to section 505(a) of this Act as amended
by the Department of Justice Appropriations
Authorization Act, Fiscal Years 2006 through 2009.
34 U.S.C. § 10152. Description
(a) Grants authorized
(1) In general
From amounts made available to carry out this
part, the Attorney General may, in accordance with
the formula established under section 10156 of this
title, make grants to States and units of local
government, for use by the State or unit of local

177a
government to provide additional personnel,
equipment, supplies, contractual support, training,
technical assistance, and information systems for
criminal justice, including for any one or more of
the following programs:
(A) Law enforcement programs.
(B) Prosecution and court programs.
(C) Prevention and education programs.
(D) Corrections and community corrections
programs.
(E) Drug treatment and enforcement programs.
(F) Planning, evaluation,
improvement programs.

and

technology

(G) Crime victim and witness programs (other
than compensation).
(H) Mental health programs and related law
enforcement and corrections programs, including behavioral programs and crisis intervention
teams.
(2) Rule of construction
Paragraph (1) shall be construed to ensure that a
grant under that paragraph may be used for any
purpose for which a grant was authorized to be
used under either or both of the programs specified
in section 10151(b) of this title, as those programs
were in effect immediately before January 5, 2006.
(b) Contracts and subawards
A State or unit of local government may, in using a
grant under this part for purposes authorized by
subsection (a), use all or a portion of that grant to

178a
contract with or make one or more subawards to one
or more—
(1) neighborhood or community-based organizations that are private and nonprofit; or
(2) units of local government.
(c) Program assessment component; waiver
(1) Each program funded under this part shall contain a program assessment component, developed
pursuant to guidelines established by the Attorney
General, in coordination with the National
Institute of Justice.
(2) The Attorney General may waive the requirement of paragraph (1) with respect to a program if,
in the opinion of the Attorney General, the program
is not of sufficient size to justify a full program
assessment.
(d) Prohibited uses
Notwithstanding any other provision of this Act, no
funds provided under this part may be used, directly
or indirectly, to provide any of the following matters:
(1) Any security enhancements or any equipment
to any nongovernmental entity that is not engaged
in criminal justice or public safety.
(2) Unless the Attorney General certifies that
extraordinary and exigent circumstances exist that
make the use of such funds to provide such matters
essential to the maintenance of public safety and
good order—
(A) vehicles (excluding police cruisers), vessels
(excluding police boats), or aircraft (excluding
police helicopters);

179a
(B) luxury items;
(C) real estate;
(D) construction projects (other than penal or
correctional institutions); or
(E) any similar matters.
(e) Administrative costs
Not more than 10 percent of a grant made under this
part may be used for costs incurred to administer such
grant.
(f) Period
The period of a grant made under this part shall be
four years, except that renewals and extensions
beyond that period may be granted at the discretion of
the Attorney General.
(g) Rule of construction
Subparagraph (d)(1) shall not be construed to prohibit
the use, directly or indirectly, of funds provided under
this part to provide security at a public event, such as
a political convention or major sports event, so long as
such security is provided under applicable laws and
procedures.
34 U.S.C. § 10153. Applications
(A)1 In general
To request a grant under this part, the chief executive
officer of a State or unit of local government shall
submit an application to the Attorney General within
120 days after the date on which funds to carry out
this part are appropriated for a fiscal year, in such
1

So in original. Probably should be “(a)”.

180a
form as the Attorney General may require. Such
application shall include the following:
(1) A certification that Federal funds made available under this part will not be used to supplant
State or local funds, but will be used to increase the
amounts of such funds that would, in the absence
of Federal funds, be made available for law
enforcement activities.
(2) An assurance that, not fewer than 30 days
before the application (or any amendment to the
application) was submitted to the Attorney General, the application (or amendment) was submitted for review to the governing body of the State or
unit of local government (or to an organization
designated by that governing body).
(3) An assurance that, before the application (or
any amendment to the application) was submitted
to the Attorney General—
(A) the application (or amendment) was made
public; and
(B) an opportunity to comment on the application (or amendment) was provided to citizens
and to neighborhood or community-based organizations, to the extent applicable law or established procedure makes such an opportunity
available.
(4) An assurance that, for each fiscal year covered
by an application, the applicant shall maintain and
report such data, records, and information (programmatic and financial) as the Attorney General
may reasonably require.
(5) A certification, made in a form acceptable to the
Attorney General and executed by the chief

181a
executive officer of the applicant (or by another
officer of the applicant, if qualified under regulations promulgated by the Attorney General), that—
(A) the programs to be funded by the grant meet
all the requirements of this part;
(B) all the information contained in the application is correct;
(C) there has been appropriate coordination
with affected agencies; and
(D) the applicant will comply with all provisions
of this part and all other applicable Federal
laws.
(6) A comprehensive Statewide plan detailing how
grants received under this section will be used to
improve the administration of the criminal justice
system, which shall—
(A) be designed in consultation with local governments, and representatives of all segments
of the criminal justice system, including judges,
prosecutors, law enforcement personnel, corrections personnel, and providers of indigent defense
services, victim services, juvenile justice delinquency prevention programs, community corrections, and reentry services;
(B) include a description of how the State will
allocate funding within and among each of the
uses described in subparagraphs (A) through
(G) of section 10152(a)(1) of this title;
(C) describe the process used by the State for
gathering evidence-based data and developing
and using evidence-based and evidence-gathering
approaches in support of funding decisions;

182a
(D) describe the barriers at the State and local
level for accessing data and implementing
evidence-based approaches to preventing and
reducing crime and recidivism; and
(E) be updated every 5 years, with annual
progress reports that—
(i) address changing circumstances in the
State, if any;
(ii) describe how the State plans to adjust
funding within and among each of the uses
described in subparagraphs (A) through (G)
of section 10152(a)(1) of this title;
(iii) provide an ongoing assessment of need;
(iv) discuss the accomplishment of goals
identified in any plan previously prepared
under this paragraph; and
(v) reflect how the plan influenced funding
decisions in the previous year.
(b) Technical assistance
(1) Strategic planning
Not later than 90 days after December 16, 2016,
the Attorney General shall begin to provide technical assistance to States and local governments
requesting support to develop and implement the
strategic plan required under subsection (a)(6). The
Attorney General may enter into agreements with
1 or more non-governmental organizations to provide technical assistance and training under this
paragraph.

183a
(2) Protection of constitutional rights
Not later than 90 days after December 16, 2016,
the Attorney General shall begin to provide technical assistance to States and local governments,
including any agent thereof with responsibility for
administration of justice, requesting support to
meet the obligations established by the Sixth
Amendment to the Constitution of the United
States, which shall include—
(A) public dissemination of practices, structures, or models for the administration of justice
consistent with the requirements of the Sixth
Amendment; and
(B) assistance with adopting and implementing
a system for the administration of justice consistent with the requirements of the Sixth
Amendment.
(3) Authorization of appropriations
For each of fiscal years 2017 through 2021, of the
amounts appropriated to carry out this subpart,
not less than $5,000,000 and not more than
$10,000,000 shall be used to carry out this
subsection.
34 U.S.C. § 10154. Review of applications
The Attorney General shall not finally disapprove any
application (or any amendment to that application)
submitted under this part without first affording the
applicant reasonable notice of any deficiencies in
the application and opportunity for correction and
reconsideration.

184a
34 U.S.C. § 10155. Rules
The Attorney General shall issue rules to carry out
this part. The first such rules shall be issued not later
than one year after the date on which amounts are
first made available to carry out this part.
34 U.S.C. § 10156. Formula
(a) Allocation among States
(1) In general
Of the total amount appropriated for this part, the
Attorney General shall, except as provided in
paragraph (2), allocate—
(A) 50 percent of such remaining amount to
each State in amounts that bear the same ratio
of—
(i) the total population of a State to—
(ii) the total population of the United States;
and
(B) 50 percent of such remaining amount to
each State in amounts that bear the same ratio
of—
(i) the average annual number of part 1
violent crimes of the Uniform Crime Reports
of the Federal Bureau of Investigation
reported by such State for the three most
recent years reported by such State to—
(ii) the average annual number of such
crimes reported by all States for such years.
(2) Minimum allocation
If carrying out paragraph (1) would result in any
State receiving an allocation less than 0.25 percent

185a
of the total amount (in this paragraph referred to
as a “minimum allocation State”), then paragraph
(1), as so carried out, shall not apply, and the
Attorney General shall instead—
(A) allocate 0.25 percent of the total amount to
each State; and
(B) using the amount remaining after carrying
out subparagraph (A), carry out paragraph (1)
in a manner that excludes each minimum
allocation State, including the population of and
the crimes reported by such State.
(b) Allocation between States and units of local
government
Of the amounts allocated under subsection (a)—
(1) 60 percent shall be for direct grants to States,
to be allocated under subsection (c); and
(2) 40 percent shall be for grants to be allocated
under subsection (d).
(c) Allocation for State governments
(1) In general
Of the amounts allocated under subsection (b)(1),
each State may retain for the purposes described in
section 10152 of this title an amount that bears the
same ratio of—
(A) total expenditures on criminal justice by the
State government in the most recently
completed fiscal year to—
(B) the total expenditure on criminal justice by
the State government and units of local
government within the State in such year.

186a
(2) Remaining amounts
Except as provided in subsection (e)(1), any
amounts remaining after the allocation required by
paragraph (1) shall be made available to units of
local government by the State for the purposes
described in section 10152 of this title.
(d) Allocations to local governments
(1) In general
Of the amounts allocated under subsection (b)(2),
grants for the purposes described in section 10152
of this title shall be made directly to units of local
government within each State in accordance with
this subsection, subject to subsection (e).
(2) Allocation
(A) In general
From the amounts referred to in paragraph (1)
with respect to a State (in this subsection
referred to as the “local amount”), the Attorney
General shall allocate to each unit of local
government an amount which bears the same
ratio to such share as the average annual
number of part 1 violent crimes reported by
such unit to the Federal Bureau of Investigation
for the 3 most recent calendar years for which
such data is available bears to the number of
part 1 violent crimes reported by all units of
local government in the State in which the unit
is located to the Federal Bureau of Investigation
for such years.
(B) Transitional rule
Notwithstanding subparagraph (A), for fiscal
years 2006, 2007, and 2008, the Attorney

187a
General shall allocate the local amount to units
of local government in the same manner that,
under the Local Government Law Enforcement
Block Grants program in effect immediately
before January 5, 2006, the reserved amount
was allocated among reporting and nonreporting units of local government.
(3) Annexed units
If a unit of local government in the State has been
annexed since the date of the collection of the data
used by the Attorney General in making allocations
pursuant to this section, the Attorney General
shall pay the amount that would have been allocated to such unit of local government to the unit
of local government that annexed it.
(4) Resolution of disparate allocations
(A) Notwithstanding any other provision of this
part, if—
(i) the Attorney General certifies that a unit
of local government bears more than 50
percent of the costs of prosecution or incarceration that arise with respect to part 1
violent crimes reported by a specified geographically constituent unit of local government; and
(ii) but for this paragraph, the amount of
funds allocated under this section to—
(I) any one such specified geographically
constituent unit of local government
exceeds 150 percent of the amount allocated to the unit of local government
certified pursuant to clause (i); or

188a
(II) more than one such specified geographically constituent unit of local government exceeds 400 percent of the
amount allocated to the unit of local
government certified pursuant to clause
(i),
then in order to qualify for payment under
this subsection, the unit of local government
certified pursuant to clause (i), together with
any such specified geographically constituent units of local government described in
clause (ii), shall submit to the Attorney
General a joint application for the aggregate
of funds allocated to such units of local
government. Such application shall specify
the amount of such funds that are to be
distributed to each of the units of local
government and the purposes for which such
funds are to be used. The units of local
government involved may establish a joint
local advisory board for the purposes of
carrying out this paragraph.
(B) In this paragraph, the term “geographically
constituent unit of local government” means a
unit of local government that has jurisdiction
over areas located within the boundaries of an
area over which a unit of local government
certified pursuant to clause (i) has jurisdiction.
(e) Limitation on allocations to units of local
government
(1) Maximum allocation
No unit of local government shall receive a
total allocation under this section that exceeds
such unit’s total expenditures on criminal justice

189a
services for the most recently completed fiscal year
for which data are available. Any amount in excess
of such total expenditures shall be allocated proportionally among units of local government whose
allocations under this section do not exceed their
total expenditures on such services.
(2) Allocations under $10,000
If the allocation under this section to a unit of local
government is less than $10,000 for any fiscal year,
the direct grant to the State under subsection (c)
shall be increased by the amount of such allocation,
to be distributed (for the purposes described in
section 10152 of this title) among State police
departments that provide criminal justice services
to units of local government and units of local
government whose allocation under this section is
less than $10,000.
(3) Non-reporting units
No allocation under this section shall be made to a
unit of local government that has not reported at
least three years of data on part 1 violent crimes of
the Uniform Crime Reports to the Federal Bureau
of Investigation within the immediately preceding
10 years.
(f) Funds not used by the State
If the Attorney General determines, on the basis of
information available during any grant period, that
any allocation (or portion thereof) under this section to
a State for such grant period will not be required, or
that a State will be unable to qualify or receive funds
under this part, or that a State chooses not to
participate in the program established under this part,
then such State’s allocation (or portion thereof) shall

190a
be awarded by the Attorney General to units of local
government, or combinations thereof, within such
State, giving priority to those jurisdictions with the
highest annual number of part 1 violent crimes of the
Uniform Crime Reports reported by the unit of local
government to the Federal Bureau of Investigation for
the three most recent calendar years for which such
data are available.
(g) Special rules for Puerto Rico
(1) All funds set aside for Commonwealth
government
Notwithstanding any other provision of this part,
the amounts allocated under subsection (a) to
Puerto Rico, 100 percent shall be for direct grants
to the Commonwealth government of Puerto Rico.
(2) No local allocations
Subsections (c) and (d) shall not apply to Puerto
Rico.
(h) Units of local government in Louisiana
In carrying out this section with respect to the State of
Louisiana, the term “unit of local government” means
a district attorney or a parish sheriff.
(i) Part 1 violent crimes to include human
trafficking
For purposes of this section, the term “part 1 violent
crimes” shall include severe forms of trafficking in
persons (as defined in section 7102 of title 22).
34 U.S.C. § 10157. Reserved funds
(a) Of the total amount made available to carry out
this part for a fiscal year, the Attorney General shall
reserve not more than—

191a
(1) $20,000,000, for use by the National Institute of
Justice in assisting units of local government to
identify, select, develop, modernize, and purchase
new technologies for use by law enforcement, of
which $1,000,000 shall be for use by the Bureau of
Justice Statistics to collect data necessary for
carrying out this part; and
(2) $20,000,000, to be granted by the Attorney
General to States and units of local government to
develop and implement antiterrorism training
programs.
(b) Of the total amount made available to carry out
this part for a fiscal year, the Attorney General may
reserve not more than 5 percent, to be granted to 1 or
more States or units of local government, for 1 or more
of the purposes specified in section 10152 of this title,
pursuant to his determination that the same is
necessary—
(1) to combat, address, or otherwise respond to
precipitous or extraordinary increases in crime, or
in a type or types of crime; or
(2) to prevent, compensate for, or mitigate
significant programmatic harm resulting from
operation of the formula established under section
10156 of this title.
34 U.S.C. § 10158. Interest-bearing trust funds
(a) Trust fund required
A State or unit of local government shall establish a
trust fund in which to deposit amounts received under
this part.

192a
(b) Expenditures
(1) In general
Each amount received under this part (including
interest on such amount) shall be expended before
the date on which the grant period expires.
(2) Repayment
A State or unit of local government that fails to
expend an entire amount (including interest on
such amount) as required by paragraph (1) shall
repay the unexpended portion to the Attorney
General not later than 3 months after the date on
which the grant period expires.
(3) Reduction of future amounts
If a State or unit of local government fails to comply
with paragraphs (1) and (2), the Attorney General
shall reduce amounts to be provided to that State
or unit of local government accordingly.
(c) Repaid amounts
Amounts received as repayments under this section
shall be subject to section 10108 of this title as if such
amounts had not been granted and repaid. Such
amounts shall be deposited in the Treasury in a
dedicated fund for use by the Attorney General to
carry out this part. Such funds are hereby made
available to carry out this part.

